<html>
<title> - HEARING ON H.R. 2438, AND H.R. 1995</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                  HEARING ON H.R. 2438, AND H.R. 1995

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2438

   TO ENCOURAGE THE ESTABLISHMENT OF APPROPRIATE TRAILS ON ABANDONED 
   RAILROAD RIGHTS-OF-WAY, WHILE ENSURING THE PROTECTION OF CERTAIN 
                      REVERSIONARY PROPERTY RIGHTS

                               H.R. 1995

 TO PROVIDE FOR THE PROTECTION OF FARMLAND AT THE POINT REYES NATIONAL 
                    SEASHORE, AND FOR OTHER PURPOSES

                               ----------                              

                    OCTOBER 30, 1997, WASHINGTON, DC

                               ----------                              

                           Serial No. 105-76

                               ----------                              

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-626 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                  P. Daniel Smith, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held October 30, 1997....................................     1

Statements of Members:
    Boxer, Hon. Barbara, a Senator in Congress from the State of 
      California, prepared statement of..........................     4
    Christian-Green, Hon. Donna M., a Delelgate in Congress from 
      the Territory of the Virgin Islands, prepared statement of.    22
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     3
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     2
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado, prepared statement of...................     5
    Ryun, Hon. Jim, a Representative in Congress from the State 
      of Kansas..................................................     7
        Prepared statement of....................................    10
    Vento, Hon. Bruce, a Representative in Congress from the 
      State of Minnesota.........................................     5
    Woolsey, Hon. Lynn, a Representative in Congress from the 
      State of California........................................    12
        Additional material submitted for the record by..........   307

Statements of witnesses:
    Ackerson, Nels, Attorney, The Ackerson Group.................    37
        Prepared statement of....................................    99
    Allen, Richard, Landowner....................................    54
        Prepared statement of....................................   130
    Berner, Robert, Executive Director, Marin Agricultural Land 
      Trust......................................................    65
        Prepared statement of....................................   143
    Borello, Judy, Rancher.......................................    78
        Prepared statement of....................................   157
    Coletti, Mary, Rancher.......................................    75
        Prepared statement of....................................   153
        Additional material submitted for the record by..........   216
    Cummiskey, Vicki, Mayor, city of Ottawa, Kansas, prepared 
      statement of...............................................   177
    Doughty, Sharon, Dairy Rancher...............................    66
        Prepared statement of....................................   145
    Furlong, Donna, Rancher......................................    77
        Prepared statement of....................................   155
    Glosemeyer, Jane, Landowner..................................    41
        Prepared statement of....................................   113
    Hodgson, Hon. Janice, Mayor, City of Garnett.................    53
        Prepared statement of....................................   127
    Kinsey, Steve, Supervisor, Fourth District, County of Marin..    63
        Prepared statement of....................................   141
    Kitay, Evelyn, Senior Trial Attorney, Office of the General 
      Counsel, Surface Transportation Board......................    26
        Prepared statement of....................................    93
    McIntyre, Amelia J., Legal Counsel, city of Garnett, prepared 
      statement of...............................................   165
    Newman, Bill, Vice President and Washington Counsel, Conrail.    56
        Prepared statement of....................................   136
    Norton, Edward, Board Member, National Trust for Historic 
      Preservation...............................................    51
        Prepared statement of....................................   117
    Pozzi, Martin and Sally, Ranchers............................    73
        Prepared statement of Mr. Pozzi..........................   150
    Stevenson, Kate, Associate Director, Cultural Resource 
      Stewardship and Partnerships, The National Park Service....    24
        Prepared statement of....................................    84
    Welsh, Richard, Executive Director, National Association of 
      Reversionary Property Owners...............................    39
        Prepared statement of....................................   109
    Woodbury, Howard, Landowner..................................    42
        Prepared statement of....................................   115

Additional material supplied:
    Point Reyes National Seashore, California....................   179


  HEARING ON H.R. 2438, TO ENCOURAGE THE ESTABLISHMENT OF APPROPRIATE 
    TRAILS ON ABANDONED RAILROAD RIGHTS-OF-WAY, WHILE ENSURING THE 
         PROTECTION OF CERTAIN REVERSIONARY PROPERTY RIGHTS AND



H.R. 1995, TO PROVIDE FOR THE PROTECTION OF FARMLAND AT THE POINT REYES 
               NATIONAL SEASHORE, AND FOR OTHER PURPOSES

                              ----------                              


                       THURSDAY, OCTOBER 30, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 1324, Longworth House Office Building, Hon. James V. 
Hansen (chairman of the Subcommittee) presiding.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The Committee will come to order.
    Good morning and welcome to the hearing. Today we will hear 
testimony on two bills. One amends the National Trails System 
Act, and the other provides protection to farmlands in 
California. We are pleased to have two Members of Congress to 
testify on these bills, along with the other witnesses.
    I would like to welcome Congressman Jim Ryun, who will 
explain H.R. 2438, and Congresswoman Lynn Woolsey, who will 
explain H.R. 1995.
    Before these hearings, however, I need to proceed with the 
legislation markup of H.R. 2186.
    [Whereupon, at 10:02 a.m., the Subcommittee proceeded to 
other business.]
    Mr. Hansen. Let's see--we'll now go back to the legislative 
hearing.
    H.R. 2438 was introduced by Congressman Jim Ryun of Kansas 
to establish appropriate trails on abandoned railroad rights-
of-way. This bill will amend the National Trails System Act to 
ensure protection of private property rights on lands which 
once held an active railroad easement and modifies the language 
in the existing Act to allow other uses, but still retains the 
recreational use where it is appropriate. H.R. 2438 also 
assures that State laws regarding railroad easements and 
rights-of-ways will not be preempted by Federal statute.
    The second bill the Committee will hear today is H.R. 1995, 
the Point Reyes National Seashore Farmland Protection Act of 
1997, introduced by Mrs. Woolsey of California.
    This bill creates a farmland protection area in Marin and 
Sonoma--is that how you pronounce that--Sonoma Counties--is 
that right, Lynn?
    Ms. Woolsey. That's correct.
    Mr. Hansen. [continuing] in California, consisting of 
38,000 acres of privately owned land by expanding the existing 
boundary of the Point Reyes National Seashore. This bill is 
opposed by some people here who will give their objection to 
it. There is also the concern of acquisition of development 
easements by the Secretary of the Interior. This legislation 
could set a precedent, and I would hope that members would take 
a close look at both bills.
    I will now recognize my distinguished colleague from 
American Samoa for any opening remarks he may have.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning everyone and welcome to the hearing. Today we 
will hear testimony on two bills. One amends the National 
Trails System Act and the other provides protection to farm 
land in California. We are pleased to have two Members of 
Congress to testify on these bills, along with the other 
witnesses.
    I would like to welcome:
    Congressman Jim Ryun who will explain H.R. 2438 and, 
Congresswoman Lynn Woolsey who will explain H.R. 1995
    But before these hearings however, I need to proceed to the 
legislative markup of H.R. 2186. I would like to begin by 
saying that Congresswoman Cubin wanted to be here to explain 
H.R. 2186, however, she has just undergone major back surgery 
and is unable to attend. I certainly wish her a very speedy and 
complete recovery.
    Now, I will get back to the legislative hearings.
    H.R. 2438 was introduced by Congressman Jim Ryun of Kansas 
to establish appropriate trails on abandoned railroad rights-
of-way. This bill will amend the National Trails System Act to 
ensure protection of private property rights on lands which 
once held an active railroad easements and modifies the 
language in the existing Act to allow other interim uses, but 
still retains the recreational use where it is appropriate. 
H.R. 2438 also assures that state laws regarding railroad 
easements and rights-of-way will not be preempted by Federal 
statute.
    The second bill the Subcommittee will hear testimony on 
today is H.R. 1995, The Point Reyes National Seashore Farmland 
Protection Act of 1997, introduced by Mrs. Woolsey of 
California.
    This legislation is very controversial in nature, and was 
scheduled for a hearing before this Subcommittee only at the 
insistence of Chairman Young. This bill creates a ``Farmland 
Protection Area'' in Marin and Sonoma counties in California, 
consisting of approximately 38,000 acres of privately owned, 
productive agricultural land, outside the existing boundary of 
the Point Reyes National Seashore. The bill is opposed by a 
majority of the affected landowners who control approximately 
75 percent of the land in question.
    We will hear testimony from these directly affected 
landowners that will emphasize how this involuntary inclusion 
within a National Park Service boundary will affect the value 
of this land, and the future of agriculture in this area that 
their families have protected for over 100 years!
    We will also hear from officials representing Marin County 
and the Marin Agricultural Land Trust to explain why Federal 
taxpayers must bail out the most wealthy per capita income 
county in the United States, by purchasing development rights 
on privately owned land that is already protected from 
development by local zoning, and comprehensive State of 
California programs, such as the Williamson Act and the Coastal 
Zone Management Act.
    Finally, we will hear that the Congress has already 
provided a voluntary, agricultural conservation easement 
program on a national basis in the 1996 Farm Bill. H.R. 1995 
attempts to fund agricultural easements through the National 
Park System at a time when the land acquisition backlog is over 
$1.2 billion. The bill intends to place a burden on the Land 
and Water Conservation fund of $30 million, to an estimated $80 
million, to enhance Point Reyes National Seashore and the 
Golden Gate National Recreation Area for which the American 
taxpayer has already paid over $145 million for land 
acquisition, and will spend more this year!! The hearing today 
is before the Subcommittee on National Parks and Public Lands, 
there should be no mistake that H.R. 1995 is a park expansion 
bill, not an agricultural bill!

STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELGATE TO CONGRESS 
                      FROM AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, thank you, and I would also 
like to offer my personal welcome to Congressman Ryun of 
Kansas, and our good friend, Congresswoman Lynn Woolsey from 
California.
    Mr. Chairman, we're here this morning to receive testimony 
on two pieces of legislation, H.R. 2438, by Mr. Ryun of Kansas, 
to amend the National Trails System, and H.R. 1995, by 
Congresswoman Woolsey of California, to protect the farmland at 
Point Reyes National Seashore.
    In 1983, Congress amended the National Trails System Act to 
set up a process through which railroad corridors would be 
converted into recreation trails on an interim basis. This 
program has been extremely successful thus far, resulting in 
123 railbanked corridors in 26 States, comprising some 3,412 
miles of recreation trails. And recreation trails have been 
reactivated to rail service in Ohio and Washington.
    The Rails to Trails program provides the public with the 
opportunity to enjoy outdoor recreation activity on land that 
would have otherwise remained under the authority of railroad 
companies and closed to the public. For the railroad companies, 
this program provides for railroad rights-of-way to be 
maintained and preserved until the company reinstates future 
rail lines as needed. Through this program, Federal, State, and 
local governments have not only worked cooperatively among 
themselves, but also with private business interests, 
preservationists, and outdoor enthusiasts.
    In 1992, the National Park Service, together with Penn 
State University, conducted a study of trail problems to the 
neighbors and its effects on local businesses. Some land owners 
with property adjacent to rail corridors fear that a recreation 
trail would bring problems to their neighborhood. However, one 
of the study's results found that 87 to 97 percent of adjacent 
landowners found that having a recreation trail either had no 
effect or increased their property values.
    I am concerned about the impacts enactment of H.R. 2438 
would have on this program. Provisions affecting the 
abandonment status of rail-banked corridors and applicability 
of State laws may hinder this important and popular program.
    H.R. 1995, the Point Reyes National Seashore Farmland 
Protection Act, addresses a problem in Congresswoman Woolsey's 
district of Marin and Sonoma Counties in California. There have 
been numerous public meetings on this legislation among the 
affected landowners, Federal and local officials.
    In July 1995, the National Park Service released a study 
which they were directed to undertake by this Committee 
confirming the need to protect farmlands in this area. To date, 
the local community has contributed in excess of $15 million 
toward the acquisition of conservation easements.
    I want to commend Congresswoman Woolsey for her fantastic 
work on this piece of legislation and her dedication and hard 
work on this matter, and I look forward to hearing the 
testimonies from the witnesses concerning these two pieces of 
legislation.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Minnesota.
    [The prepared statements of Mrs. Boxer and Mr. Hefley 
follow:]

 Statement of Hon. Barbara Boxer, a Senator in Congress from the State 
                             of California

    As with many of our national parks, monuments and other 
protected treasures, the character and beauty of the Point 
Reyes National Seashore are threatened--not by development or 
environmental degradation within the national seashore--but by 
proposed development outside the boundary line over which the 
Park Service has no control.
    The Point Reyes National Seashore Farmland Protection Act 
of 1997 is an innovative proposal which will ensure that the 
ecological integrity of the Point Reyes National Seashore is 
protected for future generations, while also preserving the 
property rights and historic agricultural use of the farmland 
in the area. I am pleased to be introducing the Senate 
companion legislation next week.
    The legislation establishes a Farmland Protection Area 
adjacent to the Point Reyes National Seashore within which 
willing farmers and ranchers will have the opportunity to sell 
conservation easements for their land. The Farmland Protection 
Area includes 38,000 acres of the eastern shore of Tomales Bay 
visible from within Point Reyes. Property owners within that 
area will be available, but not required, to sell conservation 
easements to their land.
    Conservation easements are legal agreements between a land-
owner and a land trust (non-profit) conservation organization. 
The conservation easements restrict development on the land 
which is incompatible with the agricultural uses of the land. 
The easements would not expand public access, pesticide 
regulations, hunting rights, etc. Furthermore, the easements 
will remain with the land in perpetuity providing security for 
ranchers as well as continued protection for the national 
seashore.
    The easements will allow existing agriculture activities to 
continue and will preserve the pastoral nature of the land 
adjacent to Point Reyes National Seashore and the Golden Gate 
National Recreation Areas by guaranteeing no new development.
    I believe this legislation will become a model for land 
conservation across the nation as governments lack the funds to 
purchase fee title to protect valuable properties from 
development. This approach may be used to address similar 
problems at other parks, wildlife refuges, and marine 
sanctuaries by preserving compatible land use areas that 
protect view sheds and prevent environmental damage.
    This legislation will allow the National Park Service, 
working with the Marin Agricultural Land Trust (MALT), the 
Sonoma Land Trust (SLT), and the Sonoma County Agricultural 
Preservation and Open Space District (SCAPOSD) to protect this 
beautiful area at a fraction of the cost of acquiring title to 
the properties within the new boundaries. In addition, those 
properties would be maintained on Marin County's tax rolls.
    Without this legislation, almost 40,000 acres of scenic 
ranch land will be vulnerable to development. This bill has the 
strong support of the local farmers and ranchers within the 
area to be protected, local environmental groups including the 
Marin Conservation League, effected local governments and the 
local chamber of commerce.
    I commend Congresswoman Lynn Woolsey for her hard work and 
dedication to this legislation. She has been working closely 
with interested parties in an effort to find this innovative 
solution which benefits ranchers, environmentalists, the 
County, and the Park Service alike.
                                ------                                


 Statement of Hon. Joel Hefley, a Representative in Congress from the 
                           State of Colorado

    Mr. Chairman, in 1983, the Senate Energy Committee was 
confronted with a growing number of railroad abandonments and 
began to think it was a good idea to keep some of these rights-
of-way open. The result was the National Rails-to-Trails Act, 
probably one of the more popular programs of recent years.
    As a supporter of both recreational trails and private 
property rights, I have a particular interest in--and concern 
over--the bill before us today. Based upon what little I know 
about Kansas property law and settlement patterns, Mr. Ryun may 
have a point--in his home state. But I don't think it's wise to 
adopt a blanket remedy for a problem that happens in scattered 
states or regions. In Kansas, the railroads may well have sold 
land to farmers with a reversionary right. If that is the case, 
then it would seem they are due compensation and there are 
existing laws to deal with that problem. But I do not know 
whether the same situation exists in Colorado or Oklahoma or in 
the West at large, in other parts of the country or even in 
other parts of Kansas. If we are going to protect private 
property rights, we must protect all private property rights, 
whether they belong to the farmer, the railroad or the United 
States.
    I am further concerned about whether this bill will damage 
the alleged underlying purpose of the 1983 law, that is to 
preserve transportation corridors for possible future use. It 
may seem absurd to us, while we lose approximately 3,000 miles 
of railroad trackage each year, to worry about whether we'll 
need rail rights-of-way in the future. But as a national policy 
body, we must. By yielding these rights-of-ways, we may forever 
lose the option of their use as a transportation corridor. It 
does no good to say we can declare a public use easement if 
that need arises. The country is growing. Costs would likely 
preclude any such future construction. I do not know whether we 
can allow individual states to opt out of a national 
transportation plan any more than we could allow them to opt 
out of the Interstate Highway System.
    In conclusion, I believe we should tread warily on this 
issue. Reportedly, the Senate Transporation Committee worked on 
this issue for two years without resolution and the subject has 
been constantly revisited since 1983. The issue has worked its 
way to the U.S. Supreme Court on at least two occasions. 
Private property rights are a constitutional issue that should 
be dealt with seriously. But we should not trash a successful 
program and our future needs without careful deliberation.

  STATEMENT OF HON. BRUCE VENTO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Vento. Thank you, Mr. Chairman. I'm a sponsor of the 
Point Reyes National Seashore Protection Act. This is a bill 
that has received a good deal of focus and study over the last 
6 or 7 years. It was initiated by the local authorities in 
terms of the county and then picked up by the Congresswoman in 
terms of pursuing a Federal participation in the role.
    It represents an important step forward in terms of 
enhancing and trying to accommodate the Point Reyes National 
Seashore experience, the basic designation. This proposes to 
protect through wholly voluntary agreements--it's a voluntary 
program in terms of buying the scenic easements and maintaining 
the farm and dairy character of the lands--the farmlands and 
agricultural lands adjacent to Tomales Bay.
    It's an area if you visit, Mr. Chairman, you would 
recognize that when you're in Point Reyes you're looking 
directly over at these particular lands. As I said, there's 
been substantial dollars already raised locally to participate 
in the program. The major county involved has taken the lead in 
this, but they need our cooperation. We need to coordinate our 
activities with the county and the Park Service to achieve the 
objectives that are envisioned here.
    This is a park where nearly 2.5 million visitors a year 
experience this, merely 50 miles north of San Francisco. It's 
an important resource and one that affords us an economical and 
efficient way, in terms of a partnership, an important 
partnership, to try and conserve and maintain the rural 
character on a voluntary, willing-seller basis with regard to 
the purchase of these covenants that are envisioned in the 
bill.
    And so it has received--the Park Service has studied it--I 
think we will get support. There is substantial agreement; 
there isn't absolute agreement, but I don't think we should be 
too amazed by that. I think, though, that the work has been on 
this, and I think the bill has a goodly amount of merit, and, 
hopefully, we can work through whatever differences remain and 
act positively on it.
    I also note that we're hearing a bill that modifies the 
basic Rails to Trails law, one of the more innovative 
proposals. Across the country we've seen substantial rail 
abandonment or the cessation of the use of rails on many of the 
lines, and these have turned into one of the most important 
recreational resources that are available in many of our areas.
    It affects greatly--now here's an area that affects a lot 
of urban areas, Mr. Chairman, and suburban areas, and in spite 
of the fact that adjacent landowners have often voiced 
concerns, after the trails are established, as high as 70 to 90 
percent have voiced an affirmative response that it actually 
has enhanced the value of the lands adjacent to it, because of 
the desirability of being close to a resource of this nature.
    So, I, myself, am a frequent user of such trails, and I 
think and I find that the ones in and around--we have trails 
that stretch in Minnesota for hundreds of miles, and they are 
an extremely valuable resource and, I think, point the 
direction of recreation into the next century. So I am very 
concerned about any changes that might occur to that which 
would discourage the temporary railbanking, which I think is a 
good compromise and/or, in other words, would eviscerate the 
effect of converting these trails to recreation use.
    So I hope we can work our way through that and try to put 
in place the proper safeguards to assure that there are some 
hearings and some review of that, but that we would keep in 
place the progress, the evolution of these rail sites into 
trails for the broad public use, Mr. Chairman. So I look 
forward to the hearing today.
    We will be interrupted, I understand. Our Committee has 
responsibilities on the floor, and I certainly, while I'm 
interested in these topics, will be most interested in 
addressing the concerns on the floor, as may other members.
    Thank you, Mr. Chairman.
    Mr. Hansen. I thank the gentleman. The gentleman from 
California, Mr. Pombo.
    The gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. I am primarily here to listen to my spiritual 
confessor, Lynn Woolsey.
    Mr. Hansen. We're happy to have our two colleagues with us 
at this time. We'll turn to The Honorable Jim Ryun and The 
Honorable Lynn Woolsey.
    Mr. Ryun, take whatever time you need, and the floor is 
yours--and we'd also like to welcome our colleague from 
Missouri who is with us at this particular time.
    Mr. Ryun.

 STATEMENT OF HON. JIM RYUN, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF KANSAS

    Mr. Ryun. Thank you, Mr. Chairman, for scheduling the 
hearing today on my bill, H.R. 2438, the Railway Abandonment 
Clarification Act.
    I would like to also thank all of the witnesses who have 
taken time and spent their money coming here to testify on 
behalf of my bill. Also, I would like to request unanimous 
consent to submit additional testimony to be made part of the 
record.
    Mr. Hansen. Without objection, so ordered, and all 
additional testimony will be part of the record.
    [The information referred to follows:]
    Mr. Ryun. And I'd also like to take a moment of privilege 
and introduce my colleague, who you've already mentioned from 
Missouri, Kenny Hulshof, who would like to make an 
introduction.
    Mr. Hulshof. Thank you. It's my privilege to be here. I'm 
not intending to offer testimony, but I do appreciate the 
efforts that Mr. Ryun has made with this bill.
    I am privileged and honored to welcome two constituents 
here today, one of whom you'll be hearing from. With all due 
respect to the gentleman from Minnesota, assuming that the 
numbers ``70 percent to 90 percent of landowners are now 
appreciative of the Rails to Trails,'' I think you're going to 
hear some compelling testimony today from the minority of the 
10 percent to the 30 percent, particularly Jayne Glosemeyer and 
her husband, Maurice, who have come from the 9th Congressional 
District of Missouri, from Marthasville, that have a farm 
there. They have the situation of an abandoned railway that has 
been turned into a trail area, and they're going to talk about 
some of the realities and some of the difficulties and 
challenges that they've faced.
    So, I'm here in support of them, and, again, appreciate the 
gentleman allowing me the privilege of introducing the 
Glosemeyers to you and to this body. Thank you.
    Mr. Ryun. Mr. Chairman, I'm here today to discuss a 
fundamental constitutional right, and that is the right to own 
property. This right is a pillar of our democracy and there is 
a Bill of Rights to protect that.
    My legislation addresses the rights of property owners 
whose land once held a railway track that was running through 
it. Specifically, the Act allows States to participate in the 
process of determining how abandoned railways are developed 
into recreational trails.
    From the start let me say one thing and make it very clear: 
I support the development of trails. I've enjoyed trails; I 
want my children and future grandchildren to have the 
opportunity to use trails, and I believe that the quality of 
trails can add economic benefits to some communities. Although 
I have run on more miles than I care to count on trails, and 
they are wonderful, they're safe, my desire to run on a smooth 
surface should not come at the expense of property owners whose 
constitutional right hangs in the balance.
    These property owners are farmers--you're going to hear 
from some of them today--homeowners, and small business people. 
When many of these folks in my district approached me with 
their concerns about the way railways are currently converted 
into trails, I found the root of their concern to be the very 
thing that American people have rejected time and time again, 
and that is one-size-fits-all Federal law--the Washington 
mentality, that type of law that is based on power, that gives 
power to the few at the expense of the majority.
    When the Rails to Trails Act was first introduced in 1983, 
it was not given careful consideration in Congress, and, 
consequently, its impact was not understood. The Rails to 
Trails Act was passed by the House of Representatives under 
suspension of the rules in March 1983 and was debated for only 
20 minutes in the Senate. This expedited schedule resulted in a 
simple misunderstanding. While many railways ran on Federal 
property, it was not mentioned that many other railroad rights-
of-way are held on private property.
    Unfortunately, the unintended consequences of the Rails to 
Trails program is that individual property rights are suspended 
and special interest groups, under the color of law, are 
allowed to use private land for public purposes without 
providing due process or compensation for property owners.
    The controversy over the Rails to Trails program boils down 
to the fact that much of the railbanked land actually belongs 
to private landowners, and these landowners are completely 
denied, even under the slightest opportunity, to participate in 
the decisionmaking process with regard to how the trail will be 
developed on their property.
    Here's what actually happened to one my constituents. This 
farmer and his family have owned a piece of land near Topeka 
for almost 150 years. The farmer allowed the railroad to lay a 
railway--the ties and the track--across the land and use the 
land by granting the land to the railroad as an easement. But 
keep in mind, the farmer continued to own that land. When the 
railroad stopped operating its trains and removed its tracks 
and railroad bed, the farmer still owned that land; nothing had 
really changed. However, the Federal Government told the farmer 
that he couldn't use his own land after the railway was taken 
away. Instead, the government told the farmer that his land was 
not considered abandoned and he would not be able to use it, 
and it was used then for a public recreation trail.
    To add insult to injury, special interest trails groups 
with no public accountability are authorized to establish these 
trails on privately owned land. Therefore, the farmer becomes 
the proverbial David against the trail group's Goliath, which 
is armed with lawyers and the power of the Federal Government. 
This is all accomplished through legislative sleight-of-hand.
    The National Trails System Act states that interim use of a 
railway is defined as bicycling, cross-country skiing, day 
hiking, equestrian activities, jogging or other similar 
activities. Furthermore, the Rails to Trails Act, which amends 
the National Trails System Act, states that interim use should 
not be treated as--and this important--railway abandonment, and 
the Surface Transportation Board shall not permit abandonment. 
So abandonment really does not equal abandonment.
    Common sense, on the other hand, would suggest that interim 
use is abandonment because you cannot run, bike, ride your 
horse, ski, or whatever, on railroad tracks. Interim use and 
railroad are mutually exclusive; you cannot have one with the 
other.
    The Rails to Trails Act tramples on the rights of property 
owners and tramples on the rights of many State governments. 
For example, Kansas law states that when a railroad ceases to 
use its tracks on the farmer's property and the trains stop 
rolling, the use of the land automatically reverts to the 
rightful land owner? Why? Because the farmer owns the land and 
can do with it as he pleases once the trains and the tracks are 
gone. Through definitional sleight-of-hand, the Federal 
Government has thrown out State law relating to reversionary 
property rights, and suddenly a person's private land had 
become, if you will, public.
    Those in favor of trail development argue that changes in 
the Rails to Trails Act are not warranted because of the 
significant popularity and the economic benefits of 
recreational trails. Trail advocates say further that 
railbanking rail corridors is vital to the country's 
transportation infrastructure because it preserves valuable 
rail corridors for the future.
    And lastly, trail advocates state that the Supreme Court 
has ruled that railbanking is constitutional, and that those 
property owners who believe a taking has occurred should file 
with the U.S. Court of Claims for their day in court and 
receive compensation.
    It is true that property owners can file in the Claims 
Court. Small Kansas farmers, however, do not have the financial 
resources to hire an attorney to jump through the 
administrative hoops and to spend the money to fight for 
compensation on a 100-foot wide easement that they know is 
really theirs. We can all do the math. It is not worth spending 
$100,000 in attorney's fees to be compensated for confiscated 
land worth about $30,000. In fact, not a single aggrieved 
property owner has been compensated in the 14 years of the 
Rails to Trails program. And I think that point is very 
important to make, and at this point no one has been 
compensated through all of these years as a result of what we 
define as a ``taking.''
    Also, my bill removes the one-size-fits-all-mandate that 
converts abandoned railways into recreational trails. It does 
not diminish the Surface Transportation Board's authority to 
preserve our national corridor system. Instead, it gives 
discretion to the Surface Transportation Board to certify trail 
use, but does not require it. In this way, railbanked corridors 
do not have to hold a recreational trail. Instead, railbanked 
land could be used by landowners for farm or range land or any 
other purpose until rail use is reinstated.
    I can assure the Committee that reinstating a railway over 
a crop of wheat is no more difficult than reinstating a railway 
over a trail. In this way, the STB can continue to preserve the 
valuable railway corridors in compliance with State abandonment 
law. The Railway Abandonment Clarification Act takes a common 
sense approach. It balances the approach to the Federal 
treatment of railway abandonment and the development of 
recreational trails.
    The Act will ensure that farmers and property owners have a 
voice in how the land will be used. It will conform Federal 
railway abandonment law to the Constitution. It will preserve a 
State's rights to determine private property issues and to 
continue the encouragement and development of trails, and 
that's very important. Sometimes I've argued against that I am 
against trails--I am very much for trails.
    Let's look at this last point for a moment, if I might. 
H.R. 2438 does not repeal the Trails Act or prevent the 
development of trails on private property. Instead, it 
continues to encourage States to develop trails. The Railway 
Abandonment Clarification Act encourages trail development by 
returning this power to the States and allowing them to 
determine how trails will be developed. H.R. 2438 corrects the 
problem of current law, while maintaining railbanking and 
appropriate trail development.
    Mr. Chairman, I would like to conclude my testimony with a 
quote from James Madison, illustrating the foresight of our 
Founding Fathers. He said this in 1792, and I'd like to quote 
it for you. Madison said: ``That is not a just government, nor 
is property secure under it, where the property which a man has 
in his personal safety and personal liberty, is violated by 
arbitrary seizures of one class of citizens for the service of 
the rest.''
    I urge quick consideration of this bill so that the 
landowners can regain the use of their land, and I'd be happy 
to answer any questions at this time.
    [The prepared statement of Mr. Ryun follows:]

Statement of Hon. Jim Ryun, a Representative in Congress from the State 
                               of Kansas

    Thank you, Mr. Chairman, for scheduling this hearing on my 
bill, H.R. 2438, the Railway Abandonment Clarification Act. I 
am here today to discuss a fundamental constitutional right--
the right to own property. This right is a pillar of our 
democracy and my bill aims to protect that right.
    My legislation addresses the rights of a property owner 
whose land once had railroad tracks running through it. 
Specifically, the Act allows states to participate in the 
process of determining how abandoned railways are developed 
into recreational trails.
    Before I address what my bill does, however, let me make 
one thing clear: I support trail development. I enjoy trails; I 
want my children and grandchildren to have the opportunity to 
use trails; and I believe that quality trails can add economic 
benefits to some communities. Although I have run more miles 
than I can count on trails, my desire to run on a smooth 
surface should not come at the expense of property owners whose 
Constitutional rights hang in the balance.
    These property owners are farmers, homeowners, and small 
business people. When many of these folks in my district 
approached me with their concerns about the way railways are 
currently converted into trails; I found their concerns to be 
the very thing that the American people have rejected time and 
time again: a one-size-fits-all Washington-based law that gives 
power to the few at the expense of the majority.
    When the Rails to Trails Act was first passed in 1983, it 
was not given serious consideration in Congress and 
consequently its impact was not understood. The Rails to Trails 
Act was passed by the House of Representatives under suspension 
of the rules in March of 1983, and was debated for only twenty 
minutes in the Senate. This expedited schedule resulted in a 
simple misunderstanding: while many railways run on Federal 
property, it was not mentioned that many other railroad rights-
of-way are held on private property. Unfortunately, the 
unintended consequences of the rails to trails program are that 
individuals' property rights are held in abeyance and special 
interest groups are allowed to use private land for public 
purposes without providing due process or compensation to the 
property owners.
    In a nutshell, the controversy over the Rails to Trails 
program boils down to the fact that much of the railbanked land 
actually belongs to private landowners, like the good farmers 
in my district. Here is what actually happened to one of my 
constituents who is a farmer.
    This farmer owns a piece of land near Topeka, Kansas. The 
farmer allowed a railroad to lay a railway (the ties & track) 
across his land and ``use'' the land by granting the railroad 
an easement. But, keep in mind, the farmer still owns the land. 
When the railroad stopped operating its trains and removed its 
tracks and railway bed--again the farmer still owns the land. 
However, the problem is that the Federal Government told the 
farmer that he couldn't use his own land after the railway is 
taken away. Instead, the government told the farmer that his 
land is not considered abandoned and will be used as a public 
recreation trail.
    To add insult to injury, its not even the Federal 
Government that determines where trails will be developed. 
Special interest trails groups, with no public accountability, 
are authorized to establish these trails on privately owned 
land. Therefore, the farmer becomes the proverbial David 
against the trail group's Goliath, which is armed with a league 
of lawyers and the power of the Federal Government.
    This is all accomplished through legislative sleight-of-
hand. The National Trails System Act states that interim use of 
a railway is defined as bicycling, cross-country skiing, day 
hiking, equestrian activities, jogging or similar fitness 
activities. Furthermore, the Rails to Trails Act, which amended 
the National Trails System Act, states that interim use shall 
not be treated as railway abandonment and the Surface 
Transportation Board shall not permit abandonment.
    In essence, the Federal law states: abandonment is NOT 
abandonment. Common sense, on the other hand, would suggest 
that interim use IS abandonment because you cannot run, bike, 
ride horses or ski on railroad tracks. Interim use and railroad 
use are mutually exclusive; you cannot have one with the other.
    The Rails to Trails Act tramples on the rights of property 
owner's and tramples on the rights of many State governments. 
For example, Kansas law states that when a railroad ceases to 
use its tracks on the farmer's property--and the trains stop 
rolling--the use of the land automatically reverts to the 
rightful landowner. Why? Because the farmer owns the land and 
can do with it as he pleases once trains and tracks are gone. 
Through definitional sleight-of-hand, the Federal Government 
has thrown out state law relating to reversionary property 
rights and suddenly a person's private land has become 
``public.''
    Those in favor of trail development will argue that changes 
to the Rails to Trails Act are not warranted because of the 
significant popularity and economic benefits of recreational 
trails. Trails advocates say further that railbanking rail 
corridors (the policy that prevents the reversion or rights-of-
way to property owners for potential future railway use) is 
vital to the country's transportation infrastructure because it 
preserves valuable rail corridors for the future. Lastly, 
trails advocates state that the Supreme Court has ruled that 
railbanking is constitutional and that those property owners 
who believe a taking has been made can file in the U.S. Court 
of Claims for their day in court to receive compensation.
    It is true that property owners can file in Claims Court. 
Small Kansas farmers, however, do not have the financial 
resources to hire an attorney to jump through the 
administrative hoops and spend the money to fight for 
compensation on a 100 foot wide easement that they know is 
theirs. We can all do the math: it is not worth spending 
$100,000 in attorney's feeds to be compensated for land worth 
about $30,000. In fact, not a single aggrieved property owner 
has been compensated in the 14 years of the Rails to Trails 
program.
    The Railway Abandonment Clarification Act takes a common-
sense, balanced approach to the Federal treatment of railway 
abandonment and the development of recreational trails. The Act 
will ensure that farmers and property owners have a voice in 
how their land will be used. It will conform Federal railway 
abandonment law to the Constitution; preserve a State's right 
to determine private property issues; and continue to encourage 
trail development.
    Let's look at this last point for a minute. H.R. 2438 does 
not repeal the Trails Act or prevent the development of trails 
on private property. Instead, it continues to encourage states 
to develop trails. The Railway Abandonment Clarification Act 
encourages trail development by returning this power to the 
states, allowing them to determine how trails will be 
developed.
    My bill removes the ``one-size-fits-all'' mandate that 
converts abandoned railways into recreational trails. Instead, 
it gives discretion to the Surface Transportation Board to 
certify trail use, but does not require it. In this way, 
railbanked corridors do not have to hold a recreational trail. 
Instead, land could be used by landowners for farm or range 
land or any other purpose until rail use is reinstated. In this 
way, the STB can continue to preserve valuable railway 
corridors and can allow state abandonment law to revert railway 
corridors that are dead-ends or are remotely located.
    Let's be clear. Again, in many cases, the farmer owns the 
land. He owns the soil and everything beneath the ties and 
tracks. The ties and tracks belong to the railroad. When the 
railroad removes those tracks and ties, there is nothing left 
but the land owned by the farmer.
    But the Federal Government does not believe that Kansans, 
or other Americans, know best how to use their own land. 
Instead of making the rights of private property a priority, 
the government has made recreational use for certain citizens a 
priority.
    This is poor Federal legislation and needs to be rectified. 
H.R. 2438, The Railway Abandonment Clarification Act--will 
change this law and restore private property rights issues to 
the states.
    Mr. Chairman, I would like to conclude my testimony with a 
quote from James Madison, illustrating the foresight of our 
Founding Fathers. He said, in 1792:
        ``That is not a just government, nor is property secure under 
        it, where the property which a man has in his personal safety 
        and personal liberty, is violated by arbitrary seizers of one 
        class of citizens for the service of the rest.''
    H.R. 2438 corrects the problems in the current law while 
maintaining railbanking and appropriate trail development.

    Mr. Hansen. Thank you very much. Lynn Woolsey, we'll turn 
to you.

 STATEMENT OF HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Woolsey. First, I'd like to thank you, Mr. Chairman, 
for holding this important hearing. I know how busy your 
schedule is, and I truly, truly appreciate your willingness to 
have a hearing on this important piece of legislation. Thank 
you.
    I'd also like to extend my appreciation to Chairman Young 
and to the Committee for their interest, and your interest, in 
the bill.
    Today you will hear from a variety of people about the 
Point Reyes National Seashore Farmland Protection Act. I'd 
like, particularly, to recognize three of my constituents who 
have traveled to Washington to demonstrate the breadth of 
support which this bill enjoys in my district. I want to thank 
them for sacrificing their busy schedules and being here today: 
Marin County Supervisor, Steve Kinsey; Marin Agricultural Land 
Trust Executive Director, Bob Berner, and Sharon Doughty, West 
Marin Chamber of Commerce member, Marin County Farm Bureau 
member, and landowner.
    There are many others in the audience, Mr. Chairman, who 
have also traveled to demonstrate their support, and I want to 
thank them, too.
    In addition to submitting my written statement for the 
record, I'd also like to submit letters of support for this 
bill to be included in the hearing record.
    Mr. Hansen. Without objection.
    [The information referred to may be found at end of 
hearing.]
    Ms. Woolsey. Mr. Chairman, earlier this year the American 
Farmland Trust released a shocking statement: ``Nationwide, 
almost 50 acres of prime and unique farmland are being 
destroyed every hour, every day.'' This loss of productive 
farmland threatens not only the lifestyle of small farmers, but 
also the economic and environmental stability of our community.
    In my district, Marin County alone has lost 32,000 acres of 
farmland since 1952. The Point Reyes National Seashore Farmland 
Protection Act, H.R. 1995, is a unique solution to this growing 
problem in our country. How do we protect disappearing farmland 
while simultaneously protecting our natural resources?
    The fundamental problem we face in Marin and Sonoma 
Counties is the threat of development. The lands in the 
proposed farmland protection area are sandwiched between 6.5 
million people who live in the San Francisco Bay area and the 
Point Reyes National Seashore, one of the 10 most heavily 
visited national parks in this country. As more and more 
visitors discover the beauty and the majesty of this area, Mr. 
Chairman, the pressures for development become greater and 
greater.
    By authorizing the purchase of agricultural conservation 
easements, this bill enables willing landowners to remain in 
agriculture. The great beauty of this legislation is that the 
local residents developed a solution which works for them. It 
is based on former Marin County Supervisor Gary Giacomini's 
vision, and it builds upon existing successful land trust and 
open space district programs. The organizations that monitor 
the agricultural conservation easements within the proposed 
farmland protection area are made up of local residents.
    Mr. Chairman, landowners will not be dealing with 
bureaucrats in Washington. They will be dealing with their 
neighbors who best understand their needs. The Federal 
Government does have an interest in this area. That interest is 
the Point Reyes National Seashore. The purchase of agricultural 
conservation easements protects agriculture, while defending 
the Nation's investment in the seashore from incompatible land 
uses in the surrounding areas.
    H.R. 1995 creates a 38,000-acre farmland protection area. 
Landowners in the area qualify for the benefits of agricultural 
conservation easements. Landowners outside the area do not. 
H.R. 1995 authorizes $30 million for the Federal Government to 
partner with the local community in a dollar-for-dollar match. 
The local community has already invested $15 million in this 
area.
    H.R. 1995 does not grant any additional powers to the 
Federal Government. It authorizes a voluntary program. It 
ensures that the land remains on the tax roll, and it protects 
private property rights. If a landowner chooses not to 
participate, life remains unchanged.
    Mr. Chairman, I've held public meetings, and I've had 
individual meetings, one-on-one, with most landowners within 
the proposed farmland protection area. I sat in their kitchens, 
I heard their concerns, and I cleared up misinformation. These 
meetings were extremely productive, and this bill responds to 
the suggestions and concerns that I heard from the landowners.
    Through these meetings, I know that the majority of 
impacted landowners support this bill. In addition, the great 
majority of my constituents support this bill. Both the Marin 
and Sonoma Boards of Supervisors have endorsed the plan, as 
well as the West Marin Chamber of Commerce. National 
organizations supporting this legislation include the League of 
Women Voters, American Farmland Trust, and the Trust for Public 
Land.
    Currently, H.R. 1995 has 44 bipartisan co-sponsors. In 
particular, I'd like to acknowledge my original co-sponsor, 
Congressman Wayne Gilchrest, as well as the Park Subcommittee 
members who are co-sponsors: Ranking Member Faleomavaega, which 
I think was the hardest part of this testimony--making sure I 
got his name right--Representatives Duncan, Vento, Jones, 
Pallone, and Hinchey, and Delegate Christian-Green.
    The landowners raised concerns about this legislation 
during our meetings, and in response this bill was strengthened 
to ensure more protection for agriculture and for landowners. 
Despite these changes some members, however, of the local Farm 
Bureau, continue to oppose the bill. However, it must be noted 
that the Marin Farm Bureau is split and officially neutral on 
this issue.
    Mr. Chairman, Subcommittee members, the Point Reyes 
National Seashore Farmland Protection Act is a creative 
solution for protecting our agricultural land, a solution that 
balances environmental and economic needs, while at the same 
time respecting the rights of individual property owners. H.R. 
1995 will serve as a national model for the protection of 
agriculture, as well as for the protection of our Nation's 
investment in its national parks.
    The program is completely voluntary. It keeps lands in 
private ownership and maintains the local tax base. Through 
this program, we will be investing in our future by protecting 
our Nation's resources--both land and people. We must begin to 
take steps to address this need. This bill will start that 
process.
    Thank you, Mr. Chairman. I look forward to answering any 
questions that you might have about this legislation.
    Mr. Hansen. Thank you. I will proceed at this point, as we 
have a vote on now on the rule on the grazing bill--and 
following that, if we could hurry back, we would have questions 
for our colleagues on their testimony, and then we'll go to the 
panels. I intend to hold everyone--members and witnesses--to 5 
minutes. We've got seven panels today, and it's going to take a 
while to get through this, so if anybody goes over, they will 
hear the gavel. So, don't do something you don't want to hear.
    Anyway, we'll stand in recess long enough to vote, and then 
I would urge members of the Committee to hurry right back.
    [Recess.]
    Mr. Duncan. [presiding] I've been asked by Committee staff 
to go ahead and reconvene the hearing until Chairman Hansen 
gets back. And we are, I understand, at the point of 
questioning of members, and I don't think we have too many 
questions of members because we want to move as quickly as we 
can to other panels.
    But, I would like to ask Ms. Woolsey about her bill. Is 
your bill totally voluntary, Ms. Woolsey?
    Ms. Woolsey. The bill is 100 percent voluntary, Mr. Duncan. 
It's willing seller, willing buyer.
    Mr. Hansen. [presiding] The gentleman from Tennessee.
    Mr. Duncan. Would any agency of the Federal Government have 
any increased authority or power over this land?
    Ms. Woolsey. No. In fact, because of the concern in that 
regard and a discussion I had with Representative Tom Campbell, 
I have agreed to an author's amendment to the bill when we do 
get to markup; and that language would say that, ``no lands or 
interest in lands may be acquired by the Secretary within the 
farmland protection area without consent of the owner 
thereof.'' That is the intent in the bill, and we will have it 
in the bill when the bill gets to the next step.
    Mr. Duncan. Would any of the farmers there now, anybody who 
wanted to farm the land later--it's my understanding that a 
farmer who has this land now would be able to sell the land 
later to somebody who agreed to keep it in agricultural use. Is 
that correct?
    Ms. Woolsey. Absolutely.
    Mr. Duncan. Would they have to get permission from the 
Department of the Interior or the National Park Service or any 
other Federal agency----
    Ms. Woolsey. No.
    Mr. Duncan. [continuing] to sell the land or do anything 
else on the land? If they wanted to expand their farm by adding 
a barn, for instance, or doing anything else consistent with 
agricultural use, would they have to get permission from the 
Department of the Interior or the National Park Service or any 
other Federal agency?
    Ms. Woolsey. They would not have to get permission from any 
Federal agency. They would go through the Land Trust with whom 
they negotiated their easement and their agreement.
    Mr. Duncan. Now what does that mean--that they would have 
to get permission from the Land Trust?
    Ms. Woolsey. The Land Trust will monitor the easements. 
Landowners negotiate a contract with them about how they're 
going to use their land. And certainly a barn, a residence for 
a farm worker or for one of their kids--all of that--they've 
been doing that already in the 15 years that the Marin 
Agricultural Land Trust has had easements. We have excellent 
experience in that regard, that there's no controversy as the 
land remains in agriculture.
    There's no control over pesticides; there's no control over 
hunting; there's no public access availability in this bill. 
Public access would be dependent on the landowner wanting 
public access and having that land purchased by the Federal 
Government, but they would have to ask for it.
    Mr. Duncan. All right; thank you very much.
    Mr. Hansen. Thank you. The gentleman from American Samoa, 
you're recognized for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Congresswoman 
Woolsey, obviously there were, according to your testimony, 
there were landowners that were opposed or still are opposed to 
the proposed bill. Can you elaborate how--I'm sure that in the 
course of the hearings and the meetings that you've held with 
the community people, including the landowners--can you tell 
the Committee what the basis is of how you draw the conclusion 
that, as far as you're concerned, the majority of the 
landowners support the legislation?
    Ms. Woolsey. Well, as I said, I met one-on-one, actually in 
kitchens, at the kitchen table, with the majority of the 
landowners. And talk about a group of wonderful people--let me 
tell you; it was my privilege to be there, not their privilege 
to have me. During these meetings it became very clear that 
there was a lot of misinformation. Once I got there, we talked 
through the bill and what it really means--that it is 
voluntary, that they don't have to be a part of it if they 
don't want to, and that their lives won't change if they choose 
not to participate.
    Once they realized that the easements would be based on 
fair market value, that the Federal Government would not have a 
reach into their lives, and that their private property rights 
would be protected, the great majority--there is a small, vocal 
minority, believe me--but the great majority of landowners 
said, ``All right, even if I don't want to participate, I have 
no problem doing so.'' And I feel very secure in telling you 
that the majority of the landowners support it.
    Mr. Faleomavaega. A couple of days ago--and I'm sure with 
all of the other members of the Subcommittee--I received a 
letter from a Mr. Echeverria, the president of the California 
Cattlemen's Association in opposition to H.R. 1995. Would you 
care to comment on that?
    Ms. Woolsey. Well, yes; I would. I read that letter myself. 
First of all, only 3 percent of Cattleman's Association members 
live in my district, but they sent out this letter about this 
bill that is very, very inaccurate. I mean, it comes close to 
being lies, actually. So, to clarify it, agricultural 
conservation easements will be negotiated and monitored with 
willing landowners by the local Land Trust organization, not 
the Park Service as they stated. These easements will keep the 
land in agriculture, in perpetuity. When the landowner dies, 
the land doesn't go to the Park; it stays in the family like 
any private property would.
    Mr. Faleomavaega. I want to share a thought with my friends 
from across the aisle that I don't believe in the encroachment 
of the Federal Government, too--perhaps you might say 
selectively.
    Now you've indicated earlier in your testimony that your 
bill does not add more power to Big Brother--the Federal 
Government--to coming in there and taking control of the lives 
of the people who live or will be affected by the proposed 
legislation. Would you care to comment on that?
    Ms. Woolsey. We have, throughout the authoring of this 
bill, been very careful to make certain that the Federal 
Government does one thing and one thing only--it provides a 
partnership in funding with the local agencies so that we could 
keep this land in agriculture in perpetuity. This is about 
farming. This is about agriculture--and with the Tom Campbell 
language that I've agreed to, it couldn't be clearer that 
there's nothing in this bill to give the Park Service more 
control over that land.
    The farming around the borders of the Point Reyes National 
Seashore really does protect our investment in that existing 
national park, which is one of the most visited national parks 
in the country. So it makes a difference to our investment in 
the existing park; it makes a difference in keeping agriculture 
alive in my district and in the Nation.
    Congressman Ryun, you're not being neglected here. I just 
have one question on your proposed legislation. You're just 
simply saying that the landowners deserve to have due 
compensation for the taking.
    Mr. Ryun. That's correct, and that's one of the processes 
we're trying to establish with this particular Act.
    Mr. Faleomavaega. OK; and is it your opinion that the 
Federal Government should be the one that is paying these 
landowners for the taking?
    Mr. Ryun. Not only my opinion, but it's the opinion of the 
Supreme Court, as well.
    Mr. Faleomavaega. OK. And I understand that there is 
ongoing court litigation on this very issue. This is nothing 
new. I mean, I notice you have about seven trails in Kansas, 
according to the----
    Mr. Ryun. Yes; we have some that are developed and some 
that are being considered. I think when you get to the 
testimony you'll hear some compelling testimony, not only by 
landowners that have been affected, but by some of the court 
decisions that have already been rendered.
    Mr. Faleomavaega. OK; thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from California, Mr. Pombo.
    Mr. Pombo. Thank you, Mr. Chairman. Ms. Woolsey, you've 
said that your legislation is voluntary, and I have looked 
through it, but I fail to see--normally in a legislation such 
as this that the author intends to be voluntary, there will be 
a section on that particular subject that outlines what the 
voluntary participation is and what the options are for the 
particular private property owners, and there is not one 
included in this particular legislation.
    Ms. Woolsey. Well, if the gentleman would like to work with 
my office in that regard, like we did with Representative 
Campbell, we're more than willing to define what the intent of 
a boundary is. I can tell you what the intent is with this 
bill, and that's that we create a choice for the landowner.
    Those who are within this farmland protection area have the 
option of an agricultural easement. Those who are not within 
that area do not have that option, and that's exactly what this 
is about. It's defining where the Federal Government would have 
an interest, an interest enough to invest money over time 
through appropriations after the bill is authorized.
    Mr. Pombo. Your legislation allows the purchase of lands 
within the farmland protected area that are in danger of being 
developed or under threat of being developed. Whose definition 
of ``under threat of being developed'' are we going to use?
    Ms. Woolsey. Well, I think the community at large probably 
would have more to say about that than either of us here in 
Washington. But it would be willing seller in that regard, and 
that's what is strengthened in the language--through Mr. 
Campbell's language.
    Mr. Pombo. Unfortunately, this legislation--you're 
incorrect in one thing--the community would have less to say 
about it than the members of this Committee, because if the 
Secretary of the Interior is the one that is going to be 
purchasing the lands, it will be a Federal decision that is 
made. Therefore, the definition of ``under threat of 
development'' is more likely to be a definition that is used by 
the National Park Service or the Department of the Interior or 
the particular committee--this being the Resources Committee, 
the Committee of jurisdiction.
    Ms. Woolsey. Well, my point in saying local is that the 
negotiations will be through local land trusts and open space 
districts. But, remember what the intent of this bill is. The 
intent of this bill is to keep land in agriculture. One of the 
reasons we haven't tried to use State programs is that the 
State tends to turn the land back in to parks. That isn't the 
intent of this bill. The intent of this bill is to keep this 
land in agriculture because that is the best use of the land, 
and it's also the best protection for the Point Reyes National 
Seashore.
    So, keeping that in mind, the people who lived in the area 
which is now the Pt. Reyes National Seashore were very 
frightened of the same things that you're talking about. Now, 
100 percent of those who are currently farming in the National 
Seashore have signed a petition saying they are very satisfied 
with their relationship with the National Park Service. So, we 
will keep our agreement, and the agreement is to keep this land 
in agriculture in perpetuity--willing seller, willing buyer.
    Mr. Pombo. One final question for you. The land is 
currently zoned as agricultural land; that's the current zoning 
that's on the property. The local people have made the decision 
that that is the zoning that they want, that they want to keep 
it in agriculture, that that is the purpose of that land in the 
county zoning at the current time. Why do you think it is 
necessary to go beyond what the local people have instituted to 
put in Federal legislation or a Federal designation on that 
particular piece of property?
    Ms. Woolsey.Now, for the same reason that we have the Marin 
Agricultural Land Trust and the Sonoma County Open Space 
Districts, these lands are under great threat of development. 
It is a miracle that that land is still in productive 
agriculture, but it's because it's been owned by three and four 
generations of farmers that are dedicated to that lifestyle. 
There are pieces of property proposed for development right now 
within that area that are before the Board of Supervisors. Over 
time, that threat is getting greater and greater, and I believe 
that it's in the best interest in protecting our existing 
investment in the National Seashore, and also in protecting----
    Mr. Pombo. I don't want to interrupt you, but I've run out 
of time. You've said that the local people support keeping it 
in agriculture. The local people make the decision as to how it 
is going to be zoned, and it's currently zoned agriculture. The 
local people make that decision.
    No one in this room, other than you, have anything to do 
with how that particular piece of property is zoned. And yet 
you seem to be concerned that the local people may change their 
minds and want a different zoning on that particular property, 
so what you're asking is that we come up with a Federal zoning 
for that particular land----
    Ms. Woolsey. No.
    Mr. Pombo. [continuing] so that they can't change their 
mind and make a different decision.
    Ms. Woolsey. No, they can change their mind. If they don't 
volunteer to be part of the easement program, they can go right 
to the Board of Supervisors, to the planning and zoning program 
that is existing right now in their county. I would think that 
Republicans would really like this bill because the land is 
zoned one unit for 60 acres; therefore, they don't get to 
develop very much of it, if any of it. And I am proposing that 
we offer them some financial support so they can stay in 
agriculture, so they can expand, so they can modernize, so they 
can do whatever--pay inheritance taxes. This is really paying 
them for not developing, which is exactly what I thought was 
part of the property rights initiative that you support.
    Mr. Hansen. The time of the gentleman has expired. The 
gentleman from Guam.
    Mr. Underwood. Thank you, Mr. Chairman. I only have one 
question for Mr. Ryun, and just a comment on Ms. Woolsey's 
legislation.
    Mr. Ryun, in the case of the owners of these railway 
easements, how far back, how many generations are we talking 
about in many of these cases? I mean we're not talking about--
--
    Mr. Ryun. It's really hard, at this point, to pinpoint an 
exact date. I know we have many--in fact, I think there are 
some documents that might be available today showing some of 
the actual easements that were granted. My point is, it's 
difficult to trace it back and yet we have many documents that 
show that people originally gave just the right-of-way to the 
railroads for an interim use just for that period of time.
    Mr. Underwood. Well, I'm in support of the basic thrust of 
your legislation, but I was just wondering, are we talking 
about things that could go back four, five, or six generations 
of families, of owners? We're talking about something that 
could have been over 100--no, not 100 years--maybe 100 years 
ago?
    Mr. Ryun. Yes; that's very possible.
    Mr. Pombo. If the gentleman would yield on that point. In 
many of these cases these easements were granted between the 
late 1800's and 1920, and especially on private property where 
you had a private property owner granting a railroad use 
easement on that property. A lot of those easements were given 
between the late 1880's and 1920's; that is when the documents 
were actually signed.
    Mr. Underwood. OK; thank you very much. And so in that 
instance, even though the property owner may have changed, 
obviously the right to the property stayed with whoever it went 
to.
    Mr. Ryun. And may I add something to that?
    Mr. Underwood. Sure.
    Mr. Ryun. And that is why the right-of-way was given, it 
was just for the purpose of the railroad. When the railroad 
left and the railways and the ties and everything left, so did 
the easements; so it should revert back to the original owner. 
That's the way the easements were established.
    Mr. Underwood. Well, thank you for that. And I would just 
like to commend the gentlewoman from California for her 
legislation and for an innovative and creative way to keep 
alive what is a very valuable national park area.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Underwood. Yes, I'd be happy to yield.
    Mr. Faleomavaega. I just wanted to ask Congresswoman 
Woolsey just an additional question just to make sure--in the 
times that you've also met, does the administration support 
this legislation?
    Ms. Woolsey. Yes. Actually, the Secretary has been out to 
the area. He came just to view it, and then when he got out of 
the helicopter he said, ``You've sold me. I've never seen 
anything quite like it.''
    Mr. Faleomavaega. And in this whole process----
    Ms. Woolsey. It has to stay in agriculture.
    Mr. Faleomavaega. And in this whole process, there is no 
Federal taking, whatsoever, of land ownership.
    Ms. Woolsey. There is no Federal taking.
    Mr. Faleomavaega. And that the landowners maintain their 
private ownership of the lands involved here.
    Ms. Woolsey. Private ownership on the tax rolls--willing 
seller, voluntary involvement. What participating means is that 
land stays in agriculture in perpetuity. It can only be sold 
for agriculture or for open space, but our goal is to keep it 
in agriculture.
    Mr. Faleomavaega. OK. And Mr. Ryun, you're not against the 
trails system, you just want the landowners to be compensated?
    Mr. Ryun. That's correct.
    Mr. Faleomavaega. That's the bottom line of what you're 
asking in this legislation.
    Mr. Ryun. That's partly correct. Let me qualify that; yes, 
we want them to be compensated, but we want them to be able to 
use their own land, because as it is now set up many times that 
land goes away, on a trail, and they're not able to use the 
land as it was originally intended. They have to maintain, 
let's say, for example, both sides of the trail with fences, 
whatever it might be. But, nevertheless, we want them to have 
the right to use that land in whatever way they choose.
    Mr. Faleomavaega. So if a landowner, an adjacent landowner, 
has 5 acres--that wants to develop that portion--and then 
another portion adjacent to the trails system that goes on for 
100 miles, but because of that 5 acres they'll have to go 
around the trails system?
    Mr. Ryun. One of the reasons we wanted to return to the 
States is to get the State the opportunity to make that 
decision and get the landowners the choice of whatever they 
would like to do with their land.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from Guam--are there any further 
questions on your time?
    The gentleman from Puerto Rico.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I'd like to 
ask Ms. Woolsey, is this bill--is this not only what the 
landowners in the area want, but also what the local leadership 
in your district wants?
    Ms. Woolsey. You're correct, Carlos. Both Boards of 
Supervisors have endorsed the bill, as well as the West Marin 
Chamber of Commerce. And, we have a stack of support letters 
that most bills would be very glad to have. And I can tell you, 
the majority--the great, great majority--of the people in my 
district support this initiative, this legislation.
    Mr. Romero-Barcelo. Well, I guess, who are we then to say 
otherwise?
    Ms. Woolsey. Thank you.
    Mr. Romero-Barcelo. Mr. Ryun, all you're looking for is 
that the land that is now being used for the trailways, that it 
reverts back to the landowners that are adjacent to that 
property? Is that correct?
    Mr. Ryun. We're really dealing with the current land 
situation and who owns that current land.
    Mr. Romero-Barcelo. Oh, the owners--they are the owners of 
the land, or was the railroad the owner of the land? Who is the 
owner?
    Mr. Ryun. It's whoever holds the deed. In this case, we 
believe the majority of it goes back to the landowners--
privately held.
    Mr. Romero-Barcelo. Oh, so the land itself--the trailways 
themselves--were not owned by the railroad?
    Mr. Ryun. No, they were not.
    Mr. Romero-Barcelo. They were just easements.
    Mr. Ryun. That's correct.
    Mr. Romero-Barcelo. OK; thank you very much.
    Mr. Hansen. Mr. Ryun, during the last vote you mentioned 
you felt there was a question on what the gentleman from 
Minnesota, Mr. Vento, had said and you would like to clarify 
that answer for the record. Would you like to do that now?
    Mr. Ryun. Well, the rights-of-way were paid for--and if I 
can say this, they were paid for, I guess, forever, but really 
they were only granted for a period of time. In fact, there's 
case law at the U.S. Supreme Court and the Court of Appeals and 
the Supreme Court of Indiana that all agree with the fact that 
that right-of-way was for a period of time and that it would 
revert back to the original landowners.
    Mr. Hansen. Thank you. Do any of my colleagues have further 
questions for this panel, for our colleagues?
    The gentleman from California is recognized for 5 minutes.
    Mr. Pombo. Thank you, Mr. Chairman. Mr. Ryun, I've had the 
opportunity to review a number of the grant deeds that were 
given in these cases. Typically, they would state a boundary 
limit that would have the property description on it. They 
would typically say that they were granting an easement that 
was 50 feet wide on either side of the track that went within 
this particular property, and that it was a surface easement 
granted for railroad purposes only; if they were ever to be 
given up for railroad purposes, that the underlying easement 
would revert to the adjoining property owners, which was the 
case in this country for many years, that that is what 
happened. In many cases, once the ICC ruled that abandonment 
had taken place, the property would revert to the adjoining 
property owners who rightfully owned the real estate.
    Rails to Trails changed that, and it came in and said, 
unilaterally, we are taking away all reversionary property 
right that the adjoining property owners have, and it was done 
on the suspense calendar in the House; it was done with little 
or no debate in the Senate. I don't think anybody really 
realized what a massive taking had occurred when that 
particular piece of legislation passed, and what you are 
attempting to do is to correct part of that problem.
    You've stated that your interest is in compensation, in the 
rightful compensation when a taking occurs. But in your 
experience, do most of these property owners want to be paid or 
do they want their reversionary rights returned to them?
    Mr. Ryun. Most of them would really like the use of their 
land, because in some cases--and we'll have some shown here in 
just a little bit indicating that the land really cuts through 
the middle of their property--to the extent that maintaining 
fences takes away, if you will--it gives them a lot of 
additional liabilities. I hate to disagree with some of the 
gentlemen that spoke earlier, but I will--that it is not as 
pleasant an experience for the landowners as has been 
projected.
    And while I'm an advocate of trails and enjoy the purpose 
for which they are there--the families can go and participate 
and bike-ride on them; I enjoy running on them--I think it's 
very important that we look at this issue closely and give the 
property owners the rights that are guaranteed under the 
Constitution, and that is if they choose to have compensation, 
that's fine, but many of them just want the use of their land.
    Mr. Pombo. I know that in your past life you are probably 
the most famous trail user that this Congress has ever had, and 
have supported that throughout your entire life--the creation 
of those trails. But I think in this particular case it's not a 
matter of whether or not you support trails; it's whether or 
not Congress is willing to do what's right.
    Mr. Ryun. That's correct, and that's one of the reasons 
that this particular Act is being offered, and that is to 
return those rights back to the State, because once the Federal 
Government stepped in and took that right away, it changed this 
process enormously--and also return that right back to the 
individual.
    Mr. Pombo. Thank you.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. Mr. Chairman, I----
    Mr. Hansen. The gentleman from American Samoa.
    Mr. Faleomavaega. Mr. Chairman, I would like to ask 
unanimous consent to provide for the record a statement by 
Congresswoman Donna Green----
    Mr. Hansen. Without objection, so ordered.
    Mr. Faleomavaega. [continuing] in full support of 
Congresswoman Woolsey's bill, H.R. 1995.
    [The prepared statement of Ms. Christian-Green follows:]

  Statement of Hon. Donna M. Christian-Green, a Delelgate in Congress 
                from the Territory of the Virgin Islands

    Thank you Mr. Chairman for the opportunity to make this 
statement in support of H.R. 1995, the Point Reyes National 
Seashore Farmland Protection Act. I want to also take this 
opportunity to praise Congresswoman Woosley for her hard work 
in putting H.R. 1995 together and for getting it to this point 
today.
    Mr. Chairman, the Point Reyes National Seashore Farmland 
Protection Act is a worthy bill which enjoys bipartisan support 
and deserves this Subcommittee's favorable recommendation. It's 
primary purpose is to preserve agriculture by maintaining the 
Point Reyes farmland in private ownership using conservation 
easements, following the successful nonprofit Marin 
Agricultural Land Trust model, which preserved over 11,000 
acres of agricultural land in the proposed area over fifteen 
years ago. This represents a unique and creative way to lend a 
hand to the area farmers while protecting their livelihood.
    In addition to the public/private partnership, H.R. 1995 
also establishes a local/Federal Government partnership. 
Federal funds will be contributed to the area only after the 
local government has contributed its share. H.R. 1995 has also 
received the bipartisan support of the Marin County Board of 
Supervisors, the Sonoma County Board of Supervisors, the 
American Farmland Trust, the Inverness Association, the West 
Marin Environmental Action Committee and the West Marin Chamber 
of Commerce.
    Mr. Chairman, H.R. 1995 proposes an innovative cost 
effective way to protect the 38,000 acres of agricultural lands 
adjacent to the Point Reyes National Seashore and deserves to 
be enacted into law.

    Mr. Faleomavaega. And I was curious--in my ignorance, Mr. 
Chairman, I had asked you if this was the famous Jim Ryun, the 
olympic runner that I admired so much in my earlier years in 
watching him perform. And I thought it was R-y-a-n rather than 
R-y-u-n, but at any rate, my added congratulations for your 
being here before the Committee.
    Mr. Ryun. Thank you--and I assume then that I can count on 
your support?
    [Laughter.]
    Mr. Faleomavaega. Well, as long as it doesn't affect the 
trails and that the Chairman will find the money to pay for our 
adjacent landowners, I think we should be able to work 
something out here in-between.
    Mr. Hansen. This is the famous Eni Faleomavaega, the BYU 
football player, in case you had any question.
    [Laughter.]
    Mr. Faleomavaega. Well, if the Chairman would yield, you 
know we have 20 Samoans that play in the NFL, and three made 
All-Pro last year. So that means for every 12,000 Samoans, Mr. 
Chairman, that live in the United States, we produce one NFL 
player.
    [Laughter.]
    Mr. Hansen. And half of the BYU team is from American 
Samoa, if I may say so.
    Mr. Pombo. Mr. Chairman, I would like to ask unanimous 
consent that a letter that was sent to me by the California 
Farm Bureau Federation be included in the record.
    Mr. Hansen. Without objection, so ordered.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. Any further questions? The gentleman from 
Puerto Rico.
    Mr. Romero-Barcelo. No further questions.
    Mr. Hansen. Ms. Woolsey, I've been trying to absorb what 
you've been saying here, and one part kind of bothers me in 
section 3(b) of your bill. It provides for the Secretary of the 
Interior to exchange Federal lands for lands within your 
farmland protection area without regard to the Federal Land 
Policy and Management Act of 1976--or we call that the FLPMA 
Act--you know, the Organic Act.
    In other words, the Secretary can exchange for Federal 
lands outside of California--well, why do you have that 
provision in your bill? Because in effect, you're amending the 
FLPMA Act for this one provision, and that is always kind of a 
red flag to those of us who wade through these things daily.
    Ms. Woolsey. Well, it was included to make sure we covered 
every base of how we might be able to keep this land in 
productive agriculture, Mr. Chairman. I'm more than willing to 
talk about how that gets in the way of the bill going forward. 
I should ask the Park Service why they requested to put it in 
there.
    [Laughter.]
    Mr. Hansen. We'll have them on next.
    Ms. Woolsey. This is a question for Don Neubacher.
    Mr. Hansen. Don't worry; they'll get their opportunity. The 
thing that bothers me, though, is that that's kind of a wide-
open provision. See, what you've got here is----
    Ms. Woolsey. If there were excess BLM estimates.
    Mr. Hansen. [continuing] somebody could--say the Department 
of Interior could--find a piece in southern Utah, called the 
Grand Staircase Escalante, and take ground out of that, or he 
could find it some somewhere else, and for me that's kind of a 
dangerous provision on that. Their estimates may be a little--
--
    Ms. Woolsey. I would believe it would be, and, Mr. 
Chairman----
    Mr. Hansen. Would you be amenable to taking that out?
    Ms. Woolsey. [continuing] would you ask that question to 
the Park Service in the next panel? Because they know why they 
requested it, and if it doesn't make sense we'll work with them 
and we'll do something differently.
    Mr. Hansen. All right; thank you. Any further questions? 
Apparently not. We're into this hearing 1 hour and 35 minutes; 
we've got a number to go.
    We ask our colleagues, if they so desire, to join us on the 
dias, and we'll recognize them after members of the Committee 
if they have questions for the further panels. Thank you very 
much.
    We'll turn to our next panel, which is Kate Stevenson, 
Associate Director, Cultural Resource Stewardship and 
Partnerships, for the National Park Service, and Evelyn Kitay--
I hope I'm saying that right--senior trial attorney, Office of 
the General Counsel, Surface Transportation Board--if they 
would like to join us.
    It's always good to see you, Ms. Stevenson; it's a pleasure 
to have you with us. We'll start with you. Keep in mind, we've 
got a long hearing. We've got to have this over by 2 o'clock, 
because we've got other people that are going to come in this 
room. So, we'll hold everybody to 5 minutes; you know the rules 
on the lights.
    Ms. Stevenson. That's fine; thank you, Mr. Chairman.
    Mr. Hansen. All right, we'll turn the time to you--may we 
have order in the chambers, please?

   STATEMENT OF KATE STEVENSON, ASSOCIATE DIRECTOR, CULTURAL 
   RESOURCE STEWARDSHIP AND PARTNERSHIPS, THE NATIONAL PARK 
                            SERVICE

    Ms. Stevenson. Thank you very much. We appreciate very much 
the opportunity to offer the views of the Department of the 
Interior on both H.R. 2438 and H.R. 1995. I have with me today 
Tom Ross, who is the Assistant Director for Recreation and 
Conservation, and Don Neubacher, who is the Superintendent of 
Point Reyes National Seashore.
    We strongly oppose H.R. 2438. This bill would effectively 
eliminate the railbanking provision in the National Trails 
System Act, thus impeding preservation of rail corridors for 
future transportation needs, as well as hindering the creation 
of new trails in the interim. Railbanking is entirely voluntary 
on the part of the railroad and the local community. This 
provision of the statute merely allows those groups to decide 
whether and how a corridor should be banked for the future.
    The National Park Service role is purely advisory. The Act 
directs us to encourage the development of trails on abandoned 
railroad rights-of-way for possible future uses. To that end, 
we notify State and local governments that railroad rights-of-
way may be available for trail use. The action, then, is in the 
hands of the community and the railroad.
    Each year we receive about 150 notices of impending 
abandonments from the railroads. That amounts to about 2,500 
miles a year. From October 1995 to October 1996, 118 corridors 
totaling 1,673 miles were proposed for abandonment. Communities 
requested railbanking on 34 corridors for a total of 730 miles. 
Railbanking has become an effective tool for the preservation 
of railroad corridors. In the 10 years that it has been in 
place, it has led to the development of 45 trails totaling 
1,238 miles in 20 States. We believe the communities should 
continue to have this option.
    The Department strongly supports H.R. 1995, and we urge its 
early enactment. The bill has five important components. No. 1, 
it preserves the long-term productive agriculture in the 
region. No. 2, it furnishes essential watershed protection of 
Tomales and Bodega estuaries. No. 3, it maintains the land 
primarily in private ownership. No. 4, it creates a model 
public-private partnership, and, No. 5, it protects the 
significant public investment in the Point Reyes National 
Seashore.
    The legislation proposes an innovative and cost-effective 
method to protect the 38,000 acres of coastal agricultural 
landscape. This protection would primarily be accomplished 
through acquisition of development rights and conservation 
easements, all from willing landowners. With conservation 
easements, land would remain in private ownership and would be 
protected from incompatible development, and would contribute 
to the local economy and the tax base. Preserving the 
undeveloped lands in the farmland protection area is integral 
to protecting park values and the long-term health of the 
Tomales and Bodega Bays.
    The compatible pastoral setting of the eastern side of 
Tomales and Bodega Bays is unquestionably in jeopardy. Growth 
throughout Marin County is high. Open pastures and ranches are 
being sold and segmented for various types of development. 
Major land-use changes in the lands forming the eastern slope 
of Tomales Bay will directly and negatively impact public 
enjoyment of Point Reyes National Seashore.
    A private, non-profit group, the Marin Agricultural Land 
Trust, MALT, has made significant headway in protecting the 
rural setting of these critical watershed lands. The 13-year-
old group has already purchased conservation easements on 
11,000 acres within this proposed 38,000-acre protection zone. 
Because of MALT's efforts, the acquisition of these easements 
by the Federal Government would not be needed.
    Similarly, the Sonoma Land Trust has begun the purchase of 
several properties in the northern part of the protection area. 
These local efforts have already contributed close to $15 
million to achieve the overall goals of the bill. H.R. 1995 
would authorize a Federal partnership, a Federal contribution 
in order to complete the overall protection of the area.
    H.R. 1995 has received bipartisan support and the 
endorsement of many groups, including the Marin County Board of 
Supervisors, the Sonoma County Board of Supervisors, the 
American Farmland Trust, the Inverness Association, the West 
Marin Environmental Action Committee, and the West Marin 
Chamber of Commerce.
    The National Park Service believes now is the time to 
support these innovative partnership efforts. If H.R. 1995 were 
enacted, funding for easement acquisition would be contingent 
upon Federal budgetary constraints and the administration's 
funding priorities.
    This concludes my statement. I would be pleased to answer 
any questions you all might have.
    [The prepared statement of Ms. Stevenson may be found at 
end of hearing.]
    Mr. Hansen. Thank you very much. Ellen Kitay, we'll turn 
the time to you for 5 minutes.

STATEMENT OF EVELYN KITAY, SENIOR TRIAL ATTORNEY, OFFICE OF THE 
         GENERAL COUNSEL, SURFACE TRANSPORTATION BOARD

    Ms. Kitay. Thank you, Mr. Chairman. I'm Evelyn Kitay of the 
General Counsel's Office at the Surface Transportation Board.
    I've been involved in a number of judicial proceedings 
relating to the implementation of the existing Trails Act by 
the Board and its predecessor, the ICC. Accordingly, I'm here 
to testify regarding the role of the Board in implementing the 
existing Trails Act and to present views on H.R. 2438. With me 
at the table today is Joseph Dettmar, Deputy Director of the 
Office of Proceedings.
    The existing Trails Act gives interested parties the 
opportunity to negotiate voluntary agreements to use, for 
recreational trails, railroad rights-of-way that otherwise 
would be abandoned. The Act is intended to preserve railroad 
rights-of-way for future use, which is called railbanking. Many 
railroads do not own the land on which their track lies. 
Rather, they have easements over the land of adjoining property 
owners.
    Unless those easements are railbanked by converting them to 
a trail, they are extinguished, and the land reverts to the 
adjoining property owners when the Board authorizes the 
abandonment of the line and the abandonment authority is 
exercised. Some rights-of-way that were made into trails have 
been reactivated as active rail lines.
    The Board has adopted specific procedures to implement the 
existing Trails Act. To begin the trail use process, a trail 
proponent must file a formal request in an actual abandonment 
docket. A trail-use request has no effect on the Board's 
decision as to whether to grant a railroad permission to 
abandon the line. It is considered only after the Board has 
decided to permit the abandonment.
    The formal trail use request must include a statement of 
willingness to assume financial responsibility for the 
property, and the trail use proponent must explicitly agree to 
assume responsibility for paying taxes and for any liability.
    When the Board has decided that an abandonment will be 
permitted on a particular line, and a trail use request has 
been received regarding that line, the railroad must notify the 
Board of whether it is willing to negotiate a trail use 
agreement. If the railroad declines to negotiate, the 
abandonment will proceed as if no trail use request was ever 
filed.
    On the other hand, if the railroad agrees to negotiate and 
no offer of financial assistance to continue rail service on 
the line is received, the Board will impose a trail condition 
which gives the trail use proponent time to negotiate a trail 
use agreement with the railroad. Offers of financial assistance 
take priority over trails use requests, because they are offers 
to continue actual rail service on the line.
    The Board has no involvement in the negotiations between 
the railroad and the trail use proponent. It does not analyze, 
approve, or set the terms of trail use agreements. If a trail 
use agreement is reached, the parties may implement it without 
further Board action. If no trail use agreement is reached, the 
trail condition expires and the line may be fully abandoned.
    The Board is not authorized to regulate activities over the 
actual trail, and the Board has no authority to deny the trail 
use request if the statute has been properly invoked and the 
railroad has consented to negotiate. In short, the Board's 
jurisdiction is ministerial, and the Board cannot decide on 
whether or not railbanking or trail use is desirable.
    H.R. 2438, if enacted, would dramatically alter the Board's 
ministerial role under the Trails Act. Under the current 
statute, the Board must impose a trail condition permitting 
interim trail use on a rail line approved for abandonment 
whenever the statutory criteria are met. The Board has no 
discretionary decisionmaking authority in this area and no 
substantive authority, other than to carry out the essentially 
automatic provisions of the statute. Furthermore, the Board is 
not authorized to regulate a trail and its use.
    Under the proposed bill, however, the Board's ability to 
impose a trail condition would become discretionary; that is, 
the Board would be required to seek to determine if trail use 
is appropriate in a particular case. Requiring the Board to 
approve and oversee particular trails in this manner would be 
beyond the Board's primary mission, which is to oversee the 
economic regulation of railroads, motor carriers, pipelines, 
and non-contiguous domestic water trade. The Board has no 
particular expertise or knowledge concerning recreational 
trails. Congress only gave the agency a part to play in the 
formation of trails because of the railbanking element of the 
Trails Act.
    Furthermore, the Board has limited resources. It currently 
has only around 130 employees to handle approximately 500 
pending cases. The Board lacks the staff that would be required 
to approve and oversee individual trail use requests. In short, 
involving the Board in trail use approvals would be neither 
consistent with the agency's mandate, nor feasible given its 
existing resources and expertise.
    H.R. 2438 also raises additional concerns. First, the bill 
could result in a delay of the exercise of a railroad's right 
to abandon lines that are no longer needed for current rail 
service until the Trails Act process under the legislation is 
completed. This would be counter to the mandate of the law that 
the Board now implements, which is to facilitate and expedite 
abandonments.
    Second, the bill provides no legal standards by which the 
Board is to exercise the discretion the agency would be given 
with respect to the granting of trail authority. This could 
create inconsistency in the granting of trail use authority and 
vulnerability with respect to likely judicial appeals.
    Third, the bill raises the possibility of our having to do 
an environmental review under NEPA in every case in which a 
trail proposal is made. Such a requirement would impose 
additional burdens on the already strained resources of the 
Board.
    Finally, the bill creates confusion within the provision 
eliminating Federal preemption by appearing to give the vesting 
of any reversionary property interests pursuant to State law 
priority over the creation of any trail and railbanking. This 
provision could render the exercise of the Board's discretion 
with regard to trail use fruitless in many cases, because there 
could be no trails under the proposed bill if there would be a 
reversion under State law.
    In summary, the role that the Board plays under the Trails 
Act is not intended to promote a position on the issue of the 
conflict between reversionary property rights and trails. The 
Board's existing responsibilities with respect to trails are 
ministerial and do not and are not intended to resolve this 
conflict from a policy perspective.
    However, the proposed bill appears to impose a burdensome 
regulatory responsibility on the Board to determine whether a 
trail should be created that could be rendered a nullity, in 
many cases, by the operation of State law giving effect to 
reversionary property rights. This exercise, which is not 
consistent with the Board's primary mission, would be time-
consuming and a strain on its already limited resources, and 
could ultimately be a fruitless effort by the Board.
    This concludes my oral remarks, and I would be happy to 
answer any questions that you might have.
    [The prepared statement of Ms. Kitay may be found at end of 
hearing.]
    Mr. Hansen. Thank you.
    Questions for our witnesses? I'll limit the members to 5 
minutes; the gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Ms. Kitay--am I 
pronouncing the name correctly?
    Ms. Kitay. Yes.
    Mr. Faleomavaega. I think, basically, as a matter of our 
national policy, not so much in the area of the fact that at 
one time we've had 270,000 miles of railroad corridors all over 
the country, and now because of abandonments since 1990, it's 
only 141,000--and correct me as I'm going along on the history 
of our railway system. We're having a difficult time even 
getting Amtrak on the track, as far as getting proper 
appropriations and funding for the process.
    My question is, isn't it the bottom line--because of the 
Congress seeing this as our national policy--that we have to 
preserve these easements so that at one time, or maybe sometime 
in the future, that if our railroad system would have a need 
for these easements to go back, if there's a need economically?
    Ms. Kitay. Yes. In the Preseault case in the Supreme Court, 
the Supreme Court clearly found and approved the railbanking 
purpose of the statute, and if there is railbanking, then the 
line remains within the national transportation system and 
remains available to be restored to rail service. So that is 
clearly a policy of the existing Trails Act.
    Mr. Faleomavaega. Then the Congress turned around and made 
it very technical, saying it's still for public use because 
it's an easement and there's really not been an absolute--what 
do you call it--alienation--of the land that is used as an 
easement by these railroads. Am I correct? So instead of doing 
it, now we come out with this system of putting in trails, 
rather than giving back the lands to the original owners. 
Because it seems to me that this is the heart of Congressman 
Ryun's bill; they don't mind having trails, but they do want to 
be compensated after abandonment. This is what I sense, and 
correct me if I'm wrong on this.
    Ms. Kitay. No; I think that's correct. I think under the 
existing statute we have no discretion. We have to stop the 
abandonment. The abandonment doesn't go forward if there is a 
proposal for trail use, assuming that the statutory criteria 
are met. And the Supreme Court, in the Preseault case, found 
that the landowner's right was to seek compensation, by filing 
an action in the Claims Court, and there have been several of 
those actions that have been filed and are pending.
    This statute would change that because--or at least it can 
be read to change that, to suggest that--where there are 
easements and where the easements would be extinguished under 
State law, you'd never get to the trail in the first place.
    Mr. Faleomavaega. And I'm sorry Mr. Ryun is not here, but I 
think there was an additional condition that if these 
landowners get their land back, they can then develop the land 
in some other form different from the trails system.
    Ms. Kitay. Right. Well, once there is an abandonment and 
once the abandonment authority is exercised, then the land is 
no longer within the national transportation system and it can 
be developed for any use, and the right-of-way would have to be 
re-acquired to bring it back as a rail line, which is often a 
very costly undertaking.
    Mr. Faleomavaega. Let's say there's a corridor 100 miles 
long, and the landowner gets it back--maybe 50 miles of that. 
Obviously, this is going to break the trail system, because the 
landowner may decide, ``Well, I want to develop this 50 miles; 
it belongs to me as a landowner.'' What is this going to do to 
the railway system, as far as the original intent of the 
Congress? We're not going to have a rail system.
    Ms. Kitay. Well, there have been a few railroad rights-of-
way that have been restored.
    Mr. Faleomavaega. OK, so in other words the railroads will 
just have to go around these landowners who say, ``Well, 50 
miles belongs to me.'' And they're every much entitled to it as 
a landowner.
    Ms. Kitay. Well, I think it's----
    Mr. Faleomavaega. My question is how the railway system is 
going to redevelop itself should the railway system say, 
``Well, we want to use the easements again because our railroad 
system in the country needs to be brought back to life again.''
    Ms. Kitay. Well, there are ways; eminent domain is 
available, and there are other ways in which a railroad can 
acquire land. It's just more expensive and more cumbersome to 
do it that way than it would be under this kind of a statute.
    Mr. Faleomavaega. Now don't get me wrong. I absolutely 
believe in the right of landowners to be duly compensated. But 
when the easements were taken, these landowners never received 
a cent from the Federal Government?
    Ms. Kitay. I think it's not clear. They could have received 
money. We'd just have to go back to 1899 or what happened in 
1910, and that's something that we don't know about. Presumably 
they paid less for their land than they would have if there 
hadn't been an easement or they got money from the railroad.
    Mr. Faleomavaega. They were compensated for fair market 
value. I mean, isn't this a Federal policy in the first place, 
that in a taking for a public purpose that the landowner should 
be compensated?
    Mr. Dettmar. Well, Congressman, landowners----
    Mr. Hansen. State your name, please, for the record.
    Mr. Dettmar. I'm sorry; I'm Joseph Dettmar, the Deputy 
Director of the Office of Proceedings at the Surface 
Transportation Board.
    Landowners have a claim under the Federal Tort Claims Act 
in the Court of Claims, but as I believe as has already been 
stated, none of those claims have been successfully prosecuted; 
so no landowners have received any money for any land.
    Ms. Kitay. Well, it's under the Fifth Amendment. They can 
bring a takings claim, not a tort claim. It's a takings claim 
under the Fifth Amendment, and in one case a taking was found, 
and the amount of damages has not yet been set. That is the 
Preseault case that arose out of the Supreme Court case, and 
there are several cases that are now pending. One is pending in 
the Federal Circuit, and there are two or three pending in the 
Claims Court now.
    Mr. Faleomavaega. Mr. Chairman, my time is up. Thank you.
    Mr. Hansen. Are the landowners included in the negotiations 
with the trail proponents and the railroad?
    Ms. Kitay. Not directly. The way the statute was drafted 
and the way it's been implemented by the Board, landowners get 
notice of the proposed abandonment and the possibility that a 
particular right-of-way can be used as a trail, but the 
voluntariness and the beginning of a negotiation process is 
between the trail proponent and the railway.
    Mr. Hansen. What's the history of this, then? Have 
landowners become an integral part of it? If they're given a 
notice, like we get notices of water--things that somebody's 
doing--that's all they get?
    Ms. Kitay. They get notice of proposed abandonments. They 
have participated in our abandonment proceedings before the 
Board; they have challenged several decisions where we imposed 
trail conditions in the courts, with varying degrees of 
success.
    Mr. Hansen. But they're only a party if they become an 
intervenor then; is that right?
    Ms. Kitay. They can file comments and participate in our--
yes; but that's correct; that's the way the statute was 
written.
    Mr. Hansen. So that's like John Q. Anybody. I mean, I could 
do that in Salt Lake City. I could intervene on an issue in 
Hutchinson, Kansas if I so desired. I mean, anybody can do 
that. So they're not given any particular greater standing than 
anybody else; is that right?
    Ms. Kitay. That's right. In our proceedings, that's right.
    Mr. Hansen. Oh, I see. The gentlelady from--the gentleman 
from Iowa----
    Mr. Ryun. If you could yield for a minute.
    My question is, have any interim use requests been 
considered or denied as a result of landowner appeal?
    Ms. Kitay. No. Well, there are cases where we have found 
that the abandonment had been fully exercised prior to an 
imposition of a trail condition, and we have revoked trail 
authority on that ground. And we have also made it clear that 
if a landowner or anyone else comes in and shows that the 
statutory requirements of the Trails Act are not being met, 
that we will revoke trail conditions.
    Mr. Ryun. Well, no, because the landowner owns the land, 
and that's what we're trying to establish here.
    Ms. Kitay. Right. The land--I think the way that the 
statute was written and the way that the board has implemented 
the statute is that the landowner's real right is to go to 
court and bring a takings claim.
    Mr. Ryun. May I make a point on that? That's what we were 
discussing earlier, that they can go to court, but the cost of 
going to court and coming back here exceeds the actual cost of 
the land. In many cases it would cost them a great deal of 
money. In fact, I gave a point earlier that it can cost as much 
as $100,000 for land, let's say, that's worth $30,000, in 
addition to the number of years that it's tied up in court. So 
it is extremely difficult for the landowner to be able to do 
this process.
    Mr. Hansen. That was on my time.
    The gentlelady from Washington.
    Mrs. Linda Smith. Thank you, Mr. Chairman.
    I think my first question is for Ms. Stevenson--and I could 
be confused, but I don't think so, because I've gone through 
some of these. But you stated in your testimony that 
railbanking is entirely voluntary between railroads and local 
communities. And that railbanking requires consensus--is what 
you said--among local community leaders and their constituents.
    I'm really not aware of the provisions of section 8(d) that 
prevent the conversion of railroads, or railways, into 
recreational trails, absent community or constituent consensus. 
So I guess, how does this statute require consensus from local 
communities, which is part of your testimony?
    Ms. Stevenson. I think actually that, when Ms. Kitay 
explained her testimony, hers probably was more clear than what 
we had written. It doesn't require total consensus from the 
committee; it requires an agreement between the railroad and 
the community group, or the rail proponent in order for a 
railbanking provision to go ahead.
    Mrs. Linda Smith. OK. So it isn't necessarily consensus; 
it's just an agreement of the parties present?
    Ms. Stevenson. Consensus between the two parties----
    Mrs. Linda Smith. Just the two parties.
    Ms. Stevenson. [continuing] not necessarily consensus of 
the entire community. That's correct.
    Mrs. Linda Smith. OK. So the landowners themselves could be 
excluded from this consensus?
    Ms. Stevenson. That's correct.
    Mrs. Linda Smith. Thank you.
    I would reserve the balance on my time for the proponent of 
this particular bill.
    Mr. Hansen. Thank you.
    The gentleman from Puerto Rico.
    Mr. Romero-Barcelo. I have no questions, Mr. Chairman.
    Mr. Hansen. The gentleman from Kansas, do you have any 
questions?
    The young lady from California. We'll recognize you for 5 
minutes.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Ms. Stevenson, would it be all right if Superintendent Don 
Neubacher sat with you?
    Ms. Stevenson. It would be a pleasure.
    Ms. Woolsey. Thank you very much.
    My question really is directed to him, because it's about 
the history of the Point Reyes National Seashore as it was 
originally proposed.
    Mr. Neubacher, it's my understanding that--and you weren't 
there then; you're way younger than I am, but you know the 
history better than I. It's my understanding that there was a 
lot of opposition when the initial Point Reyes National 
Seashore was proposed. This opposition was based on the fears 
of the bill's consequences and of intrusion of Federal 
Government in a way of life.
    I'd like to know, do we still face those worries with the 
local ranches within that area?
    Mr. Neubacher. Unequivocally no. Actually, we have a very 
positive relationship with the ranchers with inside the 
National Seashore at this point in time. We still have 18 
ranchers operating, and we get along extremely well. In fact, 
there was--part of the original legislation that prohibited 
from purchasing any of those ranch complexes; is later the 
ranchers came to Congress, and ask for authority to work a 
little bit more closely with us, and gave us the authority to 
buy interest in those lands to.
    To this day we still have about 20,000 plus acres of active 
ranching going on in Point Reyes National Seashore, and again, 
it's extremely compatible, and as your proposing this bill, we 
endorse the idea of extending that to the East Side of Tomales 
Bay because of the positive relationship.
    Ms. Woolsey. Well, would you take a step across the bay now 
to the farmland protection area, and talk about how that would 
enhance our Federal investment in the national park.
    Mr. Neubacher. The Tomales Bay estuary system--which is 
really one of the largest on the west coast--is extremely 
productive. There's like 50,000 shore birds. We have Coho 
salmon, we have steelhead. Ten percent of the Coho population 
left in California--goes up Waganeigus Creek, which comes out 
of Tomales Bay.
    We have found over time that again this relationship with 
the pastoral setting is very compatible with the park setting. 
What we don't want--there is numerous studies that urbanization 
actually adds more deterioration to the environment. So we'd 
like to work with the local community. And this was really 
initiated by the local community to ensure that the pastoral 
setting continues, because again, we have a very clean estuary; 
we have a good system; it's working, and want to ensure that it 
continues into perpetuity.
    Ms. Woolsey. OK, thank you very much. Thank you, Mr. 
Chairman.
    Mr. Hansen. Superintendent, how many acres have you 
purchased since establishment of the park?
    Mr. Neubacher. Pardon me?
    Mr. Hansen. How many acres have been purchased since the 
park was established?
    Mr. Neubacher. The total authorization for Point Reyes is 
71,000, and we've purchased about 65,000. The rest is 
primarily--other agencies own it. For example, the Coastguard. 
And there were some agreements with AT&T that we wouldn't 
purchase that land. Actually, the outstanding land that we 
haven't purchased, the very small parcels; we're probably going 
to do those--actually, our land protection plan calls for less 
than fee acquisition. Total outstanding is 200 to 300 acres.
    Mr. Hansen. How much would that be agricultural ground?
    Mr. Neubacher. Left?
    Mr. Hansen. Yes.
    Mr. Neubacher. None.
    Mr. Hansen. None? How much agricultural ground has been 
purchased?
    Mr. Neubacher. Actually, I'd have to submit that for the 
record. The original pastoral zone created by the legislation 
was 26,000. And we did purchase more of that, and I could look 
that up, but I don't know the total acres initially.
    Mr. Hansen. At one time was this all agricultural land?
    Mr. Neubacher. A lot of the park was agricultural land. It 
is heavily wooded in the southern section of the park. In the 
initial concept for the park, when it was supported by the 
Board of Supervisors, they divided the park up into a public 
use area, and a pastoral zone. And we have really kept to that 
original agreement. And again, we've worked the ranching 
community. And one thing we're going to enter today is 
testimony from the ranchers that are in the park now, saying 
that we've treated fair, that we have a good relationship, and 
that they work well with us.
    Mr. Hansen. How much money does this cost the taxpayers?
    Mr. Neubacher. The authorized ceiling for Point Reyes 
National Seashore is approximately $62 million----
    Mr. Hansen. So you still have some----
    Mr. Neubacher. [continuing] the majority of that, $62.5 
million.
    Mr. Hansen. So how much more do you feel you need to 
accomplish what would be in Mrs. Woolsey's bill?
    Mr. Neubacher. With Woolsey's bill, actually the 
appraisal--the authorized ceiling in Woolsey's bill is $30 
million. The appraisal that the Park Service did--and this was 
a very rough appraisal--that we could purchase everything, 
which means the conservation easements and the 38,000 acres--
about 2,000 of that is state lands--with about $40 million. And 
again, there's already been a commitment of 11,000 acres, which 
is worth about $15 million. So the rest of the money would come 
from the match.
    And again, this is a partnership. We were approached by the 
local community--the partnership between the state, the local 
community, and the Federal Government. So what we're trying to 
do is do the Federal commitment, because we have such a 
significant resource here, next to Tomales Bay and in Point 
Reyes National Seashore.
    Somebody mentioned earlier, the public truly is being 
served. We have 2.5 million visitors coming to this area, and 
we contribute about $107 million to the economy.
    Mr. Hansen. Well, what is the significance you point out? I 
mean, if we talk Yellowstone, we can all figure out what that 
is, the Grand Canyon. For those of us who haven't the 
opportunity to visit this park, give us a quick summation of 
the great significance on it.
    Ms. Stevenson. Well, if the gentleman will yield. You have 
to remember you've been invited out there many times.
    Mr. Neubacher. And we would love to have you come out.
    Mr. Hansen. That's true. We're invited everywhere around 
the world, and it's just hard to prioritize it all.
    Mr. Neubacher. The park's significance, really--when 
national seashores were established we were trying to protect 
scenic coastline, and within the park we have a lot of maritime 
history. We have 147 miles of hiking trails. We have wildlife 
that abounds. I mean, we serve a lot of visitors, so the 
recreational and scenic opportunities are phenomenal. And we 
also have the oldest shipwreck on the west coast. We have the 
St. Augustine. You may have read about it recently; we're 
trying to uncover it. It's where the first European contact 
occurred in California; Sir Francis Drake landed there in the 
1500's. The significance overall for the resources, cultural 
and natural, are phenomenal, and of national significance.
    Mr. Hansen. I'm not asking you to be a land appraiser, but 
the original Act--what, it was $14 million. And yet you folks 
have spent $65 million. How do you feel $30 million will handle 
it all?
    The rule of thumb around here is it takes longer and cost 
more on everything we do.
    Mr. Neubacher. We can submit this for the record, but we've 
actually gone through--the conservation easements have been 
purchased by the Marin Agricultural Land Trust. So we have a 
lot of history, and actually the prices to a certain extent 
have stabilized. We actually did an estimate for a conservation 
easement, we feel very certain--and again, this was done by 
qualified appraisers. I personally believe that we'll do the 
job.
    Mr. Hansen. The gentlelady from Washington, did you want to 
reclaim any time?
    Mrs. Linda Smith. I just had one question of Ms. Kitay. Am 
I saying that right?
    Ms. Kitay. K-i-t-a-y.
    Mrs. Linda Smith. Kitay. You made a comment, that I just 
wasn't sure if I understood it fully. You were concerned about 
NEPA review being required because of this particular bill. I 
guess I wanted to know why trails shouldn't be--or should be 
exempt from NEPA review, or did I not understand what you were 
saying?
    Ms. Kitay. Well, we had a court case involving NEPA, and 
whether we had to do a environmental analysis of every trail, 
and the 8th Circuit in a case called Goos v. ICC, found that 
because our role under the Trails Act is ministerial, there's 
no discretionary decisionmaking involved, and therefore NEPA is 
not triggered every time you have a trail proposal. And our 
concern here is that, if this bill were enacted, and the Board 
were given discretion regarding trail authority, that then you 
would have trails considered, or the licensing or approval of 
trails considered, to be major Federal actions requiring an 
environmental review under NEPA.
    Mrs. Linda Smith. So the jury's out on whether or not I 
would support that or not. I think there should be a lot of 
review before there's a trail. But you would say that would get 
in the way of producing that trail, making it more difficult.
    Ms. Kitay. I think the concern that the Board has is that 
that would impose additional burdens on our already strained 
resources, because we have so little staff, and so many pending 
cases; and that that would just create more cases that we had 
to do environmental assessments on or whatever.
    Mrs. Linda Smith. So you think trails should be exempt of 
most environmental assessments?
    Ms. Kitay. Well, I think that--as I said, because under the 
current statute we don't exercise discretion----
    Mrs. Linda Smith. You don't have to now; you would have to 
then.
    Ms. Kitay. We would have to under this bill.
    Mrs. Linda Smith. Thank you.
    Mr. Hansen. The gentleman from Maryland, any questions?
    Mr. Gilchrest. Not at this moment that would probably make 
any sense, Mr. Chairman, because I'm late for the hearing, but 
I hope everything's going all right so far. I'll have some 
questions maybe for the next panel. Thank you.
    Mr. Hansen. The gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I just wanted to ask the superintendent and then Ms. 
Stevenson for their comments further on H.R. 1995. I guess 
there's a saying that haste makes waste. And I just wanted to 
ask you, is there any conceivable issue that was not 
considered, in terms of the process that you've undertaken to 
review all the issues that were involved, where we've come now 
with Ms. Woolsey's proposed legislation?
    I mean, how long has this taken place as far as the 
consultations, and meetings? I mean, this wasn't done in a 
process of 3 months or 6 months, or----
    Mr. Neubacher. No, we're talking years. And I've been--
Actually I worked at Point Reyes National Seashore, I worked on 
another project; no I'm back. And I've been the superintendent 
there for approximately the last 3 years. And this started way 
before I got there, so we're talking 3 years plus. There's been 
a lot of discussions and consultations. And I have to admire 
Ms. Woolsey for actually all the work she's done working with 
the community. She's done a lot of public meetings.
    Mr. Faleomavaega. OK. So this is not a Democratic or 
Republican bill; this is a bill that's going to benefit the 
community there in Point Reyes.
    Mr. Neubacher. Very much so, and there's tremendous broad-
based support from the community organizations.
    Mr. Faleomavaega. I yield to the gentlelady from----
    Ms. Woolsey. Thank you. I would like to ask, if the 
Chairman's not going to ask a question about clarifying the 
section of the bill you questioned earlier, if I should ask 
them. Or are you going to ask them?
    Mr. Faleomavaega. I will ask them myself.
    Ms. Woolsey. Thank you.
    Mr. Faleomavaega. Could you clarify that provision that was 
raised by the Chairman?
    Mr. Neubacher. Yes. The intent of that section is clearly 
what Mr. Hansen stated, was that we could exchange lands 
outside the state. So under the current Policy Act we cannot do 
that; it would only be with inside the states. So that's why we 
worked with the Congresswoman to instate that. I mean, that's--
in our opinion, would not make or break this bill. So if 
there's concern we wouldn't oppose a change.
    Mr. Faleomavaega. So in other words, Secretary Babbitt can 
exchange Escalante Monument in Utah with----
    Mr. Neubacher. I'm afraid so, I guess I'd have to say.
    Mr. Faleomavaega. Go ahead, Mr. Chairman.
    Mr. Hansen. Why is that necessary to have that in the bill?
    Mr. Neubacher. Well, we were trying--there have been other 
cases where I've worked with the Park Service, that we have 
found lands in other states that we could not exchange that 
were really good--the agricultural community would like to have 
had, but we just couldn't do it, and we had to go back to 
Congress for authority. So we thought we'd avoid that so we 
could exchange lands in another location if possible. It just 
gives us broader authority to do the job.
    Mr. Hansen. But in effect your amending FLPMA for this one 
particular area.
    Mr. Neubacher. That's correct.
    Mr. Hansen. That's dangerous, too. I wouldn't count to 
heavily on that----
    Mr. Faleomavaega. I think I'm still on my time, Mr. 
Chairman.
    Now this is not the only exception of this proposed 
legislation, Ms. Stevenson. I mean, are there other instances 
where the secretary is authorized to do exchange of lands, or 
the department for that matter?
    Ms. Stevenson. I'm sorry, Mr. Faleomavaega, I don't know 
the answer to that; we'll have to provide it for the record.
    Mr. Faleomavaega. Would you provide that for the record, 
because I think--I do share the Chairman's concern if we're 
setting a precedent.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you.
    We appreciate Evelyn Kitay and Kate Stevenson for being 
with us, and appreciate your testimony. We'll excuse you at 
this point. And Panel No. 3 is Nels J. Ackerson, The Ackerson 
Group; Richard Welsh, Executive Director of National 
Association of Reversionary Property Owners; Jayne Glosemeyer; 
and Howard Woodbury.
    We appreciate the third panel being with us at this time. 
You know the rules. We're 2 hours and 15 minutes into this 
hearing. It's going a little slower than we'd plan.
    Mr. Ackerson, we'll start with you, and just go across.
    We'll give you each 5 minutes. Is that all right?
    Mr. Ackerson. That's fine, Mr. Chairman. Thank you.
    Mr. Hansen. Thank you. The floor is yours, as we say in our 
business.
    Mr. Ackerson. Thank you, Mr. Chairman.
    Mr. Chairman, I have submitted for the record a 7-page 
single-spaced statement of testimony, of which I will not have 
time to read.
    Mr. Hansen. Without objection, that will be included. And 
all of your testimonies in their completeness will be included 
in the record, and you would like to abbreviate your testimony, 
by all means, please do it.
    Mr. Ackerson. Thank you, I will do so.

    STATEMENT OF NELS ACKERSON, ATTORNEY, THE ACKERSON GROUP

    Mr. Ackerson. Mr. Chairman and members of the Committee, I 
have the privilege of representing, individually and in class 
actions, now tens of thousands of landowners, homeowners, 
families, retirees, small businesses, farm organizations, and 
others, in about 15 states across the nation. Like the author 
of H.R. 2438, Mr. Ryun, many of my clients enjoy the outdoors 
and know the benefits of recreational trails. They also in many 
cases are conservationists.
    What distinguishes my clients from others is that they own 
the land on which railroads once operated their trains, and 
upon which trails are now operating or proposed. They are not 
adjacent landowners; they are the landowners. They own the 
strips of land running through their farms or their yards, 
where trains once ran, every bit as much as any homeowner owns 
a backyard, a driveway, or a deck.
    And so, members of the Committee, I want to ask this 
Committee to look at two different perspectives on the railroad 
corridors where trails have been proposed or are operating; not 
just the perspective down the corridor, but the perspective 
across the corridor.
    The owner's perspective is different, because it is their 
land. They not only look down the abandoned railroad, but also 
across it. Looking cross the right-of-way they see the rest of 
their farm, reunited for a more efficient farming operation, 
now that the railroad has brought to an end the agreement that 
allowed railroad use on their land.
    They see a backyard in which their children can play in 
safety and privacy. Sometimes they see a strip of land that has 
become a sanctuary for wildflowers, berry bushes, and wildlife 
which they would like preserved, free from asphalt surfaces and 
free from traffic.
    In short, what my clients, the landowners, see, is their 
home, their farm, their land. Unfortunately, the perspective 
that has dominated much of the debate, and not a bad 
perspective, but a different perspective--and it's only bad if 
it's the only perspective--and that is the perspective down the 
corridor.
    Railroad companies and trails advocates often fail to look 
at the other perspective, across the corridor. Railroads want 
to be paid for land they once used, regardless of whether they 
own it. Trails pro-

ponents see opportunities for recreational uses, and often view 
my clients as greedy or disgruntled neighbors, who are 
troublesome in their bothering to stop part of a trail; rather 
than as the owners of the trail that is to be taken without 
their consent and without their consultation for the purpose 
that they did not have in mind.
    Now those who look down the corridor, and only down the 
corridor, not only miss a beautiful view of life; they also 
miss the fundamental point that we learned in kindergarten: you 
shouldn't take something that is not yours without first 
asking. That's the first principle. The other is, you should 
pay for what you take. The perspective down the corridor--when 
it is the exclusive perspective--turns a blind eye to those who 
own the land. A trail proponent in zeal to establish a 
recreational trail may presume that the railroad, rather than 
the real landowner, should be approached and paid for the land. 
The railroad of course likely will be happy to oblige. It's a 
rule of human nature I think--even in this city--that if you 
rob Peter to pay Paul, you can often count on Paul for support.
    Thus the real landowners are taken out of any involvement 
whatsoever in what happens to their land. That is the 
perspective that has been fostered and maintained by the 
present law. Owners of the land to be taken for a trail don't 
even know about these abandonments in many many cases. Some of 
my clients who own farms or little homes along abandoned 
railroad corridors don't read the Federal Register every day. 
They don't get a second notice. Some of them have no idea 
what's happened until it's done. That is why the issues that 
are addressed in this bill must be addressed seriously.
    H.R. 2438 provides a way to restore balance among the 
various pubic and private interests that are affected by the 
National Trail System Act. Public policy should recognize and 
protect the legitimate interests of persons whose land is taken 
for a new public purpose, and whose lives and the lives of 
their families will be changed forever as a result.
    Those persons who are the most affected should at the very 
least, have a significant role in the process, be given 
protection against the loss of security and privacy, and have 
access to traditional land law to enforce their property 
rights. The conservation, recreation, and even national 
security objectives of the National Trail System Act--and 
incidentally, I would like to address those national security 
issues if the time will permit--those objectives can be 
accomplished without sacrificing what has been the very fabric 
of society embedded in the Constitution.
    We don't need to sacrifice constitutional safeguards. We 
don't need to eliminate the roles of state and local 
government. And we don't need to violate the simple principle, 
that we should never take what is ours without first asking, 
and we should pay for what we take.
    I believe my time is up, unfortunately. I have addressed in 
my written statement a number of misconceptions about the law 
and about the facts, which I would be happy to address if 
anyone has questions.
    [The prepared statement of Mr. Ackerson may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much. Mr. Welsh.

   STATEMENT OF RICHARD WELSH, EXECUTIVE DIRECTOR, NATIONAL 
          ASSOCIATION OF REVERSIONARY PROPERTY OWNERS

    Mr. Welsh. Thank you, Mr. Chairman and Members of the 
Subcommittee.
    Mr. Hansen. Would you move the mike over in front, if you 
would, please.
    Mr. Welsh. Oh.
    Mr. Hansen. Yes, right there. Thank you.
    Mr. Welsh. Usually with my hearing problem I talked loud 
enough for everybody to hear within a mile.
    Mr. Chairman and Members of the Subcommittee, I'm Richard 
Welsh, the Executive Director of National Association of 
Reversionary Property Owners, the non-profit organization 
dedicated to the preservation of reversionary property rights 
for the tens of thousands of property owners throughout the 
country.
    NARPO currently is working with aggrieved property owners 
in 47 states. To date there is over 60,000 property owners 
throughout the country affected by this rails-to-trails law. 
Regardless of the intentions of the supporters of the rails-to-
trails movement, rails-to-trails as passed by Congress and 
implemented by Federal agencies, and private entities I might 
add, has become a terrible detriment to the individual and 
constitutional property rights of members of our United States. 
H.R. 2438 will go a long way to right a major flaw in the 
rails-to-trails law.
    When Congress passed the original rails-to-trails law in 
1983, the new railbanking policy preempted state property laws. 
Specifically, Congressman Ryun's bill will eliminate this 
preemption. This will not be the death of the rails-to-trails 
movement, as the trails owners insist. Instead Rails-to-Trails 
project sponsors can acquire land like any other entity, 
seeking specified land for public use. Government and private 
groups can pay for the land needed from the property owners to 
develop the trails. The rails-to-trails law has programmed over 
3,600 miles, across 62,000 pieces of private property, without 
paying one cent of compensation for the loss of rights; rights 
which the U.S. Supreme Court set seven and a half years ago for 
due compensation. Jayne Glosemeyer sitting on my left here will 
testify to that effect now.
    Because the Rails-to-Trails Act preempt state property law 
of reversion, certain other state and Federal laws lose their 
application. A glaring case of laws being abrogated due to the 
Rails-to-Trails Act occurred near Park City, Utah in 1989, and 
still exists today. When Union Pacific Railroad abandoned their 
line in Echo, Utah to Park City, abutting owners expressed 
concerned about the nearby tailing piles from the old Silver 
King mine. The tailing piles lie directly on the right-of-way 
and imposed an environmental risk at that time, and even today 
still do.
    The BLM hazardous material unit ordered an environmental 
survey to be conducted on the right-of-way, which was proposed 
for the trail. The survey reported that voluminous amounts of 
arsenic, mercury, lead, were present, and leeching into the 
soil and going into the air. The report warned that children 
would be susceptible to airborne carcinogens emanating from the 
tailing piles. Because of the exemption from state and Federal 
environmental laws through this Trails Act--excuse me. Because 
of the exemption from state and Federal environmental review of 
trails, nothing was done, and the trail was built within 20 
feet of the exposed tailing piles. If Park City would have had 
to abide by the state reversionary laws, more oversight of the 
project would have occurred, and polluted land most assuredly 
would have been cleaned up.
    One of the worst aspects of the Rails-to-Trails Act is that 
private entities can designate and develop trails without ever 
being subject to the electorate. In a case near Lewiston, 
Idaho, a rail salvage company acquired an interest in a long-
abandoned railroad. When the property owners heard that a trail 
might be built on the rail bed they tried to find out who owned 
the property and who had control over it. NARPO was finally 
able to determine that the railroad was abandoned in 1985, and 
already the land had reverted to the abutting property owners. 
But during this confusion the trails group sold quit claim 
deeds to the non-suspecting property owners that already owned 
the land.
    One way property owners can fight to regain the use of 
their land, is to convince local elected officials to oppose 
rails-to-trails projects. It is difficult to succeed however, 
when an advantage is provided to the trails group over 
landowners, through the Federal law. In almost every instance 
property owners do not know about a forthcoming project until 
the trail is being built through their property. The Rails-to-
Trails Conservancy, who is going to testify later, supports 
this non-notification of property owners. Into the record as 
part of my testimony today is the letter from the RTC office in 
Washington, DC, here to an Emmet, Idaho official, where the RTC 
advocates keeping the property owners in the dark until the 
funding and authorization for the trail is approved. The sad 
part is, RTC receives Federal program money to be used to 
collude against property owners.
    Interim Trail Use designation and the arbitrary control by 
a trails groups has had detrimental affect to property rights. 
After being designated an Interim Trail User under the Rails-
to-Trails Act, an entity can take complete control of the 
right-of-way, even though it might be 400 feet wide. The 
negotiations between the trail use entity and the abandoning 
railroad can go on for years. The Service Transportation Board 
exerts no oversight before or after issuing the trail use 
agreement. Meanwhile, the abutting owners do not know who's 
controlling it and who to address their complaints to.
    H.R. 2438 will prevent the preemption of state property 
law. Groups interested in making trails would have to abide by 
state reversionary property law. Abiding by the state law would 
solve all the above-mentioned problems before they occur. It a 
state or local government want to develop a trail they could 
condemn the right-of-way and pay the property owner. This is 
the way our law is supposed to work.
    Rails-to-Trails was written to effectively extinguish 
reversionary rights. The U.S. Supreme Court has said these 
rights can be taken. The court said the Constitution requires 
compensation. To date nobody has been paid. The property owner, 
Mr. Preseault from Vermont, has been waiting, and really since 
1980, when his property was originally taken, and is now a 
trail.
    I want to thank the committee, and I'd be glad to answer 
any questions.
    [The prepared statement of Mr. Welsh may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Welsh.
    Jayne Glosemeyer.

            STATEMENT OF JANE GLOSEMEYER, LANDOWNER

    Ms. Glosemeyer. Thank you, Mr. Chairman.
    I am Jayne Glosemeyer, a landowner from Marthasville, 
Missouri. I came here today to tell you that the Rails-to-
Trails Act may produce trails, but in the process it destroys 
things much more precious; the safety and security one has in 
their property, and a future hope of passing down one's 
heritage to their children. My husband and I learned of this 
government policy that prevents us from using our own land, by 
reading the Sports section of the ``St. Louis Post Dispatch.'' 
Landowner notification is not a provision of the Rails-to-
Trails Act.
    We own and operate a farm that has been in our family for 
over 100 years. My great uncle, granted and recorded an 
easement in 1889 to the Cleveland, St. Louis, and Kansas City 
Railroad Company--of which I hold a copy--allowing 12 acres to 
be used for the purpose of a right-of-way for a railroad, and 
for no other purpose. Today, instead of a railroad, which my 
family agreed to, I now have a state park running through the 
middle of my farm.
    A landowner group, made up of community members, formed 
with me and spent over $150,000 to fight for our property in 
state court, Federal court, U.S. Supreme Court, and now the 
U.S. Court of Claims. Over ten and a half years of my life has 
been spent in some form of litigation over land that I own, and 
I have a deed to it. This confiscation of private land for 
public use has left me feeling like a second class citizen. 
Neither the Missouri Constitution, nor Missouri state statutes 
have protected me.
    The Rails-to-Trails Act is a scam, contrived by special 
interest trails groups to void state railway abandonment law in 
order to use my land for their purposes. Trail proponents state 
in a September 1988 issue of The Bay State Trail Riders 
Association, that railbanking is a myth, and a way to get old 
railroads without having to pay for them. Railroad companies 
welcome the effects of this law, because they receive money for 
land they do not own, nor have the right to sell. According to 
the Rails-to-Trails Act my legal contract with the railroad 
company is a useless sheet of paper, and I do not understand 
why Congress would pass a law that negates legal contracts and 
renders state property law useless.
    As a result of the Rails-to-Trails Act, I have found that I 
have not only lost my property rights, but I am also forced to 
carry an undue financial burden to provide recreational space 
for the general public. The Katy Trail sits 30 yards outside my 
front door, and 2 feet from our livestock's pens and sheds. In 
addition to the privacy I've lost because of the trail, I am 
forced to rent housing facilities for my livestock, 2 miles 
from our farm. The potential for liability and disease from 
human contact with our livestock has caused us to move our 
animals and prevented us from expanding our livestock 
operation. Just imagine, owning plenty of land to op-

erate and expand our farm--our hog farm--only to have 
government, a government program force us to rent land because 
the program has made our land unfit.
    Now that a recreational trail exists in the railroad's 
place, we face significant exposure to liability arising from 
the uncontrolled trespass of the public, or generally ignorant 
of the dangers of interfering with the breeding habits of 
animals. Our once peaceful farm was at risk of being sued 
should a trail user be injured by an animal.
    One afternoon I returned home to find a woman off her 
bicycle, sitting in the shade of our shed, while her child 
chased one of my piglets around the field. I shudder to think 
what would have happened to that child if the piglet had 
squealed and the 600 pound sow came to the rescue of her baby.
    Representative Jim Ryun's bill, the Railway Abandonment 
Clarification Act, will honor state property law, and prevent 
the Federal preemption of state law, concerning how railway 
abandonments are treated. Since it will remove the Federal 
mandate regarding the treatment of abandonment railways and 
designation of recreational trails, I will be free to deal with 
the State of Missouri. As you may know, due to the lobbying 
efforts of the landowners along the abandoned Katy Rail line, 
the State of Missouri struggled with the issue of whether to 
proceed with the Katy Trail, and with that I do not object. I 
do object however, when the Federal Government grants to 
special interest groups and railroads, both non-public 
entities, the power and the authority to claim my land as their 
own to do what they wish.
    The Railway Abandonment Clarification Act removes the 
Federal bias that converts abandoned railways into trails over 
the rights of property owners. Since it is my land, I want 
control over how it is used. Anyone, including the State of 
Missouri, should consult me first to ask permission to use my 
land. I support Jim Ryun's bill, and encourage its immediate 
consideration by the Committee, and I thank you for this 
opportunity to be here. And I'd be happy to answer questions 
later.
    [The prepared statement of Ms. Glosemeyer may be found at 
end of hearing.]
    Mr. Hansen. Thank you.
    Mr. Woodbury.

            STATEMENT OF HOWARD WOODBURY, LANDOWNER

    Mr. Woodbury. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before the Subcommittee on this issue 
that directly affects my farm and family. Representative Ryun's 
bill, H.R. 2438, the Railway Abandonment Clarification Act, is 
a sensible solution to the problem created when bikers, hikers, 
and horseback riders want to put a trail on my land where there 
used to be railroad tracks.
    My name is Howard Woodbury, and my brother, father and I 
operate a diversified farm of 4,000 acres in Eastern Kansas. On 
my farm we raise wheat, corn, grain sorghum, soybeans, and 
cattle. My grandfather bought this farm more than 50 years ago 
when the Missouri Pacific Railroad operated the rail line that 
runs through my land. Originally, the railroad was build in 
1886 and served Forbes Field in Topeka when it was an air force 
base. After Forbes Field became an Air National guard base the 
rail line was used to service some farm cooperatives in 
Northern Osage County, but no longer continued north into 
Topeka. The particular line that cuts across my property is a 
15-mile spur from Lomax to Overbrook, off of the Union Pacific 
line out of Kansas City.
    When my grandfather bought our farm he understood that 
there were existing easements for railroad purposes on the 
land. My grandfather understood, and it has been long 
understood in Kansas, that railroads hold no interest in the 
land except as an easement. The Rails-to-Trails Act, however, 
has put in jeopardy the owner's property rights to his land 
which holds an easement. Kansas Law 66-525 states, any 
conveyance by any railroad company of any actual or purported 
right, title, or interest in property, acquired in strips for 
right-of-way to any party other than the owner of the servient 
estate, shall be null and void, unless such conveyance is made 
with a manifestation of intent that the railroad company's 
successor shall maintain the railroad operations on such right-
of-way, and railroad owns marketable title for such purpose. 
What that means is, that unless the railroad sells the right-
of-way to another railroad, the easement expires, and I regain 
the use of my land. In fact, my property held another railway 
that was abandoned some time in the 1920's. Consistent with 
Kansas state law, the use of that land reverted back to my 
farm, and today I use that land to grow hay to feed my cattle 
and other livestock.
    Some time in 1984 or 1985 a flood caused the washout of the 
Missouri Pacific railway north of my farm, between Overbrook 
and Michigan Valley. Because the line was not heavily used and 
probably did not generate too much business for the railroad, 
the washout was not repaired, and rail service was discontinued 
on the line. The Overbrook co-op sued the Missouri Pacific to 
repair the washout, and reinstate rail service for their grain 
elevators. The Union Pacific railroad bought the railway 
shortly after the rail service returned on the line. This was 
particularly memorable because since the washout repair the 
railway was not as sturdy as before, and trains would travel up 
and down the line at approximately 8 to 10 miles an hour, 
blowing their whistles as they went.
    In 1993, rail service was permanently discontinued, and the 
tracks and ties were removed in 1996. Around this same time 
rumors began that the railway was to be converted into a trail 
for horseback riders and recreational users. Neighboring farms 
like mine, which would be affected by this conversion were 
concerned. We had seen and were aware that another abandoned 
railway south of Topeka was dedicated to one of these 
recreational trails and never amounted to much. The right-of-
way is not developed, not maintained, and seems like a big 
waste of money, property, and other resources.
    My family and I do not want our land to be turned into an 
eyesore since, according to state law, I should be able to use 
the land to graze my cattle. Some landowners from surrounding 
towns met together, but we were told if we wanted to use our 
property it would be a long, drawn-out and expensive legal 
fight. In addition, the trail manager, who's the director of 
the Kansas Horsemen Foundation, and the former director of the 
Kansas Wildlife and Parks, told us that they owned the land. He 
further stated that anyone fencing off the corridor or 
attempting to use the land could be arrested. Also the trail 
manager said that the trail was opened for public use, even 
though it had not been developed, and he would not be 
responsible to keep out trespassers. Our fears about our land 
are becoming quickly realized. It is not maintained, it has not 
been developed, and trespassers are a constant problem. Because 
the right-of-way has become a kind of no man's land, heavy 
rains have shifted rock and soil, and damaged some of the 
fencing. I took it upon myself to repair the fencing to keep my 
cattle safe, but have yet to be reimbursed by the trail 
manager. I would like to use my land, keep it maintained, and 
determine its use for myself.
    What really gets under my skin is the fact that by all 
rights this land is mine, and I should be able to do with it 
what I want.
    Representative Ryun's bill makes it clear that the Federal 
Government does not preempt state law, with respect to the 
establishment of an the easement, or right-of-way, or property 
interest. The people of Kansas have the good sense to develop 
laws and regulations under which everyone can operate. And if 
we have a problem, I can get to the courthouse or the state 
house, without having to travel all the way to Washington, DC 
to address my grievances. Thank you.
    [The prepared statement of Mr. Woodbury may be found at end 
of hearing.]
    Mr. Hansen. Thank you, sir.
    We'll now turn to the members of the Committee for 
questions for this panel.
    The gentleman from American Samoa is recognized for 5 
minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Ackerson, I think you're the legal scholar here among 
the panelists, and I'd like to ask just one or two questions if 
I may.
    I take the position that you suggested to the members of 
the Subcommittee that we ought to put ourselves in the position 
of the landowner, so let me ask you this.
    Were the landowners compensated at the time of the taking, 
of the easements, historically?
    Mr. Ackerson. In some cases--if you're speaking of 
easements alone--in some cases the landowners were compensated 
for what was taken, and that was only the right to cross the 
land. They were not compensated for the ownership of the land. 
In other instances, according to the records, there was no 
compensation at all. In many of the cases which we have 
involving railroads, the railroads cannot prove that they ever 
paid anything for the land, but in some cases, no doubt, they 
did. And let me say, in some cases there's also no doubt that 
the railroads actually bought the fee simple interest in the 
land. That's not what we're talking about today.
    But the answer to your question then, were the landowners 
compensated for their land? No, they were not. They were 
compensated if an easement was given; they were compensated for 
a right to cross the land with the railroad. And at the risk of 
saying too much here, let me just say, there was a lot of 
reason for that. When most of these railroads were built the 
communities welcomed them because they would carry their crops, 
and unite their communities.
    Mr. Faleomavaega. It's an economic benefit, obviously.
    Mr. Ackerson. That's right. And so the railroad provided 
the benefit, completely different from what now might be used 
as an recreational benefit to someone else.
    Mr. Faleomavaega. I'm trying to gather again what you just 
stated earlier. There was compensation but in different 
circumstances.
    Mr. Ackerson. Well, there's compensation for what was 
taken, but there was not compensation----
    Mr. Faleomavaega. It was a mixed bag.
    Mr. Ackerson. [continuing] there was not compensation for a 
use after the railroad was abandoned. There was never 
compensation for that.
    Mr. Faleomavaega. In the most instances where these lands 
were involved if a railroad wants to build a rail system 
through my land would I have to get permission from the state 
government to contract with the railroad?
    Mr. Ackerson. Most typically in the last century when 
railroads were chartered they were given limited powers of 
eminent domain. And that is, they could either bargain with the 
landowners, or they could cause eminent domain to be exercised, 
and they could take the land. But they could only take it after 
paying for it, and after having a determination that it was, 
(a) a legitimate public use; and (b) that a fair price was 
being paid.
    Mr. Faleomavaega. So your whole point of argument here, is 
that if it was taken for a public purpose, and then after the 
railroad has no longer the need for the use as a public 
purpose, the land should revert back to the landowners. That's 
the basis of your argument.
    Mr. Ackerson. Not only that, but for a specific public 
purpose--and the specific public purpose was to operate a 
railroad. There are other public purposes to operate power 
lines, to operate telecommunications lines, to operate--to have 
sewers, to have public roads. These particular easements were 
for one purpose only, and that was to operate a railroad. 
That's what they bought or that's what they condemned in most 
of the instances we're talking about.
    Mr. Faleomavaega. Could you also share with the Committee. 
I hear 100 feet, 200 feet, 15 feet; what exactly is the lateral 
distance involved here. I notice the tracks. It's only about 15 
feet from that home there.
    Mr. Ackerson. This particular home happens to be in 
Leelanau County, Michigan, and you're right, that is a proposed 
trail. It's being developed as a trail right now, and it's 
about 15 feet from the family's kitchen. There's another home 
right down from the line from that, where it's 15 feet from the 
bedroom and the kitchen, and the wife and the family was 
shocked to look out her kitchen window one morning to see a man 
on a horse right outside looking in upon her. That's the kind 
of invasion of privacy that some of these people----
    Mr. Faleomavaega. So in the process of taking, there are 
inconsistencies, even on the property involved here--some 
involved 100 feet, some 200 feet, some 10 feet from----
    Mr. Ackerson. Typically through the plains and in the west 
they're wider than in the east. They range from 20 feet at the 
very minimum to more than 100, sometimes 200 feet.
    Mr. Faleomavaega. So your suggestion is that, rather than 
the railroads dealing with the landowners, the trail proponent 
should deal with the landowners, if they want trails built on 
their land.
    Mrs. Linda Smith. Mr. Chair?
    Mr. Ackerson. Whoever wants to use the land----
    Mrs. Linda Smith. Could the gentleman yield?
    Mr. Faleomavaega. I'd be glad to yield.
    Mr. Ackerson. If I may just----
    Mrs. Linda Smith. Please go ahead.
    Mr. Ackerson. [continuing] just say, whoever wants to use 
the land, should deal with the person who owns the land. I 
guess that's the principle.
    Mrs. Linda Smith. Would the gentleman yield?
    Mr. Faleomavaega. I'd gladly yield.
    Mrs. Linda Smith. I think what you're arguing for is local 
control who could deal with this a lot better than we can here. 
And I think the argument of the proponents is that, we 
shouldn't violate local land use or state land use. And they 
could probably better deal with this than we could deal here.
    Mr. Faleomavaega. But I think one of the problems that I'm 
faced with--and this goes right down to the bottom line of our 
total mass transit system. As a matter of policy, where the 
railroad system or the industry comes into play, if they're 
going to be doing abandonments simply because--the railway is 
in trouble. I don't know if I'm right it this.
    At one time we had 290,000 miles of railway. It was the 
most active form of transportation. America now would rather 
ride in their cars than take the train. And this is the reason 
why we don't have 125-mile bullet trains in our country, 
because simply we're not into the mass transit system as are 
most other developed countries.
    My question is, it goes right to the fundamental issue that 
Congress has to make that decision, as an overall Federal 
policy, are we going to continue having a railway system in 
place, whether or not by abandonment now, or in the coming 25 
years or 30 years? Are we still going to be having some kind of 
railroad tracks to maintain this form of transportation. And 
maybe our friends from Conrail will respond to that when they 
testify. But that's my concern that we have here.
    Mr. Ackerson. May I offer----
    Mr. Faleomavaega. Please, by all means.
    Mr. Ackerson. The situation that we have under the National 
Trail System Act right now, it seems to me puts the railway 
system, even for national security purposes, at great risk. 
Because there was a comment made earlier that these agreements 
for trail use are voluntary agreements. Well, they're voluntary 
agreements between a railroad and a trail group. It's like 
three people saying--or two people saying, let's you and me 
take that fellow's land. It's not voluntary for the landowner, 
and it's not even supervised by the U.S. Government. So if 
there is a national security risk, that risk is there now. 
Unless a railroad and a trail group decide to pre-

serve something, the Surface Transportation Board says it has 
no discretion.
    Now in terms of just preserving the railroad system for 
other purposes--and Mr. Faleomavaega, you mentioned a while ago 
that you were concerned about a 5-acre strip interrupting an 
entire trail if everyone else wanted the trail.
    Well, there still can be an opportunity to accomplish that 
in the traditional manner that our Constitution and our laws 
have directed, including the laws of this Congress. And that 
is, if there is a legitimate public purpose, first establish 
it, and then allow condemnation to go forward. If there's 
only--if as some of the trail proponent say, 70, 80, 90 percent 
support it, then what is stopping it from being done in the 
traditional manner? And I tell you what is stopping it. Right 
now it's a matter of money. It can be acquired cheaper from the 
people who don't own it--the railroads--than it can be from 
those who do.
    Mr. Faleomavaega. It can also be said by the same token, 
because there was a commonality of an economic interest. 
Everybody welcomed the railroads. So now that because of 
abandonment--because of economic reasons, now the whole picture 
has changed, and this is where we're at right now.
    Thank you, Mr. Chairman.
    Mr. Hansen. The time has expired.
    The gentlelady from Washington.
    Mrs. Linda Smith. Thank you, Mr. Chair.
    I want to make a comment to begin with. What I'm seeing is 
the acquisition and the immediate taking out of the rails, as 
quickly as possible, and sometimes changing of the structure 
around it to ensure they will not be rails again in our area. 
So, I can understand the concern. Yet, what we're dealing with 
today are property owners who are not considered in the 
decisions at all. So my concern with the property owners is 
that they're being told that by default that a greater good 
than their constitutional rights needs to happen, whether it be 
for maintaining the railroads or whether it be for maintaining 
trails, they're somewhere in between.
    So I guess my argument today is that we can't leave them in 
between. They do have a superior right under the Constitution 
to their rights of property, and that's why we're here today 
for this particular bill.
    I do want to commend the author for the superior job he's 
done. There's a lot of bills before Congress right now, and to 
get this up in the last 2 weeks he must have had a pretty 
compelling argument for the chair. But I know his passion for 
the rights of the property owner are strong, and he is 
representing the folks very well in his district on this issue.
    I will just not ask any more questions. I don't think there 
are too many questions on this particular issue, except his 
bill should go forward to push the issue of protecting private 
property rights, which is the prime purpose of the sponsor. 
Thank you.
    Mr. Hansen. Thank you.
    Gentlelady from California have any questions for this 
panel?
    Ms. Woolsey. No thank you.
    Mr. Hansen. Gentleman from Kansas.
    Mr. Ryun. If I may, I'd like to ask Ms. Glosemeyer a few 
questions. We've been discussing rights, if you will, and the 
entire trails issue.
    Can you perhaps touch a little bit on, on what it has cost 
you in terms of the moving of our livestock to another 
location; some of the costs that are involved, the renting of 
additional land?
    Ms. Glosemeyer. It cost us basically $100 a month, or $100 
a week--I'm sorry--to rent housing facilities for our 
livestock. And that also creates the problem of bringing feed. 
We have the feed at our farm, and we have to haul it to the 2 
miles away, which is several times a week we have to do this.
    Mr. Ryun. I think it's interesting to note that when the 
actual railroad was running through, your animals were very 
comfortable with the railroad, and were accustomed to the 
sounds, and yet as a result of this----
    Ms. Glosemeyer. There's were no problem with the railroad.
    Mr. Ryun. [continuing] new transition, you've had to make 
quite a bit of adjustment.
    Ms. Glosemeyer. What caused us to have to move--like I said 
in my testimony--was the threat of the trespass, which we did 
not have when the railroad was there. And we felt no hindrance 
to improving our farm and our livestock management.
    Mr. Ryun. Thank you.
    Mr. Hansen. Mr. Woodbury, Glosemeyer--if I'm saying that 
right--how much of your farms--what would be the acreage size 
that we're talking about?
    Ms. Glosemeyer. The trail is approximately a mile long 
through our farm, and approximately 100 feet wide, which would 
convert to about 12 acres of land.
    Mr. Hansen. And you stated in your testimony you had fee 
title to that, is that right? You have the deed to it?
    Ms. Glosemeyer. Yes, we have the deed, and we also have the 
easement that was granted.
    Mr. Hansen. Do you pay taxes on that area?
    Ms. Glosemeyer. We paid taxes up until 1985, when the State 
of Missouri determined that, because it was a railroad that as 
a landowner I should not pay the tax. If a tax were levied on 
it, I would be paying it, yes.
    Mr. Hansen. You hold title to it, but you don't pay taxes 
on it, is that right?
    Ms. Glosemeyer. I did up until 1985.
    Mr. Hansen. Up until 1985. Who does pay taxes, anybody?
    Ms. Glosemeyer. No. The railroad company--excuse me. The 
railroad company was levied at a tax on the property, and I 
believe now the State of Missouri makes a payment in lieu of 
taxes.
    Mr. Hansen. So any citizen can go on that property now, is 
that right?
    Ms. Glosemeyer. Yes. It is opened to the general public, 
yes.
    Mr. Hansen. Is this about the same similar state with you, 
Mr. Woodbury?
    Mr. Woodbury. Mine would be somewhere approximately 8 to 9 
acres on my mile that I've--that runs through our place. My 
abstract from 1886, we didn't own the property. In fact, the 
property that we own is in two different half mile sections, 
and it was in approximately six different tracks in 1886 when 
it was bought. Everyone of the abstracts from June of 1886 say 
they condemn a strip 100 feet wide, over, across, and through 
the property for railroad purposes; and if the railroad--for 
that railroad and any of its successors, is what it says in the 
abstract from 1886.
    Mr. Hansen. You don't get an annual tax notice on it now, 
is that right?
    Mr. Woodbury. We pay taxes on the land, that is correct. We 
don't pay the railroad taxes. The railroad paid the farm 
greater majority of taxes on that land than what we did, but 
they were paying it on their tracks, not on the actual land 
that it was sitting on. We paid--I still continue to pay tax on 
the land that it's sitting on.
    Mr. Hansen. I see.
    Were either of you brought into the negotiations when the 
rail-to-trail thing went through? Were either of you an active 
part of this?
    Ms. Glosemeyer. No. Like I said in my statement, we read 
about it in the ``The Post Dispatch'' in the Sports section 
that there was the possibility of a trail being placed on the 
abandoned rail corridor. And as landowners began to realize 
that there was the possibility of this happening, we formed a 
group to take it to court to reclaim the land as ours, 
according to what Missouri state law should have given to us. 
But not once did anyone from the Rails-to-Trails group approach 
us and say, this is what we would like to do with your 
property. We were never a part of any negotiation, nor was 
there any notice given to us directly.
    Mr. Hansen. Then apparently you weren't approached either 
on the idea of compensation for the ground?
    Ms. Glosemeyer. No, sir.
    Mr. Hansen. So in effect, you have title to property, you 
don't pay taxes on it. You have no control over it. But you 
have some kind of quasi title, I guess, therefore you can't do 
anything with it; you can't use it; you can't sell it; you 
can't do anything, is that right?
    Ms. Glosemeyer. I'm not allowed to do anything with it. No, 
sir, it's part of a state park, but I do own it. My deed is 
still there, and I still have an easement that says it could 
not be used for any purpose but a railroad.
    Mr. Hansen. What happens when you argue the fact that the 
Constitution says you have to be compensated for your ground? 
What's the response on that?
    Ms. Glosemeyer. I believe in our Constitution. I believe 
the Constitution was written so that this very thing would not 
happen to me; that a private group could not, without my 
consent, take and use my property. I believe it was written 
there so I would be part--so they would have to negotiate with 
me as to how my land would be used. Did I understand your 
question correctly?
    Mr. Hansen. One of the greatest arguments that goes around 
this Committee is taking by the government, and being 
compensated on it, whether it's wilderness, waterways, roads, 
whatever it is. And I guess we're going to have to bring that 
back to the middle somewhere. I think we got a little extreme 
on some of it.
    Did you have a comment?
    Mr. Ryun. Yes, I have a question for Mr. Ackerson. I know 
you've worked with a number of different landowners throughout 
the country. Could you comment on perhaps some of those who 
have actually had to buy their land back, or perhaps who have--
they don't have use of it anymore, but perhaps they've had to 
buy it back.
    Mr. Ackerson. One of the greatest abuses that I think has 
happened as a result of this Act being in place, is that 
persons have seized control of the land--including railroads--
not for the purpose of converting it to a trail, but for the 
purpose of extracting money from the very people who own the 
land, requiring landowners to pay railroads to get their own 
land back under threat of taking it for a trail. If a railroad 
can hold out the threat of railbanking, even when the railroad 
does not own the land it can demand money from the landowners, 
and yes, I've seen that happen in many instances.
    In fact there have been instances where Federal money 
through ISTEA has been used to pay the railroad, which does not 
own the land, to convert the land to a trail, and we have a 
possibility--although it's going to be expensive--for the 
landowners to be paid by the United States by going to the 
Court of Claims so the United States pays for the land once 
again. And there's even a third possibility, because in some of 
these instances we know that the railroads have donated their 
land, which they don't own, and have taken tax deductions as if 
they owned it.
    So we have a triple hit by the taxpayers, and we also have 
a double hit on the landowners, because the land they've 
already paid for, and they own, and they're paying taxes on, 
under the threat of it being railbanked, they may have to pay 
the railroad for it one more time in order to avoid 
railbanking.
    Now we've seen that done through a method of bidding. A 
railroad will say, we're going to railbank this, but if you 
landowners want it back, you can bid more and we'll sell it 
back to you, even though we don't own it.
    Mr. Hansen. Thank you, we're 3 hours into this hearing. 
We've got three panels to go. So I appreciate the patience. 
You've folks have been here, and traveled a long way to be 
here. I will excuse this Committee, and thank you for your 
testimony.
    Panel 4 is Edward Norton; the Honorable Janice Hodgson, 
Mayor of the city of Garnett; Bill Newman, and Richard V. 
Allen.
    We appreciate the panel being with us, and you know the 
rules. We'd really appreciate it if you'd stay at 5 minutes. 
Mayor, I don't know if you do that in city council meetings. I 
used to have a hard time when I was in your position.
    We'll start with you, Mr. Newman, and if you could stay 
within your time, fine. You've got to realize that on the floor 
right now is a grazing bill, and our members--a lot of them are 
over there, and in and out, and around and about. And I guess 
people in the west have some great concerns on that, so no 
one's sliding you; we'll read a lot of your report.
    Mr. Newman. Mr. Chairman, if it's alright with you, could I 
yield to Mr. Norton to go first?
    Mr. Hansen. Whatever makes you folks happy.
    Mr. Newman. Thank you.
    Mr. Hansen. In what order do you want to go now?
    Mr. Norton. I'll be glad to go first, Mr. Chairman.
    Mr. Hansen. All right, then 1, 2, 3, 4. Is that alright, in 
that order?
    Mr. Norton. That's fine.
    Mr. Hansen. All right. Watch the clock.

 STATEMENT OF EDWARD NORTON, BOARD MEMBER, NATIONAL TRUST FOR 
                     HISTORIC PRESERVATION

    Mr. Norton. I'll watch the clock very carefully. And thank 
you for the opportunity to testify this morning. I always look 
forward to testifying before this Subcommittee. Your 
jurisdictions touches subjects that are near and dear to my 
heart, and none more so that preserving our nation's rail 
corridors and our rail trail system.
    On just a very personal note, as a young boy I used to ride 
with my Uncle Stewart, up the C&O line, from Ashville, Kentucky 
to Elk Horn City, on his locomotive, and I can honestly say 
that with respect to the Rails-to-Trails Conservancy, the 
national group that is involved in this issue, I was present at 
the beginning in the early 1980's when this movement got 
underway. So this is a subject that I've had some familiarity 
with all along.
    The subject of this hearing this morning touches a subject 
within the jurisdiction of this Subcommittee that I think 
requires careful balancing of the different interests and 
values involved; private property rights, and private property 
values, as well as broader societal interest. And I think that 
in many cases--and this is exactly one--that many times those 
interests are much more compatible, and in fact reinforcing 
than they are in direct conflict, and that we can solve these 
things without taking a blunderbuss or meat ax approach to 
them.
    I should also add that I'm testifying today on behalf of, 
not only the Rails-to-Trails Conservancy, but also the Surface 
Transportation Policy Project, which is a coalition of more 
than 150 organizations and individuals that include state and 
local government; the National League of Cities, the National 
Council of State Legislatures, and many organizations, and 
certainly the total membership of the Surface Transportation 
Quality Project probably exceeds 2 million people.
    To get really right to the heart of the matter, we oppose 
this legislation. We believed that it would effectively destroy 
the national railbanking system, established under section 
8(d); that it would destroy many of the benefits--additional 
benefits--of interim trail use under the present law; that it 
will really create--or eliminate any incentive for railroads to 
preserve their unused corridors. It creates a cumbersome, and 
burdensome, and confusing administrative process. And most 
important, for purpose of what we've heard this morning, it is 
our view that this bill will really not provide any significant 
protection to private property rights of the adjacent 
landowners.
    We acknowledge that the private property rights of adjacent 
landowners are an important subject that must be addressed in 
any statutory arrangement like this. We are sensitive to those 
constitutional rights. We look to try to create expeditious, 
efficient means to resolve those rights, and to provide for 
compensation where compensation is due under either state or 
Federal law, but this bill does not accomplish that purpose.
    Let me very briefly respond to the remarks that have been 
made earlier about the origins and the implementation of 
section 8(d). I happen to have been around when this matter 
first began to move, and I really don't remember what happened 
in the House of Representatives, and I looked at this again 
last night.
    I can tell you that the sponsors of this provision in the 
Senate--Senator Jim McClure form Idaho, Senator Malcom Wallop 
from Wyoming, and also Senator Dentor from Alabama. And I would 
never say to any of those gentlemen, having dealt with them on 
these kind of issues, that the put forward a piece of ill 
considered legislation. Nor has the implementation of this bill 
been ill considered, and its implementation really is not one 
that has been left to private rails-to-trails groups and also 
to the railroads.
    If you look just at the Midwest for example, the George 
Michaelson Trail in South Dakota, which is 110 miles and named 
after Republican Governor George Michaelson. It's a federally 
banked rail trail. The Cowboy Trail, which was 320 miles 
recently discovered in Nebraska, and it was railbanked under 
the leadership of Governor Nelson. In that case the rail detail 
group was in fact the state agency. The same is true of the 
Katy Trail, supported and railbanked by Republican Governor, 
John Ashcroft. And certainly the Prairie Spirit Trail in Kansas 
was railbanked under the leadership of former Republic 
Governor, Mike Hayden. The state plays--and in all of those 
cases, with the possible exception, I'm not quite sure of South 
Dakota, the state is in fact the rail-to-trail agency. So the 
notion that this is some Federal, private group and railroad 
scheme fostered off onto landowners is just simply not correct 
in neither the legislative history nor the subsequent 
implementation of that law would suggest that.
    With respect to the issue of property rights, which I'd 
like to squarely address, it's our position on this that people 
who are in fact actually agree have a perfectly added existing 
remedy to which they can go. We would be delighted to work with 
members of this Committee and the other interested groups to 
make sure that is both expeditious and fair. But it is simply 
not right to say that under present law, including the Supreme 
Court's interpretation of that law, that state law is totally 
preempted, and that person's right and their right to exclusive 
ownership under the right-of-way is preempted by Federal law. 
That in fact is the holding of the second round of the Preso 
case, decided by the Court of Appeals here in Washington, DC 
last year.
    It should be absolutely clear that the Supreme Court 
decided 9 to 0, without dissent, that section 8(d) is 
constitutional. And the Court of Appeals have decided that 
property owners do have a claim--if they do have a claim--if 
they can establish ownership under state law, they have an 
existing remedy to which they can turn in the U.S. Court of 
Claims, and state that law--their rights to property will in 
fact be determined by state law.
    I see my time is up, and I'll be glad to answer any further 
questions.
    [The prepared statement of Mr. Norton may be found at end 
of hearing.]
    Mr. Faleomavaega. [presiding] Thank you, Mr. Norton.
    Mayor Hodgson.

    STATEMENT OF HON. JANICE HODGSON, MAYOR, CITY OF GARNETT

    Ms. Hodgson. Thank you.
    Good afternoon, Mr. Chairman, and Members of the Committee. 
My name is Janice L. Hodgson, Garnett, Kansas, in the heartland 
of the Honorable Ryun's district. I'm accompanied to this 
hearing by Mr. Scott Lambers, city administrator of Ottawa, 
Kansas. He carries with him a letter from their mayor, and I 
carry one from my city manager that I would like to have 
entered into the record.
    I am the mayor of a community in Kansas which has a 
railbank corridor, which runs directly throughout town. We 
currently receive a quality of life benefit from the National 
Trail System Act because we have a wonderful linear park, which 
connects both or city parks and reservoirs with the town 
square. the Prairie Spirit Rail Tail between Richmond and 
Welda, Kansas, with Garnett as a central point, is now 
completed, and it's providing tremendous economic development 
and tourism results for the city of Garnett. Users are 
experiencing a healthy safe place to walk, ride and bike as 
they enjoy all that nature has to offer. Ground breaking 
ceremonies for Phase II from Richmond to Ottawa occurred just 
last Friday, October 24th. This is the first major tourism 
project for this area, and the first rail trail in the State of 
Kansas. The $1.3 million project was started by the Kansas 
Department of Wildlife and Parks, and the Kansas Department of 
Transportation. This project was funded by ISTEA funds, and we 
wish to thank the United Congress for authorizing the highway 
transportation moneys for this use. We were required to provide 
20 percent of the funds to complete this project, and these 
funds were provided by state and local government, and private 
contributors.
    The city of Garnett, through its economic development 
office, is keeping a close eye on the use of the trail, as well 
as the impact that it has on our local economy. I promise that 
we will do everything possible to ensure its continued success. 
We are committed to maintain 3 miles of the trail that runs 
through our corporate limits. Garnett is a rural community of 
3,200 people. We are a community of volunteers and hard-working 
people who understand what an enormous project the trail is, 
but we are willing to work hard to provide a quality of life 
environment, not only for our citizens, but for the many 
visitors that we are attracting to our area.
    Sales tax collections reflect a 10 percent increase from 
1995 to 1996, and project the sales tax revenues from 1996 to 
1997 will increase by 15 percent, which we feel can be 
attributed somewhat to the trail users that are coming to our 
city. The proposed amendment to the National Trails Act would 
remove the Federal law's ability to override state law. 
Supporters of these amendments want the states to be able to 
decide how these corridors should be preserved, yet by the 
current statutes in Kansas, these right-of-ways would be 
disposed of as soon as they are abandoned, and by dividing the 
right-of-way among the current owners of the adjacent property.
    There is no mechanism in the State of Kansas to preserve 
rail corridors. The Kansas statute divides all property, 
regardless if the land was from a direct grant from the U.S. 
Government to the railroad, or obtained through an easement. 
The railbank corridor, which travels through our community, was 
established in the 1860's, and 40 percent of the rail right-of-
way was from a direct grant from the U.S. Government. Other 
parcels were obtained through donations and the purchase of 
easements. Without railbanking, all of these would be divided 
among the adjacent landowners of the current Kansas statute.
    The corridor could be lost, and with it any hope of future 
reactivation, either for freight or for a possible light rail 
connection to Kansas City. In the meantime, our town would be 
deprived of a major resource for economic development. In 1996 
Governor Bill Graves issued a 1-year moratorium on the 
construction of the second 15-mile section of the Prairie 
Spirit Trail. This would allow the county commission for the 
country through which that section passed to have the right to 
stop construction by simply voting not to allow the trail to 
pass through their county. The moratorium was for 1 year. In 
that time the County Commission never called for a vote on the 
trail. After the year was over, the moratorium was lifted, and 
the plans for construction began.
    For these reasons, I am here to discourage any amendment to 
the National Trail System Act, which would place the Act in 
danger, and fail to provide a nationwide plan for the 
conservation of rail corridors.
    I appreciate the time that you've given me to express our 
opinion. Please visit our area and the first Kansas rail trail.
    [The prepared statement of Ms. Hodgson may be found at end 
of hearing.]
    [The information referred to may be found at end of 
hearing.]
    Mr. Faleomavaega. Thank you, Mayor Hodgson.
    Mr. Allen.

             STATEMENT OF RICHARD ALLEN, LANDOWNER

    Mr. Allen. Thank you, Mr. Chairman, it's a pleasure to 
appear here today, although I must admit that I'm more 
accustomed to testifying on matters pertaining to nuclear throw 
weights, perhaps China, which may be an easier topic today than 
the one under consideration by this Subcommittee, the Soviet 
Union and other national security topics.
    I am Richard Allen, and I come today as a property owner 
near--with property near the soon to be abandoned Southern 
Pacific Tennessee Pass line of 178 miles. As a committed 
mainstream--and by mainstream I mean to say Reagan Republican--
and as the author of the term ``Reaganaut,'' I use that term 
very discretely--by disposition I'm committed to uphold in the 
rights of individual property owners, and I am sensitive and 
well aware of the property rights issues concerned with this 
matter at hand.
    I'd like to suggest that I limit my remarks, Mr. Chairman, 
to four brief points. First, because I believe in the promotion 
of our national security interest, I'm going to speak about 
that issue. Second, I'd like to stress the importance of 
preserving the famous Tennessee Pass rail line, one of only two 
rail corridors crossing the great Rocky Mountains to Colorado. 
Then I would like to talk about the level--the high level--of 
local support in the region for this perspective conversion. 
And fourth, I would like to remind members of this Committee 
and Subcommittee that the nation's railbanking statute was 
signed into law by President Reagan in 1983, and President 
Reagan, certainly one of our most determined and fierce 
protectors of property rights.
    I served two presidents in the White House on three 
occasions, and other public officials, and I've worked and 
consulted widely with Members of Congress for many many years 
since the early 1960's. And as long time advocate of national 
defense, I am extremely aware of national transportation 
polices which either will add to or subtract from the national 
security interest of the United States. So I should like to say 
emphatically that from my point of view, the railbanking 
program strongly supports our national security interest, and 
that eliminating or compromising the railbanking program could 
compromise our ability to defend the Nation in the time of 
crisis, especially a time of extended crisis.
    You might recall that the interstate highway system was 
first proposed by President Eisenhower as a national defense 
highway system. It was proposed under that format because of 
the need to move material, troops, and other vital materials 
from one point of the country to another efficiently and 
quickly. Although our nation's rail corridor system was 
primarily developed by private interest, it's no less important 
to the strategic protection of our nation in times of war or 
global unrest. Railbanking is a common sense alternative to 
ensure that the constructed rail corridor system remains 
intact, even though current economic conditions may make in 
infeasible to run trains on those lines.
    There's also a national security of railroads system map, 
just like the national defense highways system map, and this 
map identifies railroads whose preservation are considered 
essential for the national security. The proposed legislation 
H.R. 2438 would actually preempt this important strategic 
system, by allowing states at their own election, and without 
regard to the larger national strategic considerations 
involved, to make decisions about whether to protect portions 
of the security railroad system. And while it may be unusual to 
raise national security issues before this particular 
Committee, we can all appreciate the long-range importance of 
these issues.
    In Colorado, with the merger of the Union Pacific and 
Southern Pacific Railroad the great Tennessee Pass rail line is 
being abandoned. We can all marvel at the truly significant 
engineering accomplishments that made possible the development 
of this corridor, which includes 119 bridges and more than 
4,100 feet of tunnels through the Rocky Mountains. Under 
current abandonment procedures, unless the corridor is 
railbanked under the national railbanking statute, all 119 
bridges would have to be dismantled, or would represent a 
perpetual liability to the Union Pacific or the State of 
Colorado. This is not an unusual problem of course, but it is 
particularly acute there.
    The Tennessee Pass corridor passes through 4 counties and 
20 towns. Since the Union Pacific announced its intention to 
abandon the line, the State of Colorado has examined many 
alternatives, held many hearings, had a lot of citizen input, 
and has developed what I would identify as overwhelming local 
support. Certain committees met and held extensive hearings so 
that public input could be heard, and the result is a very high 
level of support for the trail system as it is to be proposed 
there. Chambers of commerce and other businesses are very 
importantly behind this.
    I had the opportunity to discuss this just the other night 
in Colorado with the Honorable John Fawcett, the mayor of Avon, 
Colorado. And he informed me that there is virtually no 
opposition whatsoever in the region and certainly not among his 
own people. In the County of Eagle, in which Avon is located in 
the town of Edwards, there has been a newly instituted one-half 
cent transportation tax, of which 10 percent must go for rails, 
rather for trails. This is an extremely important concept, and 
$4 million has been appropriated from the GOCO, the Greater 
Outdoors Colorado Foundation for this purpose.
    Finally, I will suggest to members of this Committee and 
the House of Representatives, that the statute was signed into 
law by President Reagan after due consideration of his entire 
staff, his administration, and particularly by the ever tough 
and omnipresent Office of Management and Budget. I suggest that 
this Committee follow President Reagan's leadership, and 
refrain from weakening or dismantling this important 
legislation, which helps to implement our national policy of 
preserving the built rail corridor infrastructure. Thank you, 
sir.
    [The prepared statement of Mr. Allen may be found at end of 
hearing.]
    Mr. Faleomavaega. Thank you, Mr. Allen.
    Mr. Newman.
    Mr. Newman. With your permission, Mr. Chairman, I'd like to 
summarize my remarks, and you have my written statement for the 
record.
    Mr. Faleomavaega. Please.

    STATEMENT OF BILL NEWMAN, VICE PRESIDENT AND WASHINGTON 
                        COUNSEL, CONRAIL

    Mr. Newman. Good morning or good afternoon, I guess by now. 
My name is William Newman, and I'm Vice President of the 
Washington Counsel for Consolidated Rail Corporation. And for 
those who don't know, Conrail is the fifth largest Class I 
railroad in America today.
    I appreciate the opportunity to testify on behalf of 
Conrail, and I'm here today to extol the benefits of the Rails-
to-Trails program. But before I do that, I'd like to just take 
a minute to bring the people on this Committee up to speed 
about the Renaissance that's going on in the freight railroad 
industry today.
    Many people harken back to the early 1970's when our 
industry was on very hard financial times; over 25 percent of 
the railroad network was in bankruptcy. Today in good part, due 
to the passage of the Staggers Rail Act, our industry is 
prospering. I'm pleased to say that among other things, we 
offer better service, we have newer technologies, and we are 
also benefiting I think from the shortage of drivers in the 
trucking industry. We're also benefiting from the fact that 
there are limited resources to attend to the needs of our 
highway system, but basically the railroad industry is thriving 
today.
    Notwithstanding that, we still are all businesses, looking 
to shed unnecessary costs where we can. And historically as you 
know, the way the industry dealt with lines that it no longer 
needed was to abandon them. In fact, as I pointed out in my 
testimony, the Class I railroad industry had 200,000 miles--
road miles in 1965 and the Class I network now is down to 
slightly over 100,000. Abandonments, which are the virtually 
irreversible dismantling of rail corridors, were the 
predominant method of disposing of these lines before the 
1980's. Then in the 1980's two alternatives to abandonments 
arose; both of them we believe are better in terms of 
preserving existing rail service, allowing the future potential 
of rail service, and improving overall public policy.
    The first was the development of the short-line sale 
program, whereby uneconomic lines are sold to short-line 
operators. Conrail has 170 of them connecting to us today, and 
they're roughly 20 percent of our business. But for the lines 
for which there is no foreseeable future of viable rail 
service, the Rails-to-Trails program has offered an alternative 
to abandonments, which would usually, as I mentioned, result in 
the dismantling of a corridor, thus making the corridor 
virtually impossible to be reconstructed for rail use.
    The Rails-to-Trails program preserves rail lines by 
authorizing trail use and railbanking through agreements with 
interim trail users, made on a voluntary basis, subject to 
reactivation and interim user assumption of liability in 
connection with trail use, and the payment of taxes, and 
without, from the railroads perspective, burdening the 
abandonment process.
    Congress carefully struck a balance between multiple goals 
in the Rails-to-Trails program. It preserved rail rights-of-
ways and the rights of the railroads to dispose of their 
property as they see fit. It induced the railroads to enter 
into agreements to have the interim of trail user assume the 
tax and legal liabilities, which otherwise might be formidable 
hurdles; and facilitated the marketing of entire rights-of-way 
segments in the economic development with such marketing. It 
allowed for the potential reactivation of the right-of-way by 
the railroad should demand arise for it, and it assured the 
redress for the rights of the adjacent landowners, who have 
compensable property interest in the right-of-way at issue. We 
believe that the courts and the ICC, which is the predecessor 
to the Surface Transportation Board, have preserved the balance 
struck.
    Let me focus if I can for a moment on the pending 
legislation. Conrail believes H.R. 2438 would eviscerate the 
Rails-to-Trails program for the following reasons beginning 
with the repeal of the policy statement. In particular, the 
repeal of the quote, ``to preserve established railroad rights-
of-way for future reactivation of rail service; to protect rail 
transportation corridors'' and ``the interim use of any 
established railroad right-of-way'' not being treated as an 
abandonment, combined with the non-exemption of state property 
law provided for in section 5 is, with the pun intended, a 
total abandonment of the policy to preserve rail corridors for 
interim use, with the possibility of reactivation for future 
rail use.
    Indeed, the bill is intended to give primacy to the 
interests of adjacent property owners, but sacrifices the 
policy of preserving rails rights-of-way and the possible 
reactivation of rail service in doing so. Other sections of 
H.R. 2438 are intended to cripple or burden the rails-to-trails 
process, by leaving it ambiguous as to has the liability for 
taxes on the right-of-way, the liability for the adjacent 
property owners' interests, and making the Surface 
Transportation Board process potentially more litigious, 
extenuated, and consequently less predictable. In conclusion, 
Conrail believes the rails-to-trails process works well as 
presently constituted, and we would urge Congress not to tinker 
with it.
    [The prepared statement of Mr. Newman may be found at end 
of hearing.]
    Mr. Faleomavaega. The gentleman from Kansas for questions.
    Mr. Ryun. I'd like to direct my question, if I might, to 
Mr. Norton. You said something early in your testimony I would 
like to look at.
    While it's true that landowners can go to claims court--and 
by the way that's a very expensive process for landowners 
throughout this country to travel all the way back here to 
Washington--this arrangement gives great advantage to your 
group to take the people's property, and then let those 
landowners seek some sort of help along the way in an appeal.
    You seem to be sensitive, and you made that comment earlier 
that you want to be sensitive, sensitive to compensation, 
landowners and property rights issues to the point where it's 
an inconvenience to you.
    How do you respond to that? Isn't that the way it would be, 
that it's more of an inconvenience to you than anyone else?
    Mr. Norton. I'm not sure I quite understand the question. 
But let me address the property rights issue and the issue of 
the cost--the process for resolving these issues and the cost 
of that.
    First of all, I don't understand how this proposed 
legislation--assuming for the moment that we do have a costly 
procedure, a very costly procedure, a time consuming 
procedure--that I don't understand how this statute in any way 
resolves that. I don't understand how property owners who have 
legitimate claims will be really in any different position.
    The underlying question always is, who has title to the 
land, what is the extent of those rights, what were the rights 
that were given up, what were the rights that it retained. 
Those issues are determined under state law, and under the 
terms of the deeds from the railroads, and they are very fact-
specific. Whether those are resolved in the Court of Claims, or 
in state courts, or otherwise, these issues are always going to 
end up to some extent--they're always going to end up in the 
court.
    Mr. Ryun. Mr. Norton, may I interrupt just for a minute. 
I'm going to have to run for a vote. But I see the process as 
being best handled at a state level, where they have the 
opportunity to condemn that land, and to go through the 
process, if you will, compensation; whereas in this process 
it's very expensive, and it really does lean toward those of 
you that are here as opposed to the small landowner, that's 
back some place else in the United States.
    Mr. Faleomavaega. If the gentleman from Kansas would yield, 
because you have a vote, and I know this is a critical panel 
that you would like to raise some additional questions, I'd be 
more than happy to maybe give a 10-minute recess for you to 
return, and may want to raise additional questions, if that's 
all right with the gentleman.
    Can the members of our panel have just a little patience, 
and the gentleman will come back, and we will continue with the 
questioning. Thank you.
    The Committee will be recessed for about 10 minutes.
    [Recess.]
    Mr. Faleomavaega. We'd like to regroup, please, panel.
    I am not sure if Mr. Ryun will be coming back, but 
certainly every opportunity will be given to him to raise 
additional questions. In fact, we'll even allow the gentleman 
to submit more questions for the record if he wishes, and then 
to the members of the panel.
    I want to thank the members of the panel for their 
testimonies. This is always what makes democracy quite 
interesting, that you have an entirely different perspective 
from the other panel which gave their statements earlier.
    I do remember Mr. Richard Allen, with utmost respect for 
your tremendous service to our country at the time when you 
served as national security advisor to President Reagan, and I 
want to offer my personal welcome to you, sir, and a job well 
done, if that's a better way of saying it.
    Mr. Newman, on the issue of our whole--I kept asking these 
same questions, but I don't know, maybe I'm going over my head 
in trying to focus a little more specifically on our general 
overall national policy. It's not about land rights, it's not 
about the taking or easements; I'm talking about the situation 
with our whole railroad company or industry, if you want to put 
it those terms.
    You indicated earlier that we are getting a little better 
than it was before.
    Mr. Newman. That is correct.
    Mr. Faleomavaega. Do you think that there is a future for 
the railroad industry to be expanding even more?
    Mr. Newman. Let me kind of reiterate some of the things I 
touched on in my testimony.
    The railroad industry is going to continue to grow. The 
railroad industry, I believe--I feel very confident--is one 
that will get a bigger piece of the freight traffic that is out 
there. We are doing better. There are external forces at work 
that help us. However, as I mentioned, we will do more with 
less, as everybody in this world seeks to be more productive.
    So, if your question is, will there be new lines of 
railroad, not likely. As I mentioned with the short-line 
program, one of our primary goals is the preservation of the 
rail network, because after the railroad is gone, in our view, 
it will not come back unless we preserve the corridors. That's 
why our preference, when we have a line that does not make 
economic sense, is to sell it first to a short-line operator, 
thereby perpetuating rail service. And the fallback to that is, 
if that doesn't work because the economics aren't there, then 
we look to something like rails-to-trails.
    Mr. Faleomavaega. See we've got a problem here. We have a 
national policy with reference of maintaining the basic 
structure or the integrity of our transportation system, which 
the railway sys-

tem is one of those very important aspects of our whole 
transportation system.
    You're talking about an issue--what is it annually in terms 
of the gross and passenger, industry, and cargo commodities?
    Mr. Newman. The railroad industry is roughly about a $35 
billion revenue industry; this is the freight industry. In 
addition to that, as you know, you have Amtrak, who's revenues 
are slightly over a billion dollars. You have a great number of 
commuter agencies across the country, many of which--
particularly I'm familiar with Conrail--most of which operate 
over our freight lines. We share those lines. And indeed, with 
respect to Amtrak, we share the Northeast Corridor with them.
    The railroad industry carries 60 percent of our nation's 
coal, carries about 70 percent of our finished motor vehicles, 
carries grain, carries chemicals. As I mentioned, we are 
increasingly carrying all kinds of merchandise in our 
internodal trains. Our internodal trains are growing 
phenomenally. Our industry as far as I'm concerned is only 
going upward.
    Mr. Faleomavaega. And Mr. Norton, you've indicated that you 
do have some very serious problems with the provision of Mr. 
Ryun's bill. His suggestion is that we ought to just let the 
state government take care of this, in terms of the reversion 
of the status of the land, if it's abandoned by the railroads.
    You're talking about how much--I notice Kansas, I think, 
has about, what, nine trails, rail trail systems in Kansas 
currently?
    Mr. Norton. I think that's right currently in Kansas. There 
is actually an exhibit at the back of--it's actually three, 
three existing; it's attached to our testimony--three open 
trails in Kansas at least, as I look at those numbers.
    Mr. Faleomavaega. I noticed that Mr. Allen makes a very 
interesting comment about the fact that our railway system has 
very far-reaching the national security considerations. And I'd 
like, Mr. Allen, if you can elaborate a little further, how 
does a railroad have to do with our national security interest?
    Mr. Allen. Well, Mr. Chairman, if you could imagine a 
period of prolonged crisis, and the need to mobilize resources, 
you would quickly I think understand the requirement to keep 
open the option; to have always the option to revert to putting 
rails back down.
    I speak from the limited experience that I have in 
Colorado. The railroad wants to take up those rails, use them 
someplace else; they're heavy duty rails with a special high 
quality, and take up the ties, and so on and so forth. But 
there may be a time when it has to go back in. For example, the 
misfortunate--or the unfortunate fact that there were a 
building or something in existence, the railroad would have a 
hard time--and I think you pointed out earlier--going around 
those square corners. Put back in a railroad in time of great 
national need, or prolong national crisis would be a very 
important consideration. And it's my understanding that there 
had been certain reconversions where economic feasibility 
indicated that that should be done. But for long-term national 
security considerations it seems to me to be vital to keep open 
these main rail corridors, and to have the option to have them 
converted once again to their original use. That's why I 
believe that nothing should be done to disturb the existing 
system.
    Mr. Faleomavaega. Thank you, my time is up.
    The gentleman from Kansas.
    Mr. Ryun. Yes. I'd like to direct that question, if I may, 
a little bit to Nels Ackerson, with regard to national 
security. If you would comment on that. I know you mentioned 
earlier you would like to do that.
    Would you please do so at this point?
    Your microphone is not on.
    Mr. Faleomavaega. Could you turn your mike on, Mr. 
Ackerson?
    Mr. Ackerson. My reaction will be one of common sense, and 
not born of the national security experience of Mr. Allen, so I 
don't question at all the legitimacy of his concern. What I 
hear though, is that there is a national security reason to 
preserve the existing corridors, and if so, that should be 
addressed it seems to me in the present law as well as any 
future law. And it seems to me it could be addressed rather 
effectively by simply permitting the Department of Defense to 
determine, during the abandonment process, whether this is a 
corridor that should be preserved for national security 
purposes, and if so, then the traditional condemnation process 
in eminent domain proceedings could take effect, and that 
corridor could be preserved during the period in which that 
condemnation action goes forward.
    It seems to me that is a matter, to the extent there's a 
national security interest, that is right now, because right 
now the United States has no other way to preserve that 
corridor, unless by chance a railroad and a trails group happen 
to agree to.
    Mr. Newman. Mr. Chairman, may I address this question, 
because I know a little bit about it, coming from the rail 
side.
    Mr. Faleomavaega. The gentleman from Kansas, it's his time.
    Mr. Ryun. Yes, you may.
    Mr. Newman. Mr. Ackerson is exactly right. The people don't 
realize that the Department of Defense is a major railroad 
shipper, and when the railroad proposes to abandon the line as 
one of the shippers, they are served with notice of the 
proposed abandonment, and the Department of Defense has, and I 
assume, will continue to be a purchaser of these lines. They 
have from time to time stepped in and bought lines. And in fact 
they, in several cases, operate their own service to reach the 
outlying rail network.
    Mr. Ackerson. And that could remain the same I think in the 
continuing law if your bill were to be passed, Mr. Ryun.
    Mr. Ryun. And that's correct. That's how I see my bill at 
this point in time, that it really doesn't threaten that 
particular issue.
    Mr. Allen. May I make a comment, sir, although it's on your 
time?
    Mr. Ryun. Mr. Chairman?
    Mr. Faleomavaega. The gentleman from Kansas, it's his time, 
but if you would allow Mr. Allen to respond to your concern.
    Mr. Ryun. I'm finished at this point. That's fine. Thank 
you.
    Mr. Faleomavaega. Do you have any further questions, sir?
    [No response.]
    Mr. Faleomavaega. OK, Ms. Woolsey.
    Ms. Woolsey. I will let the gentleman at the end of the 
table answer on some of my time, Mr. Chairman.
    Mr. Faleomavaega. Mr. Allen, go ahead.
    Mr. Allen. Thank you. I was just going to point out very 
briefly that national security is a much broader consideration 
than simply the Department of Defense. And my second 
observation, meant somewhat lightly, is that the last place I 
would go for a quick resolution of a problem or a study, is the 
Department of Defense, and ask them to determine anything with 
clarity recision within a reasonable frame of time. And I think 
the Congress itself has its own experience in that regard.
    So, the basic point I'd like to make, however, is national 
security is not limited to what the Department of Defense has 
to say about anything; it's a much broader concept, and 
especially as we learn this fact of life in the post-cold war 
world.
    Mr. Faleomavaega. Will the gentlelady yield?
    Ms. Woolsey. Yes, I will yield.
    Mr. Faleomavaega. Mr. Norton, please enlighten us, what can 
we do to help these landowners that are telling us their sense 
of grievance? Now, you've indicated they do have access to the 
Federal courts, costing them hundreds of thousands of dollars.
    Is there another option that is available for these 
landowners?
    Mr. Norton. Well, thank you for asking that question. 
Actually Congressman Ryun and I were in the middle of a 
conversation about that when you had to recess. Let me try to 
pick up that answer.
    First of all, I would say that we all should work together 
to try to find the right forums and the expeditious processes 
by which property--legitimate property rights can be 
adjudicated. This has to be an adjudicatory process; it is the 
essential nature of these issues. I do not think you can escape 
that. It will have to be in state court--in Federal court or 
the Federal courts of claims. But the process will have to be 
adjudicatory.
    I think you've heard very compelling testimony here today 
that the bill, as introduced, for a number of reasons would 
destroy any incentive on the part of the railroads. We've heard 
it from the railroad industry to preserve unused rail 
corridors. I think that we need an approach, with respect to 
these property rights, that employs the scalpel rather than the 
meat cleaver on these issues. And we would be very anxious to 
work with the Committee in order to do that.
    From my own experience litigating cases in both state and 
Federal courts, local courts, state courts, Federal courts, I 
don't believe that state courts are necessarily even the best 
or the most expeditious place in which to resolve these issues. 
I know that the Court of Claims does have procedures now that 
allow for the Court of Claims to act as essentially circuit 
writers. A great deal of this can be done in an expeditious 
way, and maybe it would be better.
    I would conclude by saying that, I think that this is an 
issue on which this Committee should get some really good legal 
advice. I think there's been some bad legal advice about these 
legal issues, and the constitutional issues, and the court 
decisions bandied about today. I think you should get some good 
independent advice on this, and develop a consistent position 
with respect to property rights.
    Recently, the House of Representatives passed H.R. 1534, 
which allows, Congressman Ryun, private landowners and 
developers to bypass state and local court systems, and go 
directly to Federal court, even bypassing state administrative 
processes. And I think what we need to do is really look--this 
issue is coming up over and over again, and we need to look at 
a way that these legitimate property rights can be 
expeditiously adjudicated.
    Mr. Hansen. [presiding] Thank you. Any other questions for 
this panel?
    Mr. Ryun. Just a comment. And that is, the bill you 
mentioned, H.R. 1534, while it has passed the House, has not 
been signed into law yet, so it is still to be----
    Mr. Hansen. We'll excuse this panel, and thank you so very 
much. Appreciate the patience of all you folks today. All heck 
could break loose on the floor any minute on the grazing bill, 
and we've got to move right along here, if we can.
    Our fifth panel is Steve Kinsey, Robert Berner, and Sharon 
Doughty. If those folks would like to come up, we'd appreciate 
it.
    Well, thank you very much for being here; we appreciate 
your presence. I would appreciate if you stay within your time, 
not that your testimony isn't extremely important, but we're 
going to have bells going off, and we're going to sit here to 8 
if we don't get some of things going.
    So, Mr. Kinsey, we'll start with you, sir.

STATEMENT OF STEVE KINSEY, SUPERVISOR, FOURTH DISTRICT, COUNTY 
                            OF MARIN

    Mr. Kinsey. Thank you very much. My name is Steven Kinsey, 
and I do appreciate your durability today, as well as this 
opportunity to address you on behalf of the Marin County Board 
of Supervisor, and as a representative voice for the quarter 
million residents of Marin County.
    The district that I serve is a very vast part of Marin 
County, comprising almost two-thirds of its land mass, and 
virtually all of it's agricultural lands; as well as the great 
majority of its Federal parks and its recreation areas. It's a 
privilege to serve the spectacular and diverse community of 
Marin.
    Mr. Chairman, the Marin County Board of Supervisors 
unanimously supports H.R. 1995, because this legislation sets 
up a voluntary cost-effective collaboration between Federal and 
local governments that can help protect our region's 
agricultural heritage and, one of our nation's most popular 
national parks at the same time. I'm pleased to report as well 
that my colleagues on the Sonoma County Board of Supervisors, 
our neighbors immediately to the north, equally share our 
commitment to passage of this bill. Additionally, throughout 
each of our counties there is an overwhelming majority of 
residents who strongly favor the protections that will be 
provided by this legislation.
    H.R. 1995 offers real relief for ranching families 
committed to sustaining their way of life. Farming has never 
been an easy job. Farming on the urban edge is even more 
challenging, due to the relentless pressure development exerts 
upon the fertile soil.
    Like so many ranchers across America our region's farming 
families are often land rich and cash strapped. This 
legislation can deliver the vital funds many ranchers need to 
finance repairs and improvements in their operations, to comply 
with emerging regulatory requirements, or to diversify into 
entirely new agricultural venues. In return, the environmental 
character and the productive value of the land can be retained 
in perpetuity.
    I'm not sitting here today asking the Federal Government to 
unilaterally undertake the salvation of our region's 
agriculture. Marin has a 25-year history, a very proud history, 
of working to effectively preserve our historic agricultural 
lands. We've utilized many tools, including low density zoning, 
acquisition of conservation easements, and diversification of 
the industry beyond our historic beef and dairy markets, toward 
reaching this goal of protecting our agriculture. Today Marin 
ranches in addition to beef, sheep, and dairy, also produce 
high quality vegetables, grapes, berries, and even an emerging 
market in olive oil.
    In spite of Marin's historic efforts to protect our 
agriculture, H.R. 1995 is urgently needed to assist ranching 
families who choose to continue their way of life, and pass it 
on to generations to come. Without this program those cash-
strapped families will have no other choice except to sell out 
or seek to develop their property. In fact, for the first time 
since creating our coastal ag zoning, an application to develop 
a sprawling 20-unit subdivision on a 1,200 acre parcel within 
the proposed Protection Act boundary, has been submitted, and 
it's expected to be deemed complete by our County's staff 
tomorrow on October 31st.
    The proposal reflects the maximum density permitted under 
the Marin 60-acre zoning. Similar proposals are sure to follow 
this precedent-setting effort, and as each one is submitted, 
the pressure for adjacent property owners to follow down that 
path will surely increase. Passage of H.R. 1995 will certainly 
stall that trend.
    It is not Marin's intention that property owners be denied 
the ability to propose such developments if they desire to do 
so. However, H.R. 1995 offers a voluntary alternative to 
development. Individual ranchers can decide for themselves 
whether or not to participate in the program. This is far 
different than the circumstances an earlier generation faced 
when the Park Service was acquiring lands in the national 
seashore.
    There are other provisions of H.R. 1995 that I'd like to 
bring to your attention today as well. H.R. 1995 requires the 
local community to continue to invest in protecting our 
agriculture. Fifty percent of the funding for easement 
purchases must come from non-Federal sources. Purchase of 
conservation easements instead of the costlier fee purchase in 
most instances, will allow more agricultural lands to be 
protected for less Federal dollars. The land will also remain 
on local property tax rolls, particularly important to me as a 
supervisor, and particularly important to the schools in our 
country, as well as to the other important service districts 
that receive property tax funding.
    In conclusion, I wish to reiterate my deep gratitude for 
the opportunity you've made for us to speak to you on this 
matter today. In this year of shrinking government and a 
renewed commitment to private property rights, H.R. 1995 
provides your Committee with an innovative opportunity to 
protect the family farm and our national treasures, without 
breaking the bank or infringing on an individual's freedom to 
choose. I urge you to breathe life into this important 
legislation, adding your own contributions to its innovative 
structure so that it can serve not only the coast of 
California, our remarkable Marin County and Sonoma County; but 
also serve as a national model for a way to protect agriculture 
on the urban edge. Thank you for your time.
    [The prepared statement of Mr. Kinsey may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much.
    Mr. Berner.

     STATEMENT OF ROBERT BERNER, EXECUTIVE DIRECTOR, MARIN 
                    AGRICULTURAL LAND TRUST

    Mr. Berner. Thank you, Mr. Chairman and Members of the 
Committee.
    My name is Robert Berner. I am executive director of Marin 
Agricultural Land Trust, a non-profit organization, whose 
mission is to help preserve productive farmland in Marin 
County. I speak for MALT and not for any other organizations or 
individuals.
    Farmland makes Marin County one of the most unique and 
beautiful places in the United States. Agriculture preserved 
what is now Point Reyes National Seashore from second home, 
suburban and commercial development, until it was set aside as 
a national park. Agriculture today serves as the gateway to 
Point Reyes National Seashore, and is an integral part of the 
values, quality and character that makes Point Reyes one of the 
most visited national parks in the country. These are not hobby 
farms, but economically viable businesses, many of which have 
been in the same families for three and four generations.
    But farming on the edge of the country's fourth largest 
metropolitan area brings development pressures and rising land 
prices that threaten the future of agriculture. When Point 
Reyes National Seashore was created in 1962, there were 3 
million people in the northern California Bay area; today there 
are over 6 million.
    The most pernicious threats to agriculture are insidious 
and largely invisible. County land use policies protect against 
sprawl development with low density zoning, typically one unit 
for every 60 acres. The State Williamson Act allows 
agricultural landowners to be taxed based upon our agricultural 
land values rather than market values. But zoning and the 
Williamson Act do not protect against high agricultural land 
values driven by the proximity of our agricultural lands to the 
metropolitan bay area, or rural sprawl characterized by low 
density residential development. The average agricultural 
property in the county is 600 acres, making it vulnerable under 
local zoning to subdivision into 10 residential parcels.
    For 17 years Marin Agricultural Land Trust has offered 
agricultural families faced with the need to capitalize some of 
the value of their land a conservation alternative through the 
purchase of conservation easements. We have acquired easements 
on 38 farms and ranches totaling 25,500 acres. The purchase of 
conservation easements has been critical to the survival of 
agricultural in Marin. Every rancher knows someone who would 
have been forced to sell their land, or unable to buy land, 
were it not for the purchase of a conservation easement.
    Because Point Reyes National Seashore is a national asset 
and its protection and preservation a Federal responsibility, 
we think it is reasonable and justifiable for the Federal 
Government to share in the cost of protecting the farmland 
which is so important to the character, quality, and 
environment of this enormously popular park. We do not think it 
fair to place the economic burden of protecting these lands 
solely on the landowners through further downzoning.
    We offer to work in partnership with the Federal Government 
to permanently preserve the farmlands within the boundaries of 
H.R. 1995 through the acquisition of conservation easement in 
voluntary, compensatory transactions with landowners. The land 
would remain privately owned, privately managed, and on the tax 
rolls. MALT will help match Federal funds, and will undertake 
both acquisition and monitoring responsibilities entirely at 
our own expense, at no cost to the Federal Government.
    I want to emphasize, Mr. Chairman, that MALT does not 
support legislation that makes private farmland park land; 
subjects landowners to Federal regulation; diminishes land 
values; or is not voluntary and compensatory. We do not believe 
that H.R. 1995 does any of those things. H.R. 1995 would help 
maintain privately owned agricultural land in private ownership 
and protect it from non-agricultural development, but protected 
from non-agricultural development by conservation easements 
purchased at market value in voluntary transactions with 
landowners, thereby preserving this area adjacent to Point 
Reyes National Seashore in the private agricultural land uses 
which have historically, and continue to be, compatible with 
and complimentary to the park. Thank you very much.
    [The prepared statement of Mr. Berner may be found at end 
of hearing.]
    Mr. Hansen. Thank you.
    Ms. Doughty.

           STATEMENT OF SHARON DOUGHTY, DAIRY RANCHER

    Ms. Doughty. Good afternoon. My name is Sharon Mendoza 
Doughty. I am a lifetime registered Republican and a third 
generation dairyman, who was raised on a Historic B Ranch, 
which is now a part of the Point Reyes National Seashore. My 
family owned four ranches, totaling 5,000 acres, which became 
part of the Point Reyes National Seashore when it was 
authorized in 1962. My father and brother still operate a dairy 
on this land, under the reservation of use and occupancy with 
the National Park Service. After college I married a local 
dairyman, and in 1973 moved to a 773-acre dairy on the East 
Side of Tomales Bay, across from the Point Reyes National 
Seashore. This land is within the proposed area to be included 
in the Point Reyes National Seashore Farmland Protection Act. 
Since being widowed in 1984, I have continued to operate the 
dairy. We milk 300 cows twice daily, produce 2,500 gallons of 
milk. That along with 50 other dairies in Marin County provide 
25 percent of the milk for the San Francisco metropolitan bay 
area.
    My family and I are committed to agriculture. It is hard 
work, but it is what we know and love. Although it certainly 
was not our purpose, for the past 30 years agriculture has also 
preserved the east shore of Tomales Bay from development, that 
would otherwise destroy the extraordinary pristine quality of 
the bay, and the integrity and character of the Point Reyes 
National Seashore.
    As an active participant in the agricultural community, I 
am a 20 plus year member of the Marin County Farm Bureau, as 
well as Western United Dairymen, as well as the local Chamber 
of Commerce. In 1994 Governor Pete Wilson appointed me to the 
California Coastal Commission, where I served for 2 years. In 
1986 the Marin County Board of Supervisors appointed me to the 
15-member board of the Marin County Agricultural Land Trust, 
where I served for 9 years. I was chairman of that board for 2 
years, as well as chairman of the Agricultural Committee for 
several years. MALT's nationally recognized program is highly 
respected by farmer and non-farmer alike. It has successfully 
purchased easements on 25,504 acres of the 150,000 acres 
critical to Marin's ag industry.
    In the past to fund MALT easement program we have used 
money from a local foundation from the California Coastal 
Conservancy, as well as $15 million from State Proposition 70. 
There is still a long list of property owners who are 
interested in selling their easements on their land. We have 
twice tried within the county, and participated in another 
state proposition to obtain more funds, but have failed 
narrowing the two-thirds vote required. Because of the 
popularity of the Point Reyes National Seashore with the people 
throughout the United States the concept was developed that 
this open space along Tomales Bay deserves national support.
    I was not especially enthusiastic about this idea in the 
beginning. We certainly do not need more land and public 
ownership in Marin County, and I had many questions concerning 
accessibility, funding, and administration. In the past 3 years 
Lynn Woolsey has closely listened to all the property owners 
and sincerely tried to address their concerns, while protecting 
the investment for the people of the entire United States. In 
its form today I am now in full support of H.R. 1995. No new 
authority to regulate private land is granted in this 
legislation. If and when the Federal Government purchases the 
conservation easement, the conservation easement protects the 
landowner. The conservation easements acquired as a result of 
this Act will expressly permit hunting, predator control, use 
of lawful pesticides, just as MALT easements do. MALT is 
specified in the bill to manage and monitor these easements.
    My 773-acre property is very desirable for development. We 
are reminded of how desirable this property is every weekend by 
the guests of our bed and breakfast. However, I prefer to have 
the option to sell a conservation easement on this productive 
land, for me and my heirs to continue our stewardship of this 
land and agriculture. We have planted 5 acres of vineyards in 
an effort to diversify for viability. The money we could 
receive from this act would help us to buy more land for 
vineyards to build a winery, or creamery for a cheese operation 
without incurring heavy debt. We have four adult children who 
are very interested in agricultural operators. Upon my death, 
these funds could be used to help supplement my life insurance 
and pay my heirs' inheritance taxes, so my children would not 
be forced to sell the land.
    Because of the positive experience that my family has had 
with the tenants of the National Park Service, I would 
willingly enter into an agreement to sell my conservation 
easements to the National Park Service. For over 25 years the 
tenants of the National Park Service within the Point Reyes 
National Seashore have enjoyed a positive relationship. These 
tenants have together signed a petition, which I'm submitting 
as part of my testimony today to substantiate that 
relationship.
    It reads, ``We the undersigned ranchers and residents of 
the Point Reyes National Seashore wish to dispel certain 
misinformation about our relationship with the seashore. In 
particular, we would like it be publicly known that our 
relationship with the National Park Service is generally 
harmonious.'' And it is signed by the current tenants of the 
seashore.
    I want to thank you very much for the opportunity to 
testify here today in support of H.R. 1995.
    [The prepared statement of Ms. Doughty may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much.
    Questions for the panel?
    Mr. Faleomavaega.
    Mr. Faleomavaega. I would defer to the gentlelady from 
California.
    Ms. Woolsey. Thank you very much.
    Thank you very much, that was excellent testimony. Thank 
you for being so patient and waiting so long.
    First, with Bob Berner. Can you tell me what the confusion 
is among those who are in opposition to this bill, regarding 
the Williamson Act? They seem to think that the Williamson Act 
will do the same thing as the conservation easements. I think 
they're missing a point.
    Could you put that in words for us?
    Mr. Berner. Well, I can't speak for other people, but the 
Williamson Act is a short-term provision, an agreement between 
the landowner and the county, whereby the landowner is taxed 
based upon agricultural use rather than market value, in 
exchange for commitment to maintain the property and 
agriculture for a 9- to 10-year period.
    Ms. Woolsey. But it does not add any new income to the 
landowner.
    Mr. Berner. That's correct. It does not address the problem 
I described of high land values and the difficulties of farming 
families when they have to treat the land as a financial asset, 
and not just as a natural resource. Zoning and the Williamson 
Act, public policy in general simply is not a tool, which is 
useful in a region like ours to address this economic problem.
    Ms. Woolsey. And under H.R. 1995 wouldn't the land with 
agricultural conservation easements be taxed at ag value, not 
at development value? So they would still have the benefit----
    Mr. Berner. When a landowner sells the conservation 
easement, if that property is not already in the Williamson Act 
the landowner would, I think, invariably enter into the 
Williamson Act, a contract for the county, so it would be taxed 
based upon its agricultural use.
    Ms. Woolsey. Thank you.
    Sharon, you've come from a large ranching family, and I'd 
like, if you would, to go a little bit beyond your own 
concerns.
    Do the other members of your family have concerns about 
this bill, and have we through our changes answered most or all 
of those concerns?
    Ms. Doughty. Yes. Besides my piece of property, my family 
also owns more property within this zone. And again, we are 
conservative farmers. There were definitely--my Republican 
father was very concerned about what this would mean to that 
property and to our family, and he has worked very closely--all 
of us have worked very closely in expressing our concerns, and 
he has--in the last version of the bill was very delighted with 
the changes that were made; felt that we could definitely live 
viably within what was being presented. And he said to me, that 
he was quite impressed with you, Lynn, because you had listened 
to us, and your tenaciousness in meeting with all of us, and 
finding out what we all needed and felt--you've done a 
wonderful job of representing us.
    Ms. Woolsey. I guess I was the straight man for that one, 
Mr. Chairman. I wasn't asking for a compliment. I really wanted 
to make sure that I have answered a good number of the concerns 
of your family as well as the others----
    Ms. Doughty. Well, we certainly feel that you have been 
very tenacious----
    Ms. Woolsey. Well, thank you.
    Ms. Doughty. [continuing] in making sure that our concerns 
were met, and that farming would in fact survive. That was the 
point.
    Ms. Woolsey. Thank you.
    Supervisor Kinsey, let's talk about the 2.5 million 
visitors that visit the Point Reyes National Seashore every 
year. It's one of the most visited national parks in the 
nation, and that keeps getting lost I think in what we're 
talking about here.
    Those visitors travel through Marin County. What does that 
bring to your county?
    Mr. Kinsey. Well, I think, Congresswoman, really it brings 
a tremendous amount to our county, not only the cultural 
exchange that obviously happens when you have visitors from 
around the world, but certainly a tremendous boost to our 
economy. And in fact, there certainly are 2.5 million visitors 
who come to the National Seashore each year. They are just a 
part of the over 6.5 million visitors who come to all of Marin 
County on an annual basis to enjoy, not just the seashore, but 
the Golden Gate national recreational areas as well.
    Within the seashore itself I think Superintendent Neubacher 
mentioned earlier today that over $100 million a year is 
brought to the local economy, and that contribution has a 
tremendous benefit. It serves not only to increase the sales 
taxes and the overnight occupancy taxes that help to fund a 
number of our county services, including the public safety 
services that many rural communities cannot afford; but it 
provides the opportunity for many of our residents to work 
locally, which has enormous benefits to strengthen the family 
values, and to reduce the environmental impacts that long 
distance commuting provide to so many urban areas.
    So I would say that there is a significant environmental as 
well as cultural and economic benefit to having the park, and 
we extend ourselves generously I hope to those visitors because 
we want to provide a real sense of hospitality to people that 
come to Marin County.
    Ms. Woolsey. Thank you, I've used my time.
    Mr. Hansen. Gentleman from California.
    Mr. Pombo. Thank you, Mr. Chairman.
    Mr. Kinsey as one of those people who has boosted the 
economy in Marin County on a number of occasions on my visits 
to Point Reyes. I can understand why the people are interested 
in protecting that area, and it is a beautiful area. And 
there's no question about that.
    But what do you think this legislation--what power does 
this legislation give you, or what authority does it take to 
protect this area that you don't believe you currently have as 
the lead authority in land use planning in Marin County?
    Mr. Kinsey. Mr. Pombo, I believe that this legislation is 
primarily developing an economic partnership between the 
Federal Government and the local community to fulfill our land 
use expectations and aspirations. It's a voluntary bill, and 
for those landowners who don't choose to exercise the options 
available through this legislation, we have--if not a welcome 
door, certainly an open door in Marin County that would allow 
individuals to apply.
    As I mentioned in my testimony, we currently have a 
proposal on a 1,200-acre ranch for a subdivision of that ranch, 
the first of its kind within the coastal ag zoning. I would say 
that this is not about fulfilling our land use expectations in 
ways that we cannot as Marin County; this is about 
strengthening the partnership between the Federal Government 
and the long-term efforts of Marin County to sustain our 
agricultural heritage.
    Mr. Pombo. So, in your mind it gives you no greater land 
use authority than what you currently have, but it gets the 
money; it brings money to the table.
    Mr. Kinsey. It does not in any way affect the land use 
authority that the county currently has; that's correct.
    Mr. Pombo. Have you supported in the past the development? 
I think you said that your county was on 60 acres development, 
was the minimum. Have you supported those developments in the 
past?
    Mr. Kinsey. As I mentioned, Mr. Pombo, this is the first 
application within the coastal ag zoning for a subdivision of a 
ranch. What I have done is to make it clear to our staff that 
we need to treat this application with all fairness, and as 
such, we are determining that that application is complete as 
of this week, and we will begin the environmental review 
process and the public hearings, and consideration of the 
project on its merits, as it applies to our current zoning.
    Our zoning----
    Mr. Pombo. Is this the first time that there has been an 
application to subdivide into 60-acre blocks within this area?
    Mr. Kinsey. Within the coastal ag zoning this is--the areas 
within the Farmland Protection Act boundaries; this is the 
first subdivision that has been proposed.
    What I would say is that, the zoning that we have is very 
strict. It's very clear that our intention is to support 
agriculture, and that agriculture is the primary intention that 
we choose to accomplish. So for a subdivision to be deemed 
appropriate it needs to show that it's a secondary use to the 
primary use of agriculture. So there's no question--and I don't 
want to mislead anyone here to think that we have lax zoning 
that would allow for agriculture to slip away from us. But this 
legislation, should it be successful, will strengthen our hand, 
and more importantly, will provide individuals who choose to 
participate with the opportunity to stay on their lands, as 
opposed to feel compelled for personal reasons, financial 
hardship, to either sell the lands or attempt to subdivide the 
land in order to continue their lifestyle.
    Mr. Pombo. I think you've established that the greatest 
need in this area is dollars, in purchasing the conservation 
easement on those lands; that it's not a lack of land use 
ability that the county has, but it's a lack of dollars, and 
that that is the primary motivation with legislation like this.
    Is that correct or is that incorrect? Because if there's no 
land use authority included in this bill, if there's no 
restrictions that are included in this bill, if there's no way 
that we are in any way taking away any of your land use 
authority, or any of the property rights of the people 
involved--the property owners involved, then the only thing 
left in that scenario is the dollars.
    Mr. Kinsey. I think that, while I would agree that the land 
use authority is maintained with Marin County, the value of 
this bill goes far beyond the economic benefit alone.
    Mr. Pombo. Mr. Berner, if you want to respond to that. I'm 
very curious because I'm not--I'm not totally opposed to this 
idea because we have a program very similar to it in my own 
county. But the argument that is continually made is that, it's 
no new land use authority, and there's nothing there. And if 
that's the case, why do you need a Federal bill?
    If it's just the dollars, then let's just say, OK, it's 
just the dollars, let's work on that. But if it's not that, 
tell me what it is.
    Mr. Berner. Well, I think the bill as it is written is very 
clear about that. All it does is authorize Federal funds to be 
used to purchase conservation easements in order to preserve 
the land for agriculture. As I tried to indicate my testimony--
--
    Mr. Pombo. It's several pages, and I've reviewed the bill, 
and it's more than just an authorization. I've done 
authorization bills before, and you don't need several pages to 
just do an authorization bill.
    Mr. Berner. The problem in Marin County--and this is a 
problem that's shared in other agricultural communities 
adjacent to urban areas--is that land prices have risen far 
beyond any values based upon agricultural land. And while that 
in some senses is a windfall to the landowner, it also presents 
them with a host of problems. It makes it difficult to pass 
land from one generation to the next because of high estate 
taxes. It makes it difficult for a young farmer or rancher to 
buy land because it has to be paid for at market value by----
    Mr. Pombo. Coming from a seventh generation farm family----
    Mr. Berner. OK. You know all this.
    Mr. Pombo. [continuing] I'm very familiar with that.
    Mr. Berner. So, the solution that Marin county has tried to 
apply to this problem for the last 17 years, is to support a 
program which offers landowners an option. Instead of having to 
sell the land, or consider dividing it, or developing it, they 
instead can sell a conservation easement. And in that way 
realize some of the capital value of the land without having to 
change what they're doing. We have spent some $17 million in 
the county over the last 15 years doing that. We will continue 
doing that, but the magnitude of the need is greater than the 
local funding is going to be able to meet. And because Point 
Reyes National Seashore is so importantly related to at least 
some of these agricultural lands, we are urging Congress to 
consider the idea of sharing with us the cost of offering this 
conservation option to agricultural landowners.
    Mr. Pombo. Let me ask you a question--Do you have any 
questions----
    Mr. Gilchrest. Um----
    Mr. Pombo. Very quickly I'll ask one more question, then 
I'll yield to him.
    Mr. Hansen. Well, I thought he could yield to you if he 
didn't have any questions.
    Mr. Gilchrest. I have one.
    Mr. Hansen. Well, why don't you take the floor----
    Mr. Gilchrest. I'll take my time and----
    Mr. Hansen. [continuing] yield to Mr. Pombo, and then come 
back to your question.
    Mr. Gilchrest. [continuing] yield--I'll yield to the 
gentleman from California, with a quick question.
    Mr. Hansen. That way, we'll use the time wisely.
    Mr. Pombo. Thanks, Wayne.
    Just one final question. If we came up with legislation 
that all it was was an authorization for a grant that would go 
into an organization--not necessarily yours, but an 
organization like yours--to purchase conservation easement for 
the protection of agriculture in this area, and gave no other 
authority whatsoever--that's all it did--would that accomplish 
what you want?
    Mr. Berner. Yes, sir. And I think that's all we think this 
bill does.
    Mr. Pombo. No, there are a lot of concerns that this bill 
could go----
    Mr. Berner. I understand, but that is----
    Mr. Pombo. [continunig] beyond that. That was the question. 
Thank the gentleman for yielding.
    Mr. Hansen. Gentleman from Maryland.
    Mr. Gilchrest. I guess to some extent that was my question, 
and I'm from Maryland, and we have conservation easement 
program where we simply buy the development rights from a 
farmer, and then that farm stays in a permanent easement from 
now until the end of time. And it's an excellent program, 
except there's never quite enough money to do that. And there's 
more farmers that want to do it than there is a money available 
for that, and so we mixed the little Federal fund about year--I 
guess it's about a year ago. It's $35 million nationwide to be 
distributed to those states that have those kinds of programs.
    And I guess I'd like maybe just a quick answer from 
especially the dairy rancher. Ma'am. I'm not sure where you are 
on this panel. But I guess if we could--whether it's Lynn's 
bill or somebody else's bill, the intent here is to help state, 
Federal, local govern-

ment, private landowners to preserve agricultural land in the 
United States. It's my understanding we lose about a million 
acres a year. In my small state of Maryland we lose 25,000 
acres a year, and that's a lot for us.
    So we're attempting to give money in cooperation with the 
state programs, to preserve agriculture, not to create natural 
parks or BLM land--and there's nothing wrong with those 
things--but to preserve agriculture.
    Now, is there anybody on the panel that has some sense that 
this bill would preserve agriculture for a short period of 
time, and the likelihood that it would turn into a national 
park later because of this legislation?
    Ms. Doughty. No.
    Mr. Berner. No, sir.
    Mr. Kinsey. No.
    Mr. Gilchrest. I guess we should go vote, Mr. Chairman.
    Mr. Hansen. OK. Thank you very much. Just let me ask one 
other quicky here.
    You've all talked about conservation easements. Do any of 
you envision or support park service acquisition of private 
property? Keep in mind that takes it off the tax rolls. Do any 
of you support that?
    Mr. Kinsey. Well, I consider this bill to be primarily an 
easement acquisition program. I think that with willing 
landowner--a willing seller and a willing buyer on the part of 
the Federal Government, that on a merit basis you could 
consider certain plans. But I would strongly discourage that 
because of my interest in maintaining both the tax rolls and 
the active agriculture in our county.
    Mr. Hansen. Well, thank you very much. We appreciate the 
panel's comments.
    We'll turn to our last panel; Martin and Sally Pozzi, Mary 
Coletti, Donna Furlong, and Judy Borello, please come forward, 
please.
    Now, if you folks--I could ask you to wait just a minute, 
I'd really appreciate. We're going to have to go vote. And as 
soon as Lynn Woolsey gets back, the gentleman from the American 
Samoa will bang the gavel, and we're start again.
    [Recess.]
    Mr. Faleomavaega. The Committee will reconvene again. We'd 
like to call on our next panel, our final panel here.
    Mr. Martin and Sally Pozzi; Ms. Mary Coletti; Ms. Donna 
Furlong; and Ms. Judy Borello. We would like to welcome you to 
the Committee, and would like to hear your testimony right now.
    Mr. and Mrs. Pozzi.

         STATEMENT OF MARTIN AND SALLY POZZI, RANCHERS

    Mr. Pozzi. Thank you. My name is Martin Pozzi. I'm a fifth 
generation rancher in the Sonoma Marin area. I have come to 
testify for this Committee, representing Cattlemen's 
Association and as a landowner. Ms. Woolsey, my Congresswoman, 
has introduced legislation which will make my ranch part of the 
Point Reyes National Seashore. When I first learned of this 
legislation she had intro-

duced it in the 103d Congress, without even telling the 
landowners, and was proposing to introduce it in the 104th.
    As president of the Marin County Farm Bureau, by direction 
of board, I indicated that the legislation was unacceptable. 
The major concerns were, the park boundary, private property 
rights, and the lack of funding. After our meeting, Lynn sent a 
letter to all the landowners, stating that we had met, and that 
our concerns had been taken care of. She has made changes, but 
the main concerns still remain.
    As Ms. Coletti will testify, we have letters from 
overwhelming from overwhelming majority of landowners, 
indicating opposition to their land being included it the Point 
Reyes National Seashore.
    My family sold an agriculture conservation easement to the 
local Marin Agricultural Land Trust organization, that this 
legislation was modeled after. My eight siblings and father--
all co-owners of this ranch--committed to limiting the uses of 
our ranch to agriculture.
    The proceeds from MALT were used to purchase a neighboring 
ranch to expand our agricultural holdings, making room for my 
brother and myself to have agricultural operations. We support 
the use of voluntary conservation easements as a tool for the 
preservation of ag lands. Our ranch will never be developed. 
Now we will be penalized by having it become park land, which 
will jeopardize the one use we were trying to protect it for. 
This is instant creation of park without compensation.
    The creation of the Point Reyes National Seashore and 
acquisition of land from the owners has happened in my 
lifetime. I have been aware of what has happened to most of the 
27 original dairies and numerous ranching operations which are 
all now park land. Although the original legislation was 
supposed to protect landowners of more than 500 acres in active 
agriculture, not one is still privately owned.
    Correspondence from the author, her staff, and her experts 
claim that the program is completely voluntary. The legislation 
states:

    Section 3, ``Addition of farmland protection areas to the 
Point Reyes National Seashore. a) Addition Section 2 of the Act 
entitled, an act to establish the Point Reyes National Seashore 
in the State of California, and for other purposes, is amended 
by adding at the end the following:
    The Point Reyes National Seashore shall also include the 
farmland protection area.'' This is not voluntary.
    The agriculture experts have openly stated that this will 
not preserve agriculture, and the largest agricultural 
organizations in the world are very distressed with a thinly 
veiled attempt to use agriculture for park expansion.
    As Bob Vice, president of California Farm Bureau Federation 
wrote to her, ``You do not preserve farm and ranch land by 
making it part of the park system.'' Our agriculture operations 
are more threatened by the expansion of park than by 
development.
    I believe the public, your constituents, want to preserve 
agriculture land, and are reluctant to pay for expansion of 
park land. The opportunity to do what Ms. Woolsey describes as 
voluntary use of conservation easements to protect this 
agriculture land with willing landowners, can and should be 
accomplished. Increase fund-

ing in the Department of Agriculture's Conservation Easement 
Program so the use of voluntary easements can be accomplished. 
This is the department of our government with expertise in 
agriculture, and should be responsible for the easements, not 
the Department of Interior, which specializes in parks.
    I have worked my whole life on my family's 1,200-acre 
ranch. We had a dairy until the late 1970's, and since have 
raise sheep and beef cattle. I supported my youngest siblings 
with my ranch operation, enabling them to attend college. All 
nine of us graduated. My wife and I have a 2-year old daughter, 
who spends time with us on the ranch, and loves it as much as 
we do. We have a 4-month old son, and we almost named him Park 
Pozzi, because this issue has taken up so much of our lives. My 
children are the sixth generation in my family to be in 
agriculture. I want to ensure that my children will be able to 
continue my agriculture heritage.
    Ever since I was in third grade I knew I wanted to be a 
rancher. I worked hard toward that end goal, getting my college 
degree in animal science with a minor in business, and being 
active in agricultural organizations. Please do not include 
this land in a national park. Thank you for allowing me to be 
here.
    [The prepared statement of Mr. Pozzi may be found at end of 
hearing.]
    Mr. Pombo. [presiding] Thank you.
    Ms. Coletti. My turn?
    Mr. Pombo. Yes.

               STATEMENT OF MARY COLETTI, RANCHER

    Ms. Coletti. My name is Mary Coletti. My family has been 
ranching our land for five generations. This same land is being 
left in trust to our children, who plan to continue our 
ranching operation.
    I have been to numerous meetings concerning this 38,000 
acre park expansion bill. I have witnessed overwhelming 
landowner opposition, and, very little landowner support (as 
the map illustrates). In addition, opposition to this park 
expansion bill has been expressed by the farm groups and the 
taxpayers organizations.<SUP>1</SUP>
------------
    Opposition has been expressed by farm groups. American Farm 
Bureau Federation, California Farm Bureau Federation, 
California Cattlemen's Association, California Wool Growers 
Association (refer to letter dated 11/04/97), North Bay Wool 
Growers, Sonoma County Farm Bureau, Fresno County Farm Bureau, 
Kings County Farm Bureau. (refer to submitted letter)

    Ms. Woolsey, you wrote December 5th; ``As I made clear on 
our November 26th meeting, I will not proceed in Washington 
without the support of the landowners.'' And on the 22nd of 
December; ``Let me assure you that Chairman Young gave me his 
word, and I have given the landowners my word that this bill 
will only move forward with local support.'' (Letters subitted 
for the record)
    Somehow our concerns have not been heard so I helped form 
``Citizens for Protecting Farmland.'' Our purpose is to educate 
the public and our legislators as to the facts of this bill, 
and to reiterate our concerns and opposition to this bill. A 
packet was prepared, and I would like to enter this into the 
record now.
    We are a group of landowners within the proposed park 
boundary, representing over 22,000 acres opposed to the bill. 
5,700 addi-

tional acres have serious concerns, but are leery of speaking 
up; Plus we've just received two other letters in opposition to 
the bill.<SUP>2</SUP>
------------
    Since the publication of the packet, we recieved additional 
letters. 23,679.18 acres are opposed and 2,540.26 acres have 
major concerns for a total of 26,219.44. A letter from Margaret 
Nobmann, Luke and Josh Stevens are included. The charts have 
been updated and are included. Pages 9, 10, 10.1, 11, are 
included. Mr. Williamsen, 39, is deceased, his wife and 
children continue to be opposed to the bill.

    Of the 38,000 acres, over 27,000 acres are protected from 
development from the Williamson Act. Over 11,500 acres are 
protected by the Marin County Agricultural Land Trust, MALT, 
and the Sonoma County Preservation Trust, SALT. More is 
protected by government ownership. (as maps illustrate)
    Of the 38,000 acres, all development rights are protected 
by stringent local laws and zonings, which have been in effect 
for 25 years; 120 acres per dwelling in Sonoma; and 60 acres 
per dwelling in Marin. Marin County may be the only county to 
require mandatory conservation easements in order to build a 
dwelling. If protected by MALT, SALT, and the Williamson Act, 
the development rights are even more restrictive. (see map)
    Because of all of the above, very few building permits have 
been issued over the past 10 to 15 years. further testimony 
that there is no push for development, nor a need for this 
bill. These are family farms that have been in operation since 
the 1800's.
    H.R. 1135 and H.R. 1995 is not the first time that farmland 
has been included within the Point Reyes National Seashore park 
boundary. Farmers fought to save their land from becoming park 
land in the 1960's and 1970's, and now, none of that land is 
privately owned.<SUP>3</SUP>
------------
    Merv McDonald submitted testimony pointing out that some 
ranchers were forced out of the boundary and the land became 
part of the Pt. Reyes National Seashore. (Refer to the attached 
letter.)

    Congresswoman Woolsey, if you're concerned about preserving 
farmland, as your title for your legislation implies, I would 
strongly encourage you, with Congress' help, to increase 
funding to the USDA Conservation Easement program and include 
our area as one to receive the funds to purchase easements in 
Sonoma and Marin Counties. This would allow funding for anyone 
that would like to sell their easements to their land without 
the expansion of the Point Reyes National Seashore park, and 
creating a ``public/private'' partnership or a ``local/
Federal'' partnership. This would not place an involuntary park 
boundary over our land. We are the best stewards of our land. 
Keeping the agricultural easements under the Department of 
Agriculture, not the Department of Interior as part of a park, 
will help the farmers the most in the long-run as history has 
shown.
    The large map illustrates the landowner opposition to this 
park expansion.<SUP>4</SUP> All the maps illustrate the lack of 
need for such a bill to prevent development. Please help my 
family, and the families of the other farmers who want to 
continue to ranch without being included within the Point Reyes 
National Seashore park boundary. Having a aprk boundary over 
our land is not voluntary and is a waste of the taxpayers' 
money. Thank you for hearing me.
------------
    Opposition has been expressed to Ms. Woolsey. The chart on 
page 10 lists landowners who submitted letters (pages 21-70) or 
signed petitions (pages 71-81). To our knowledge these 
landowners have not changed their position and are still 
opposed to this legislation.

    [The prepared statement of Ms. Coletti may be found at end 
of hearing.]
    [The information referred to may be found at end of 
hearing.]
    Mr. Pombo. Thank you very much.
    Ms. Furlong.

              STATEMENT OF DONNA FURLONG, RANCHER

    Ms. Furlong. Good afternoon, gentlemen. My name is Donna 
Furlong, and I've been ranching for most of my adult life. 
After my husband passed away 14 years ago, I continued the 
family business of raising beef, cattle, and sheep because I 
wanted to pass the family tradition on to my four sons and my 
grandchildren.
    I am here today as a landowner who will be affected, and 
also as a representative of the California Wool Growers 
Association. You all received a letter from the California Wool 
Growers. I would like to read an excerpt of that letter.
    ``The California Wool Growers Association opposes H.R. 1135 
and H.R. 1995, which expands the Point Reyes National Seashore. 
Both of the respective bills are misleading in title and 
summary. While the author claims to be giving the Secretary of 
Agriculture the authority and appropriations for farmland 
conservation easements, it is clear that this is nothing more 
than a park expansion bill. And while the author insists that 
the bill is intended to preserve farmland, it does nothing more 
than create public access, where there's now private farmland, 
at the expense of taxpayers, local farmers, and ranchers.''
    Most of the people I know want to preserve this farmland 
for future generations. They do not disagree with conservation 
easement, but do not want to be included within a park 
boundary. This has been touted as buffer zone for the park. The 
bay is already a natural buffer zone. Park land means public 
access, and public access means lots of headaches for a 
rancher.
    This bill in the beginning offered assurances that no 
public trails could be put through the properties involved. 
This was taken out. This is a grave concern of mine. The 
general public will not honor a fence, and once they enter your 
property, even though they have no right whatsoever to be 
there, they want you to be responsible for their actions. What 
if my bull doesn't like their looks?
    My main concern is funding. This bill is on a matching-fund 
basis. Marin County does not have sales tax to fund open space 
and conservation easement. Marin County taxpayers voted down 
Measure A last November, which would have provided the Marin 
Agricultural Land Trust with money to fund conservation 
easements. The voters of California turned down Cal Paw 1994 
which would have provided the Marin Agricultural Land Trust 
with money. The voters have said they do not want to fund more 
park land, so where will Marin County get the matching fund? 
The only matching fund Marin County has is around $15 million. 
Fifteen million dollars is not enough to purchase conservation 
easements within this boundary.
    Before such a bill is ever considered, there should be 
enough funds available for just compensation for all properties 
within the area. You should not put a boundary around land, and 
then decide what just compensation is, and where the money will 
come from. A licensed appraiser has told me that being in a 
park boundary cannot help but lower your property value.
    Most people in agriculture want to continue, but it has to 
be viable. If you are truly interested in saving ag, help us 
with the bottom line, but don't put a boundary around it. If I 
put an easement on my property, and you allow predators to run 
amok as they do in the park, and I can no longer raise 
livestock, what do I do? Sit and look at my beautiful view of 
the ocean, or sell out at a very reduced price? I feel that 
this bill takes away my property rights with out just 
compensation. My property rights have already been infringed on 
by the Coastal Commission, the Planning Department, and the 
Gulf of Farallones National Marin Sanctuary. Don't add another 
layer of regulation. I would urge you please not to consider 
this bill. Thank you.
    [The prepared statement of Ms. Furlong may be found at end 
of hearing.]
    Mr. Faleomavaega. Thank you very much. Ms. Borello.

               STATEMENT OF JUDY BORELLO, RANCHER

    Ms. Borello. My name is Judy Borello, and I own a 864-acre 
ranch within the proposed Farmland Protection Act. My reasons 
for opposing this bill are as follows:
    When Ms. Woolsey, by the way, got up here today and said 
that the people--the ranchers for her bill within the zone are 
more in the majority to support the bill--it's totally wrong 
and bogus. Two-thirds of the ranchers within the proposed 
boundary do not want the supposed protection that her bill 
recommends. And the proof--you can always talk to Martin Pozzi, 
who's past president of the Farm Bureau, because there were 
signed letters, signed signatures; two-thirds of the majority 
of the ranchers within the zone are opposed to the bill.
    In 1972 we could build a house on every 2 acres, then we 
ranchers were rezoned one house every 60 acres; a devaluation 
of 30 times of our property value. Right after the great 
devaluation took place, 95 percent of the ranchers joined a 
state program called Williamson Act. For a substantial 
reduction in taxes the ranchers opted to not develop their 
ranches, leaving their land in open space for the next 10 
years. But the program automatically self renews itself every 
day for 10 years. So, every day you're being renewed for 10 
years, and so far I haven't known any rancher that's pulled out 
of Williamson Act, so there's a real layer of protection right 
there.
    On top of these two layers or protection, 40 percent of the 
38,000 acres within the proposed boundary has been purchased by 
the Marin Agricultural Land Trust, which is referred to as 
MALT. This means that, even though the development rights 
cannot be used under Williamson Act--in other words they're 
kind of in a neutered position--they are now permanently 
extinguished under the rights to purchase a MALT easement.
    To add to all of this already protection of the land on the 
east shore of Tomales Bay, which is the land in question on 
this bill, is a very scarce amount of water, due to the fact 
that our land is geologically referred to as Franciscan 
formation, which is known for its low bearing and inadequate 
for water bearing supplies. There are like scarce pockets of 
the water in different places, but it basically isn't an 
abundantly watered piece of land. Reference to USGS Water 
Supply Paper 1427, Geology and Groundwater in Sonoma and Marin 
Counties is where you can find this information.
    Summing all of this up and based on a logical conclusion, 
do we need to spend the hard-earned tax dollar of the American 
people to purchase what is already protected? There is 80,000 
acres of park land already purchased, and can't be fully 
maintained because of the lack of funding. So why purchase 
more? In fact, over 50 percent of our Marin County is off the 
private tax rolls, and these are in state, Federal, or county 
park or open spaced districts.
    My ranch is being lethally affected by this bill because, 
my late husband, Robert Borello, who met an untimely death due 
a car accident in October 1992, was the past president of the 
Farm Bureau, and one of the longest serving directors in past 
history. He was a staunch believer in retaining agricultural 
land values and property rights. He opted not to put Borello 
Ranch under Williamson Act, believing that if you take the 
government carrot, you get the government noose. He kept his 
development right intact by paying full taxes, developed a 
thriving rock quarry, septic ponds for the West Marin County 
community, and parts of Sonoma County. He developed large dams 
on the property, one of which is 40-acre foot dam, and spring 
fed, never losing half of its capacity. His hard work, 
foresight, and determination created these assets, and now with 
this Farmland Protection Act on a seemingly not-well-hidden 
park bill, I stand to lose a lot as well as my neighbors.
    The quarry has been idle since Robert's death. Three quarry 
outfits have wanted to lease it, but when faced with the 
pending park bill, have backed off, watching to see what 
happens. On November 17th the quarry will be reviewed by the 
Board on Mining, and there's a chance the quarry could be 
closed permanently because idle position is granted for only so 
long of a time.
    Due to this 5-year fracas over this park bill--let alone if 
it passed--I stand to lose a substantial amount of money while 
it also clouds the title to sell my ranch to the private 
sector. I believe that my fellow ranchers and myself deserve a 
lot better from this. I would like to see agriculture easements 
available to ranchers, but not at the expense of forcing the 
many into while a few gain a deal. It's very funny to me that 
the agriculturalists, the ranchers themselves, including the ag 
experts in this deal say, they don't want it, it's not 
protecting them, when in fact it weakens them. But the 
politically non-savvy, non-agriculturally knowledgeable people, 
will tell the rancher what's right for him, and force it upon 
him, while portraying to the public how they saved agriculture.
    I know that the Democrats and Republicans have come 
together over fiscal responsibility issues, and I hope that 
this Committee will see the wisdom of not wasting taxpayers' 
money on this faulty bill. Perhaps if this bill guaranteed the 
rancher the right to be fully compensated for his land as in 
the original park bill, it would have a chance; but not this 
forced boundary with limited compensation.
    Thank you for allowing me time to speak on this issue. P.S. 
Many politicians and environmentalists lust after our privately 
owned land. They refer to it as their sacred viewshed. Don't 
try to take it from us with this cheap shot Farm Land 
Protection Act bill; after all, I believe there is still a 
commandment that says Thou shall not steal. Thank you.
    [The prepared statement of Ms. Borello may be found at end 
of hearing.]
    Mr. Pombo. Thank you. Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, I'd like to defer to the 
gentlelady from California.
    Ms. Woolsey. Thank you very much.
    Mr. Chairman, I understand that after this vote, we're 
going to have six in a row, so let's try to do this, and then 
we can let everybody out of this room.
    First of all, I want you to know, all of you up here as 
witnesses, thank you for coming. I cannot wait until the day we 
sit down, realize the misinformation that's been kicked around, 
and realize the benefits of still being in agriculture and at 
the same time your neighbors have the benefit of volunteering 
into these easements if they want them. I look forward to that. 
I think it's going to happen. I wouldn't be doing this if I 
didn't think it could happen.
    But, you know, there's a lot of confusion. There's 
something that confuses me, Judy, about your testimony. I know 
after our sitting and talking you worry about the value of your 
quarry. In response to this concern, this bill includes 
language, language actually that Representative Pombo 
questioned. It's on page 5, line 13 of the bill.
    Ms. Borello. Lynn, can I say something here?
    Ms. Woolsey. No, no, let me finish, please.
    Ms. Borello. To answer you.
    Ms. Woolsey. Well, I will let you. But I want to make sure 
you know that this bill makes it possible for you and others to 
negotiate voluntarily for in-fee purchase of your land. And 
that was so that you could be fully compensated for that land.
    So my question to you, how could you be against this bill, 
when actually your major concern is answered in the bill?
    Ms. Borello. OK, I will answer you. First of all, when this 
bill first started, Gary Giacomini was our supervisor. He was 
going to get $70 or $80 million worth of seed money here to try 
to take care of everybody. I was at that time told by Gary, who 
was friends with my late husband, that my ranch would come out 
in fee, because it is the only real deal. It isn't in 
Williamson Act. It has development rights.
    Ms. Woolsey. Well, you could put it in.
    Ms. Borello. OK. It has a quarry. It's very diverse from 
the other ranches, all right?
    Ms. Woolsey. OK, I'm going----
    Ms. Borello. But let me finish----
    Ms. Woolsey. No, wait a minute. I need to take----
    Ms. Borello. So then I count on the facts----
    Ms. Woolsey. No, excuse me, Judy.
    Ms. Borello. [continuing] that I'm going to be bought out 
in fee, and all of a sudden at the April meeting with you----
    Mr. Pombo. The gentlewoman from California controls the 
time, and we're trying to keep this----
    Ms. Woolsey. Yes. Judy, let me respond.
    Mr. Pombo. [continuing] I'm trying to keep this as good as 
we can.
    Ms. Borello. Well, I need to answer her question.
    Ms. Woolsey. No, Judy, what you need to know----
    Ms. Borello. At that meeting you guys dumped me, but in the 
meantime the bill wasn't taking care of other people either.
    Mr. Pombo. Please, let's try to keep this as calm as we 
can. I will give you ample opportunity to respond. If there is 
not time in the hearing, I will give you the opportunity to 
respond in writing, and your entire testimony will be included 
in the record at this point.
    Ms. Woolsey.
    Ms. Woolsey. Thank you very much, Mr. Pombo.
    And Judy, it's not that I'm cutting you off. I've got a lot 
of questions. And my point is, we did answer your concern in 
the bill. So we'll go from there to more misinformation.
    The point keeps being made by those at the table that the 
landowners in the pastoral zone at the Point Reyes National 
Seashore ended up having their land purchased. They came to the 
Congress and asked if they could be bought out. That is why it 
happened. They came to the Congress and asked, because the 
original bill prohibited purchase of their land, and that 
request was honored. So please, we don't need that 
misinformation.
    There is also misinformation about whether or not the 
majority of the landowners support this bill. Believe me, I sat 
with them, one-on-one; the majority does. The Citizens for 
Protecting Farmlands report has people listed that have sent me 
letters just recently, supporting the bill. You have a deceased 
person on that list. You have people registered both as 
property owners, and they're counted twice. You're double-
counting people.
    So, all I can tell you, is that that's----
    Ms. Borello. Could you supply us with signatures----
    Ms. Woolsey. [continuing] misinformation.
    Ms. Borello. [continuing] of people that are for your 
bill----
    Mr. Pombo. Is that a question?
    Ms. Woolsey. No, my question is--now, I want to go on 
beyond that. I want to talk about the letter of misinformation 
that came from the Woolgrowers. Actually an example of the 
misinformation--my point is proved in what you said, Donna. You 
say that--you're quoting them, ``While the author claims to be 
giving the Secretary of Agriculture the authority . . .'' It 
shows how little they know about this bill. It's the Secretary 
of Interior that we're dealing with.
    People have not paid any attention to this bill. The 
information that came from the cattlemen, full paragraph, 
talking about letting people on the land for viewing, public 
access, no hunting. None of that--all of that is protected for 
you in the bill; absolutely.
    How are we ever going to get together when I keep hearing 
misinformation. You refuse to hear what's really in the bill. 
Once you do, and then I think we deal with it actually.
    Now, Martin and Sally, I have a question.
    I understand that you sold your conservation easements on 
your land.
    Mr. Pozzi. Correct.
    Ms. Woolsey. And that has worked well for your family, I 
believe.
    Mr. Pozzi. Correct.
    Ms. Woolsey. I think you need to know a story that I heard 
when I was going around talking to the neighbors and the 
farmers.
    Two different farmers that I talked to--landowners who have 
MALTED easements on their land, told me point blank--and now 
I'm telling you they told me this. They told me that they did 
not like my bill because if their neighbor needed to sell they 
did not want to have to compete with fair market value. They 
didn't want to compete with H.R. 1995; they wanted to buy their 
neighbor out cheap.
    Is that fair?
    Martin?
    Mr. Pozzi. I can't tell you about cheap because the 
appraisals----
    Ms. Woolsey. Well they want to go below the appraisal, they 
tell me.
    Mrs. Pozzi. We are in favor of the use of voluntary 
conservation easements for the preservation of agricultural 
lands. We are opposed to our land becoming part of a park. We 
have sold our development right, and we didn't ask that anyone 
else have their land be included in a national park or have any 
other limitation in order for our land to have the conservation 
easement. There are conservation easement programs available, 
and we request that you use those, instead of including all of 
our land in a park, and you expand on the funding in the 
program that's available, instead of causing this limitation on 
our land. We want to continue an active agricultural 
production--a productive agriculture.
    Ms. Woolsey. Well, I'm with you. We're definitely together 
on that.
    Mr. Pombo. I'm going to have to cut you off.
    Ms. Woolsey. And I've used up all my time.
    Mr. Chairman, thank you.
    Mr. Pombo. I'm going to have to cut you off. And I've got 
to apologize to this panel. We have a series of six or seven 
votes, which means we're going to be over there for about 2 
hours, and I'm not going to make you stay here for the 2 hours.
    I will tell you that there are questions that I have, that 
Mr. Faleomavaega had, and that Mr. Hansen, the chairman of the 
Subcommittee, had for this panel. Those will be submitted to 
you in writing.
    I will encourage each of you, if you have further 
statements that you would like to have included as part of the 
official record, to do that, and I will hold the record open on 
this hearing for 10 days, to give you an opportunity to have 
all of your information included in the official record of this 
hearing. But unfortunately because of the voting schedule, I'm 
going to have to adjourn the hearing. And again, I apologize to 
all of you for the long wait in the abbreviated hearing. But 
thank you very much for coming.
    Ms. Borello. Thank you for hearing us out.
    Mr. Pombo. The hearing is adjourned.
    [Whereupon, at 3:40 p.m., the Committee was adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
    [GRAPHIC] [TIFF OMITTED] T6626.001
    
    [GRAPHIC] [TIFF OMITTED] T6626.002
    
    [GRAPHIC] [TIFF OMITTED] T6626.003
    
    [GRAPHIC] [TIFF OMITTED] T6626.004
    
    [GRAPHIC] [TIFF OMITTED] T6626.005
    
    [GRAPHIC] [TIFF OMITTED] T6626.006
    
    [GRAPHIC] [TIFF OMITTED] T6626.007
    
    [GRAPHIC] [TIFF OMITTED] T6626.008
    
    [GRAPHIC] [TIFF OMITTED] T6626.009
    
    [GRAPHIC] [TIFF OMITTED] T6626.010
    
    [GRAPHIC] [TIFF OMITTED] T6626.011
    
    [GRAPHIC] [TIFF OMITTED] T6626.012
    
    [GRAPHIC] [TIFF OMITTED] T6626.013
    
    [GRAPHIC] [TIFF OMITTED] T6626.014
    
    [GRAPHIC] [TIFF OMITTED] T6626.015
    
    [GRAPHIC] [TIFF OMITTED] T6626.016
    
    [GRAPHIC] [TIFF OMITTED] T6626.017
    
    [GRAPHIC] [TIFF OMITTED] T6626.018
    
    [GRAPHIC] [TIFF OMITTED] T6626.019
    
    [GRAPHIC] [TIFF OMITTED] T6626.020
    
    [GRAPHIC] [TIFF OMITTED] T6626.021
    
    [GRAPHIC] [TIFF OMITTED] T6626.022
    
    [GRAPHIC] [TIFF OMITTED] T6626.023
    
    [GRAPHIC] [TIFF OMITTED] T6626.024
    
    [GRAPHIC] [TIFF OMITTED] T6626.025
    
    [GRAPHIC] [TIFF OMITTED] T6626.026
    
    [GRAPHIC] [TIFF OMITTED] T6626.027
    
    [GRAPHIC] [TIFF OMITTED] T6626.028
    
    [GRAPHIC] [TIFF OMITTED] T6626.029
    
    [GRAPHIC] [TIFF OMITTED] T6626.030
    
    [GRAPHIC] [TIFF OMITTED] T6626.031
    
    [GRAPHIC] [TIFF OMITTED] T6626.032
    
    [GRAPHIC] [TIFF OMITTED] T6626.033
    
    [GRAPHIC] [TIFF OMITTED] T6626.034
    
    [GRAPHIC] [TIFF OMITTED] T6626.035
    
    [GRAPHIC] [TIFF OMITTED] T6626.036
    
    [GRAPHIC] [TIFF OMITTED] T6626.037
    
    [GRAPHIC] [TIFF OMITTED] T6626.038
    
    [GRAPHIC] [TIFF OMITTED] T6626.039
    
    [GRAPHIC] [TIFF OMITTED] T6626.040
    
    [GRAPHIC] [TIFF OMITTED] T6626.041
    
    [GRAPHIC] [TIFF OMITTED] T6626.042
    
    [GRAPHIC] [TIFF OMITTED] T6626.043
    
    [GRAPHIC] [TIFF OMITTED] T6626.044
    
    [GRAPHIC] [TIFF OMITTED] T6626.045
    
    [GRAPHIC] [TIFF OMITTED] T6626.046
    
    [GRAPHIC] [TIFF OMITTED] T6626.047
    
    [GRAPHIC] [TIFF OMITTED] T6626.048
    
    [GRAPHIC] [TIFF OMITTED] T6626.049
    
    [GRAPHIC] [TIFF OMITTED] T6626.050
    
    [GRAPHIC] [TIFF OMITTED] T6626.051
    
    [GRAPHIC] [TIFF OMITTED] T6626.052
    
    [GRAPHIC] [TIFF OMITTED] T6626.053
    
    [GRAPHIC] [TIFF OMITTED] T6626.054
    
    [GRAPHIC] [TIFF OMITTED] T6626.055
    
    [GRAPHIC] [TIFF OMITTED] T6626.056
    
    [GRAPHIC] [TIFF OMITTED] T6626.057
    
    [GRAPHIC] [TIFF OMITTED] T6626.058
    
    [GRAPHIC] [TIFF OMITTED] T6626.059
    
    [GRAPHIC] [TIFF OMITTED] T6626.060
    
    [GRAPHIC] [TIFF OMITTED] T6626.061
    
    [GRAPHIC] [TIFF OMITTED] T6626.062
    
    [GRAPHIC] [TIFF OMITTED] T6626.063
    
    [GRAPHIC] [TIFF OMITTED] T6626.064
    
    [GRAPHIC] [TIFF OMITTED] T6626.065
    
    [GRAPHIC] [TIFF OMITTED] T6626.066
    
    [GRAPHIC] [TIFF OMITTED] T6626.067
    
    [GRAPHIC] [TIFF OMITTED] T6626.068
    
    [GRAPHIC] [TIFF OMITTED] T6626.069
    
    [GRAPHIC] [TIFF OMITTED] T6626.070
    
    [GRAPHIC] [TIFF OMITTED] T6626.071
    
    [GRAPHIC] [TIFF OMITTED] T6626.072
    
    [GRAPHIC] [TIFF OMITTED] T6626.073
    
    [GRAPHIC] [TIFF OMITTED] T6626.074
    
    [GRAPHIC] [TIFF OMITTED] T6626.075
    
    [GRAPHIC] [TIFF OMITTED] T6626.076
    
    [GRAPHIC] [TIFF OMITTED] T6626.077
    
    [GRAPHIC] [TIFF OMITTED] T6626.078
    
    [GRAPHIC] [TIFF OMITTED] T6626.079
    
    [GRAPHIC] [TIFF OMITTED] T6626.080
    
    [GRAPHIC] [TIFF OMITTED] T6626.081
    
    [GRAPHIC] [TIFF OMITTED] T6626.082
    
    [GRAPHIC] [TIFF OMITTED] T6626.083
    
    [GRAPHIC] [TIFF OMITTED] T6626.084
    
    [GRAPHIC] [TIFF OMITTED] T6626.085
    
    [GRAPHIC] [TIFF OMITTED] T6626.086
    
    [GRAPHIC] [TIFF OMITTED] T6626.087
    
    [GRAPHIC] [TIFF OMITTED] T6626.088
    
    [GRAPHIC] [TIFF OMITTED] T6626.089
    
    [GRAPHIC] [TIFF OMITTED] T6626.090
    
    [GRAPHIC] [TIFF OMITTED] T6626.091
    
    [GRAPHIC] [TIFF OMITTED] T6626.092
    
    [GRAPHIC] [TIFF OMITTED] T6626.093
    
    [GRAPHIC] [TIFF OMITTED] T6626.094
    
    [GRAPHIC] [TIFF OMITTED] T6626.095
    
    [GRAPHIC] [TIFF OMITTED] T6626.096
    
    [GRAPHIC] [TIFF OMITTED] T6626.097
    
    [GRAPHIC] [TIFF OMITTED] T6626.098
    
    [GRAPHIC] [TIFF OMITTED] T6626.099
    
    [GRAPHIC] [TIFF OMITTED] T6626.100
    
    [GRAPHIC] [TIFF OMITTED] T6626.101
    
    [GRAPHIC] [TIFF OMITTED] T6626.102
    
    [GRAPHIC] [TIFF OMITTED] T6626.103
    
    [GRAPHIC] [TIFF OMITTED] T6626.104
    
    [GRAPHIC] [TIFF OMITTED] T6626.105
    
    [GRAPHIC] [TIFF OMITTED] T6626.106
    
    [GRAPHIC] [TIFF OMITTED] T6626.107
    
    [GRAPHIC] [TIFF OMITTED] T6626.108
    
    [GRAPHIC] [TIFF OMITTED] T6626.109
    
    [GRAPHIC] [TIFF OMITTED] T6626.110
    
    [GRAPHIC] [TIFF OMITTED] T6626.111
    
    [GRAPHIC] [TIFF OMITTED] T6626.112
    
    [GRAPHIC] [TIFF OMITTED] T6626.113
    
    [GRAPHIC] [TIFF OMITTED] T6626.114
    
    [GRAPHIC] [TIFF OMITTED] T6626.115
    
    [GRAPHIC] [TIFF OMITTED] T6626.116
    
    [GRAPHIC] [TIFF OMITTED] T6626.117
    
    [GRAPHIC] [TIFF OMITTED] T6626.118
    
    [GRAPHIC] [TIFF OMITTED] T6626.119
    
    [GRAPHIC] [TIFF OMITTED] T6626.120
    
    [GRAPHIC] [TIFF OMITTED] T6626.121
    
    [GRAPHIC] [TIFF OMITTED] T6626.122
    
    [GRAPHIC] [TIFF OMITTED] T6626.123
    
    [GRAPHIC] [TIFF OMITTED] T6626.124
    
    [GRAPHIC] [TIFF OMITTED] T6626.125
    
    [GRAPHIC] [TIFF OMITTED] T6626.126
    
    [GRAPHIC] [TIFF OMITTED] T6626.127
    
    [GRAPHIC] [TIFF OMITTED] T6626.128
    
    [GRAPHIC] [TIFF OMITTED] T6626.129
    
    [GRAPHIC] [TIFF OMITTED] T6626.130
    
    [GRAPHIC] [TIFF OMITTED] T6626.131
    
    [GRAPHIC] [TIFF OMITTED] T6626.132
    
    [GRAPHIC] [TIFF OMITTED] T6626.133
    
    [GRAPHIC] [TIFF OMITTED] T6626.134
    
    [GRAPHIC] [TIFF OMITTED] T6626.135
    
    [GRAPHIC] [TIFF OMITTED] T6626.136
    
    [GRAPHIC] [TIFF OMITTED] T6626.137
    
    [GRAPHIC] [TIFF OMITTED] T6626.138
    
    [GRAPHIC] [TIFF OMITTED] T6626.139
    
    [GRAPHIC] [TIFF OMITTED] T6626.140
    
    [GRAPHIC] [TIFF OMITTED] T6626.141
    
    [GRAPHIC] [TIFF OMITTED] T6626.142
    
    [GRAPHIC] [TIFF OMITTED] T6626.143
    
    [GRAPHIC] [TIFF OMITTED] T6626.144
    
    [GRAPHIC] [TIFF OMITTED] T6626.145
    
    [GRAPHIC] [TIFF OMITTED] T6626.146
    
    [GRAPHIC] [TIFF OMITTED] T6626.147
    
    [GRAPHIC] [TIFF OMITTED] T6626.148
    
    [GRAPHIC] [TIFF OMITTED] T6626.149
    
    [GRAPHIC] [TIFF OMITTED] T6626.150
    
    [GRAPHIC] [TIFF OMITTED] T6626.151
    
    [GRAPHIC] [TIFF OMITTED] T6626.152
    
    [GRAPHIC] [TIFF OMITTED] T6626.153
    
    [GRAPHIC] [TIFF OMITTED] T6626.154
    
    [GRAPHIC] [TIFF OMITTED] T6626.155
    
    [GRAPHIC] [TIFF OMITTED] T6626.156
    
    [GRAPHIC] [TIFF OMITTED] T6626.157
    
    [GRAPHIC] [TIFF OMITTED] T6626.158
    
    [GRAPHIC] [TIFF OMITTED] T6626.159
    
    [GRAPHIC] [TIFF OMITTED] T6626.160
    
    [GRAPHIC] [TIFF OMITTED] T6626.161
    
    [GRAPHIC] [TIFF OMITTED] T6626.162
    
    [GRAPHIC] [TIFF OMITTED] T6626.163
    
    [GRAPHIC] [TIFF OMITTED] T6626.164
    
    [GRAPHIC] [TIFF OMITTED] T6626.165
    
    [GRAPHIC] [TIFF OMITTED] T6626.166
    
    [GRAPHIC] [TIFF OMITTED] T6626.167
    
    [GRAPHIC] [TIFF OMITTED] T6626.168
    
    [GRAPHIC] [TIFF OMITTED] T6626.169
    
    [GRAPHIC] [TIFF OMITTED] T6626.170
    
    [GRAPHIC] [TIFF OMITTED] T6626.171
    
    [GRAPHIC] [TIFF OMITTED] T6626.172
    
    [GRAPHIC] [TIFF OMITTED] T6626.173
    
    [GRAPHIC] [TIFF OMITTED] T6626.174
    
    [GRAPHIC] [TIFF OMITTED] T6626.175
    
    [GRAPHIC] [TIFF OMITTED] T6626.176
    
    [GRAPHIC] [TIFF OMITTED] T6626.177
    
    [GRAPHIC] [TIFF OMITTED] T6626.178
    
    [GRAPHIC] [TIFF OMITTED] T6626.179
    
    [GRAPHIC] [TIFF OMITTED] T6626.180
    
    [GRAPHIC] [TIFF OMITTED] T6626.181
    
    [GRAPHIC] [TIFF OMITTED] T6626.182
    
    [GRAPHIC] [TIFF OMITTED] T6626.183
    
    [GRAPHIC] [TIFF OMITTED] T6626.184
    
    [GRAPHIC] [TIFF OMITTED] T6626.185
    
    [GRAPHIC] [TIFF OMITTED] T6626.186
    
    [GRAPHIC] [TIFF OMITTED] T6626.187
    
    [GRAPHIC] [TIFF OMITTED] T6626.188
    
    [GRAPHIC] [TIFF OMITTED] T6626.189
    
    [GRAPHIC] [TIFF OMITTED] T6626.190
    
    [GRAPHIC] [TIFF OMITTED] T6626.191
    
    [GRAPHIC] [TIFF OMITTED] T6626.192
    
    [GRAPHIC] [TIFF OMITTED] T6626.193
    
    [GRAPHIC] [TIFF OMITTED] T6626.194
    
    [GRAPHIC] [TIFF OMITTED] T6626.195
    
    [GRAPHIC] [TIFF OMITTED] T6626.196
    
    [GRAPHIC] [TIFF OMITTED] T6626.197
    
    [GRAPHIC] [TIFF OMITTED] T6626.198
    
    [GRAPHIC] [TIFF OMITTED] T6626.199
    
    [GRAPHIC] [TIFF OMITTED] T6626.200
    
    [GRAPHIC] [TIFF OMITTED] T6626.201
    
    [GRAPHIC] [TIFF OMITTED] T6626.202
    
    [GRAPHIC] [TIFF OMITTED] T6626.203
    
    [GRAPHIC] [TIFF OMITTED] T6626.204
    
    [GRAPHIC] [TIFF OMITTED] T6626.205
    
    [GRAPHIC] [TIFF OMITTED] T6626.206
    
    [GRAPHIC] [TIFF OMITTED] T6626.207
    
    [GRAPHIC] [TIFF OMITTED] T6626.208
    
    [GRAPHIC] [TIFF OMITTED] T6626.209
    
    [GRAPHIC] [TIFF OMITTED] T6626.210
    
    [GRAPHIC] [TIFF OMITTED] T6626.211
    
    [GRAPHIC] [TIFF OMITTED] T6626.212
    
    [GRAPHIC] [TIFF OMITTED] T6626.213
    
    [GRAPHIC] [TIFF OMITTED] T6626.214
    
    [GRAPHIC] [TIFF OMITTED] T6626.215
    
    [GRAPHIC] [TIFF OMITTED] T6626.216
    
    [GRAPHIC] [TIFF OMITTED] T6626.217
    
    [GRAPHIC] [TIFF OMITTED] T6626.218
    
    [GRAPHIC] [TIFF OMITTED] T6626.219
    
    [GRAPHIC] [TIFF OMITTED] T6626.220
    
    [GRAPHIC] [TIFF OMITTED] T6626.221
    
    [GRAPHIC] [TIFF OMITTED] T6626.222
    
    [GRAPHIC] [TIFF OMITTED] T6626.223
    
    [GRAPHIC] [TIFF OMITTED] T6626.224
    
    [GRAPHIC] [TIFF OMITTED] T6626.225
    
    [GRAPHIC] [TIFF OMITTED] T6626.226
    
    [GRAPHIC] [TIFF OMITTED] T6626.227
    
    [GRAPHIC] [TIFF OMITTED] T6626.228
    
    [GRAPHIC] [TIFF OMITTED] T6626.229
    
    [GRAPHIC] [TIFF OMITTED] T6626.230
    
    [GRAPHIC] [TIFF OMITTED] T6626.231
    
    [GRAPHIC] [TIFF OMITTED] T6626.232
    
    [GRAPHIC] [TIFF OMITTED] T6626.233
    
    [GRAPHIC] [TIFF OMITTED] T6626.234
    
    [GRAPHIC] [TIFF OMITTED] T6626.235
    
    [GRAPHIC] [TIFF OMITTED] T6626.236
    
    [GRAPHIC] [TIFF OMITTED] T6626.237
    
    [GRAPHIC] [TIFF OMITTED] T6626.238
    
    [GRAPHIC] [TIFF OMITTED] T6626.239
    
    [GRAPHIC] [TIFF OMITTED] T6626.240
    
    [GRAPHIC] [TIFF OMITTED] T6626.241
    
    [GRAPHIC] [TIFF OMITTED] T6626.242
    
    [GRAPHIC] [TIFF OMITTED] T6626.243
    
    [GRAPHIC] [TIFF OMITTED] T6626.244
    
    [GRAPHIC] [TIFF OMITTED] T6626.245
    
    [GRAPHIC] [TIFF OMITTED] T6626.246
    
    [GRAPHIC] [TIFF OMITTED] T6626.247
    
    [GRAPHIC] [TIFF OMITTED] T6626.248
    
    [GRAPHIC] [TIFF OMITTED] T6626.249
    
    [GRAPHIC] [TIFF OMITTED] T6626.250
    
    [GRAPHIC] [TIFF OMITTED] T6626.251
    
    [GRAPHIC] [TIFF OMITTED] T6626.252
    
    [GRAPHIC] [TIFF OMITTED] T6626.253
    
    [GRAPHIC] [TIFF OMITTED] T6626.254
    
    [GRAPHIC] [TIFF OMITTED] T6626.255
    
    [GRAPHIC] [TIFF OMITTED] T6626.256
    
    [GRAPHIC] [TIFF OMITTED] T6626.257
    
    [GRAPHIC] [TIFF OMITTED] T6626.258
    
    [GRAPHIC] [TIFF OMITTED] T6626.259
    
    [GRAPHIC] [TIFF OMITTED] T6626.260
    
    [GRAPHIC] [TIFF OMITTED] T6626.261
    
    [GRAPHIC] [TIFF OMITTED] T6626.262
    
    [GRAPHIC] [TIFF OMITTED] T6626.263
    
    [GRAPHIC] [TIFF OMITTED] T6626.264
    
    [GRAPHIC] [TIFF OMITTED] T6626.265
    
    [GRAPHIC] [TIFF OMITTED] T6626.266
    
    [GRAPHIC] [TIFF OMITTED] T6626.267
    
    [GRAPHIC] [TIFF OMITTED] T6626.268
    
    [GRAPHIC] [TIFF OMITTED] T6626.269
    
    [GRAPHIC] [TIFF OMITTED] T6626.270
    
    [GRAPHIC] [TIFF OMITTED] T6626.271
    
    [GRAPHIC] [TIFF OMITTED] T6626.272
    
    [GRAPHIC] [TIFF OMITTED] T6626.273
    
    [GRAPHIC] [TIFF OMITTED] T6626.274
    
    [GRAPHIC] [TIFF OMITTED] T6626.275
    
    [GRAPHIC] [TIFF OMITTED] T6626.276
    
    [GRAPHIC] [TIFF OMITTED] T6626.277
    
    [GRAPHIC] [TIFF OMITTED] T6626.278
    
    [GRAPHIC] [TIFF OMITTED] T6626.279
    
    [GRAPHIC] [TIFF OMITTED] T6626.280
    
    [GRAPHIC] [TIFF OMITTED] T6626.281
    
    [GRAPHIC] [TIFF OMITTED] T6626.282
    
    [GRAPHIC] [TIFF OMITTED] T6626.283
    
    [GRAPHIC] [TIFF OMITTED] T6626.284
    
    [GRAPHIC] [TIFF OMITTED] T6626.285
    
    [GRAPHIC] [TIFF OMITTED] T6626.286
    
    [GRAPHIC] [TIFF OMITTED] T6626.287
    
    [GRAPHIC] [TIFF OMITTED] T6626.288
    
    [GRAPHIC] [TIFF OMITTED] T6626.289
    
    [GRAPHIC] [TIFF OMITTED] T6626.290
    
    [GRAPHIC] [TIFF OMITTED] T6626.291
    
    [GRAPHIC] [TIFF OMITTED] T6626.292
    
    [GRAPHIC] [TIFF OMITTED] T6626.293
    
    [GRAPHIC] [TIFF OMITTED] T6626.294
    
    [GRAPHIC] [TIFF OMITTED] T6626.295
    
    [GRAPHIC] [TIFF OMITTED] T6626.296
    
    [GRAPHIC] [TIFF OMITTED] T6626.297
    
    [GRAPHIC] [TIFF OMITTED] T6626.298
    
    [GRAPHIC] [TIFF OMITTED] T6626.299
    
    [GRAPHIC] [TIFF OMITTED] T6626.300
    
    [GRAPHIC] [TIFF OMITTED] T6626.301
    
    [GRAPHIC] [TIFF OMITTED] T6626.302
    
    [GRAPHIC] [TIFF OMITTED] T6626.303
    
    [GRAPHIC] [TIFF OMITTED] T6626.304
    
    [GRAPHIC] [TIFF OMITTED] T6626.305
    
    [GRAPHIC] [TIFF OMITTED] T6626.306
    
    [GRAPHIC] [TIFF OMITTED] T6626.307
    
    [GRAPHIC] [TIFF OMITTED] T6626.308
    
    [GRAPHIC] [TIFF OMITTED] T6626.309
    
    [GRAPHIC] [TIFF OMITTED] T6626.310
    
    [GRAPHIC] [TIFF OMITTED] T6626.311
    
    [GRAPHIC] [TIFF OMITTED] T6626.312
    
    [GRAPHIC] [TIFF OMITTED] T6626.313
    
    [GRAPHIC] [TIFF OMITTED] T6626.314
    
    [GRAPHIC] [TIFF OMITTED] T6626.315
    
    [GRAPHIC] [TIFF OMITTED] T6626.316
    
    [GRAPHIC] [TIFF OMITTED] T6626.317
    
    [GRAPHIC] [TIFF OMITTED] T6626.318
    
    [GRAPHIC] [TIFF OMITTED] T6626.319
    
    [GRAPHIC] [TIFF OMITTED] T6626.320
    
    [GRAPHIC] [TIFF OMITTED] T6626.321
    
    [GRAPHIC] [TIFF OMITTED] T6626.322
    
    [GRAPHIC] [TIFF OMITTED] T6626.323
    
    [GRAPHIC] [TIFF OMITTED] T6626.324
    
    [GRAPHIC] [TIFF OMITTED] T6626.325
    
    [GRAPHIC] [TIFF OMITTED] T6626.326
    
    [GRAPHIC] [TIFF OMITTED] T6626.327
    
    [GRAPHIC] [TIFF OMITTED] T6626.328
    
    [GRAPHIC] [TIFF OMITTED] T6626.329
    
    [GRAPHIC] [TIFF OMITTED] T6626.330
    
    [GRAPHIC] [TIFF OMITTED] T6626.331
    
    [GRAPHIC] [TIFF OMITTED] T6626.332
    
    [GRAPHIC] [TIFF OMITTED] T6626.333
    
    [GRAPHIC] [TIFF OMITTED] T6626.334
    
    [GRAPHIC] [TIFF OMITTED] T6626.335
    
    [GRAPHIC] [TIFF OMITTED] T6626.336
    
    [GRAPHIC] [TIFF OMITTED] T6626.337
    
    [GRAPHIC] [TIFF OMITTED] T6626.338
    
    [GRAPHIC] [TIFF OMITTED] T6626.339
    
    [GRAPHIC] [TIFF OMITTED] T6626.340
    
    [GRAPHIC] [TIFF OMITTED] T6626.341
    
    [GRAPHIC] [TIFF OMITTED] T6626.342
    
    [GRAPHIC] [TIFF OMITTED] T6626.343
    
    [GRAPHIC] [TIFF OMITTED] T6626.344
    
    [GRAPHIC] [TIFF OMITTED] T6626.345
    
    [GRAPHIC] [TIFF OMITTED] T6626.346
    
    [GRAPHIC] [TIFF OMITTED] T6626.347
    
    [GRAPHIC] [TIFF OMITTED] T6626.348
    
    [GRAPHIC] [TIFF OMITTED] T6626.349
    
    [GRAPHIC] [TIFF OMITTED] T6626.350
    
    [GRAPHIC] [TIFF OMITTED] T6626.351
    
    [GRAPHIC] [TIFF OMITTED] T6626.352
    
    [GRAPHIC] [TIFF OMITTED] T6626.353
    
    [GRAPHIC] [TIFF OMITTED] T6626.354
    
    [GRAPHIC] [TIFF OMITTED] T6626.355
    
    [GRAPHIC] [TIFF OMITTED] T6626.356
    
    [GRAPHIC] [TIFF OMITTED] T6626.357
    
    [GRAPHIC] [TIFF OMITTED] T6626.358
    
    [GRAPHIC] [TIFF OMITTED] T6626.359
    
    [GRAPHIC] [TIFF OMITTED] T6626.360
    
    [GRAPHIC] [TIFF OMITTED] T6626.361
    
    [GRAPHIC] [TIFF OMITTED] T6626.362
    
    [GRAPHIC] [TIFF OMITTED] T6626.363
    
    [GRAPHIC] [TIFF OMITTED] T6626.364
    
    [GRAPHIC] [TIFF OMITTED] T6626.365
    
    [GRAPHIC] [TIFF OMITTED] T6626.366
    
    [GRAPHIC] [TIFF OMITTED] T6626.367
    
    [GRAPHIC] [TIFF OMITTED] T6626.368
    
    [GRAPHIC] [TIFF OMITTED] T6626.369
    
    [GRAPHIC] [TIFF OMITTED] T6626.370
    
    [GRAPHIC] [TIFF OMITTED] T6626.371
    
    [GRAPHIC] [TIFF OMITTED] T6626.372
    
    [GRAPHIC] [TIFF OMITTED] T6626.373
    
    [GRAPHIC] [TIFF OMITTED] T6626.374
    
    [GRAPHIC] [TIFF OMITTED] T6626.375
    
    [GRAPHIC] [TIFF OMITTED] T6626.376
    
    [GRAPHIC] [TIFF OMITTED] T6626.377
    
    [GRAPHIC] [TIFF OMITTED] T6626.378
    
    [GRAPHIC] [TIFF OMITTED] T6626.379
    
    [GRAPHIC] [TIFF OMITTED] T6626.380
    
    [GRAPHIC] [TIFF OMITTED] T6626.381
    
    [GRAPHIC] [TIFF OMITTED] T6626.382
    
    [GRAPHIC] [TIFF OMITTED] T6626.383
    
                                      <all>
</pre></body></html>
